No. _________
In the Supreme Court of the United States
_____________________________________________________
IDAHO DEPARTMENT OF CORRECTION, HENRY
ATENCIO, in his official capacity as Director of the IDOC;
JEFF ZMUDA, in his official capacity as Deputy Director of the
IDOC; AL RAMIREZ, in his official capacity as Warden of the
Idaho State Correctional Institution; and SCOTT ELIASON,
M.D.
Applicants,
v.
ADREE EDMO, AKA MASON EDMO,
Respondent.

_________________________________________________________________
On Application to Stay the Order of the U.S. District
Court for the District of Idaho
___________________________________________________________________
Application For Reinstatement of Stay Issued by the
Ninth Circuit Pending Disposition of A Petition for Writ of
Certiorari
____________________________________________
DYLAN A. EATON
J. KEVIN WEST
BRYCE JENSEN
PARSONS BEHLE & LATIMER
800 West Main Street
Suite 1300
Boise, Idaho 83702
Counsel for Applicant Scott Eliason, M.D.

May 6, 2020

LAWRENCE G. WASDEN
ATTORNEY GENERAL STATE OF IDAHO
BRIAN KANE
Assistant Chief Deputy
MEGAN A. LARRONDO
Deputy Attorney General
BRADY J. HALL
Special Deputy Attorney General
Counsel of Record
Moore Elia Kraft & Hall, LLP
P.O. Box 6756
Boise, Idaho 83707
Telephone: (208) 336-6900
brady@melawfirm.net
Counsel for Applicants Idaho Department of
Correction, and Henry Atencio, Jeff Zmuda, and Al
Ramirez, in their official capacities

TABLE OF CONTENTS
TABLE OF AUTHORITIES ......................................................................................................... iii
INTRODUCTION .......................................................................................................................... 1
JURISDICTION ............................................................................................................................. 3
STATEMENT OF THE CASE ....................................................................................................... 4
A.

Dr. Eliason treated Edmo for gender dysphoria in prison; in 2016, he made
the medical decision not to recommend sex reassignment surgery for
Edmo ........................................................................................................................4

B.

Edmo filed a lawsuit alleging her treatment for gender dysphoria was
constitutionally inadequate ......................................................................................8

C.

The district court issued an injunction ordering Idaho to provide Edmo
with sex reassignment surgery ...............................................................................11

D.

The Ninth Circuit panel affirmed the injunction issued by the district court ........12

E.

The Ninth Circuit denied Defendants’ request for rehearing en banc,
despite the disagreement of ten circuit judges .......................................................14

REASONS FOR REINSTATING THE STAY ............................................................................ 16
I.

There is a reasonable probability that this Court will grant certiorari .............................. 16
A.

B.

There is at least a reasonable probability that four Justices will find
certiorari warranted on the first Question Presented ..............................................17
1.

The Ninth Circuit’s adoption of guidelines set by an advocacy
organization creates a circuit split with the First, Fifth, Tenth, and
Eleventh Circuits ........................................................................................17

2.

The Ninth Circuit’s adoption of guidelines set by an advocacy
organization conflicts with this Court’s precedents ...................................21

3.

The first Question Presented involves recurring issues of national
importance..................................................................................................23

There is at least a reasonable probability that four Justices will find
certiorari warranted on the second Question Presented .........................................25

i

1.

The Ninth Circuit’s deliberate indifference analysis conflicts with
Estelle v. Gamble by imposing liability for what could, at most, be
mere medical negligence............................................................................26

2.

The Ninth Circuit’s deliberate indifference analysis conflicts with
Farmer v. Brennan by ignoring the subjective component of
deliberate indifference ...............................................................................30

3.

The second Question Presented also involves recurring issues of
national importance ....................................................................................33

II.

There is at least a fair prospect that the Ninth Circuit’s decision will be overturned ....... 34

III.

Applicants will suffer irreparable harm if the requested stay is not granted .................... 36

CONCLUSION ............................................................................................................................. 39

ii

TABLE OF AUTHORITIES
Armstrong v. Mid-Level Prac. John B. Connally Unit,
No. SA-18-CV-00677-XR, 2020 WL 230887 (W.D. Tex. Jan. 15, 2020) ....................... 25
Atkins v. Parker,
412 F. Supp. 3d 761 (M.D. Tenn. 2019) ........................................................................... 23
Avilez v. Barr,
No. 19-cv-08296-CRB, 2020 WL 570987 (N.D. Cal. Feb. 5, 2020) ................................ 25
Bell v. Wolfish,
441 U.S. 520 (1979) ................................................................................................... passim
Campbell v. Kallas,
936 F.3d 536 (7th Cir. 2019) ............................................................................................ 19
Clark v. LeBlanc,
No. 3:19-00512-BAJ-RLB, 2019 WL 5085425 (M.D. La. Oct. 10, 2019) ...................... 24
Corr. Servs. Corp. v. Malesko,
534 U.S. 61 (2001) ............................................................................................................ 26
Dana v. Tewalt,
No. 1:18-cv-00298-DCN, 2020 WL 1545786 (D. Idaho Apr. 1, 2020) ........................... 25
Druley v. Patton,
601 Fed. App’x 632 (10th Cir. 2015) ................................................................... 20, 21, 32
Estelle v. Gamble,
429 U.S. 97 (1976) ..................................................................................................... passim
Farmer v. Brennan,
511 U.S. 825 (1994) ................................................................................................... passim
Gibson v. Collier,
920 F.3d 212 (5th Cir. 2019), cert. denied, 140 S. Ct. 653 (2019) ................. 19, 22, 25, 28
Gonzales v. Cal. Dep’t of Corrs. & Rehab.,
No. 1:19-cv-01467BAM (PC), 2020 WL 1847491 (E.D. Cal. Apr. 13, 2020) ................ 25
Heckler v. Turner,
468 U.S. 1305 (1984) ........................................................................................................ 37
Hollingsworth v. Perry,
558 U.S. 183 (2010) .......................................................................................................... 16
iii

Hope v. Pelzer,
536 U.S. 730 (2002) .......................................................................................................... 26
In re Roche,
448 U.S. 1312 (1980) ........................................................................................................ 34
Jackson v. Kallas,
No. 17-cv-350-bbc, 2020 WL 1139769 (W.D. Wis. Mar. 9, 2020) ................................. 25
John Doe Agency v. John Doe Corp.,
488 U.S. 1306 (1989) .................................................................................................. 16, 36
Keohane v. Florida Department of Corrections Secretary,
952 F.3d 1257 (11th Cir. 2020) ............................................................................ 21, 24, 30
Keohane v. Jones,
328 F. Supp. 3d 1288 (N.D. Fla. 2018)............................................................................. 21
Kosilek v. Spencer,
774 F.3d 63 (1st Cir. 2014), cert. denied, Kosilek v. O’Brien, 135 S. Ct. 2059 (2015)
.................................................................................................................................... passim
Lamb v. Norwood,
262 F. Supp. 3d 1151 (D. Kan. 2017) ............................................................................... 20
Lamb v. Norwood,
899 F.3d 1159 (10th Cir. 2018), cert. denied, 140 S. Ct. 252 (2019) .................. 20, 25, 30
Ledbetter v. Baldwin,
479 U.S. 1309 (1986) ........................................................................................................ 37
Minneci v. Pollard,
565 U.S. 118 (2012) .......................................................................................................... 26
Monroe v. Baldwin,
No. 18-CV-00156-NJR-MAB, 2019 WL 6918474 (S.D. Ill. Dec. 19, 2019)................... 24
Monroe v. Meeks,
No. 18-cv-00156-NJR, 2020 WL 1048770 (S.D. Ill. Mar. 4, 2020)........................... 24, 25
Murillo v. Godfrey,
No. 2:18-cv-02342-JGB-JC, 2020 WL 1139811 (C.D. Cal. Mar. 9, 2020) ..................... 25
Nken v. Holder,
556 U.S. 418 (2009) .......................................................................................................... 36

iv

Ortiz v. Jordan,
562 U.S. 180 (2011) .......................................................................................................... 31
Porter v. Crow,
No. 18-CV-0472-JED-FHM, 2020 WL 620284 (N.D. Okla. Feb. 10, 2020) ................... 25
Republican State Cent. Comm. of Ariz. v. Ripon Soc. Inc.,
409 U.S. 1222 (1972) ........................................................................................................ 36
Rhodes v. Chapman,
452 U.S. 337 (1981) .......................................................................................................... 33
Rostker v. Goldberg,
448 U.S. 1306 (1980) ........................................................................................................ 38
Scripps-Howard Radio v. F.C.C.,
316 U.S. 4 (1942) .............................................................................................................. 36
Univ. of Tex. v. Camenisch,
451 U.S. 390 (1981) .......................................................................................................... 37
Constitution and Statutes
U.S. Const. amend. VIII......................................................................................................... passim
28 U.S.C. § 1254(1) ........................................................................................................................ 4
28 U.S.C. § 2101(f) ......................................................................................................................... 4
Other Authorities
Anthony F. Granucci, “Nor Cruel and Unusual Punishment Inflicted:” The Original
Meaning, 57 Cal. L. Rev. (1969) ...................................................................................... 23
California murder convict becomes first U.S. inmate to have state-funded sex reassignment
surgery, L.A. TIMES (Jan. 6, 2017) ..................................................................................... 5
CMS, DECISION MEMO FOR GENDER DYSPHORIA AND GENDER REASSIGNMENT SURGERY
(Aug. 30, 2016) ....................................................................................................... 9, 22, 23
William Byne et al., Report of the American Psychiatric Association Task Force on
Treatment of Gender Identity Disorder, 41 Archives of Sexual
Behavior (2012) ............................................................................................................ 9, 22

v

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the United
States and Circuit Justice for the Ninth Circuit:
INTRODUCTION
Applicants seek reinstatement of the Ninth Circuit’s stay of a district court order
requiring the State of Idaho to provide sex reassignment surgery to transgender inmate Adree
Edmo pending final disposition of their Petition for Writ of Certiorari filed on May 6, 2020.
This requested stay is needed to avoid mooting the appeal and to allow this Court to resolve a
circuit split and address the Ninth Circuit’s failure to apply this Court’s binding precedent.
Edmo’s presurgical preparations are set to begin around the middle of June and surgery is
scheduled for early July 2020.
The Ninth Circuit held that prison psychiatrist, Dr. Scott Eliason, inflicted cruel and
unusual punishment upon Edmo in violation of the Eighth Amendment when he recommended
that her gender dysphoria be treated with hormone therapy and counseling, and not irreversible
sex reassignment surgery. It is the first circuit in the nation to reach such a conclusion, which it
reached by adopting an advocacy organization’s requirements as constitutional minima, causing
a circuit split, and disregarding this Court’s binding precedent. As a result of the order issued by
the district court and affirmed by the Ninth Circuit, the State of Idaho is required to provide sex
reassignment surgery to Edmo. While the Ninth Circuit determined that a stay was merited
during the pendency of the appeal before the circuit court, it declined to issue a stay to ensure
this Court’s ability to review its decision. The Applicants, several Idaho prison officials and Dr.
Eliason, now respectfully and urgently request that this Court stay the district court’s order
pending this Court’s disposition of their Petition for Writ of Certiorari.
Edmo was incarcerated in 2012 for sexually assaulting a sleeping boy. Soon after, Dr.
Eliason began treating Edmo for gender dysphoria with hormone therapy and counseling (to the

1

extent she was willing to participate). Hormone therapy helped clear her head and improved her
dysphoria. In April 2016, Dr. Eliason evaluated Edmo for sex reassignment surgery. At the time
of his evaluation, Dr. Eliason did not see any signs of significant dysphoria.
Dr. Eliason consulted with multiple other health care and prison professionals. He
ultimately concluded, with universal agreement, that Edmo was best served by continued
conservative treatment in the form of hormone therapy and counseling, and not sex reassignment
surgery. He reached this conclusion for three reasons: (1) he felt the degree of Edmo’s distress
did not warrant administering the most aggressive—and permanent—gender dysphoria
treatment; (2) he was concerned that, as a result of her other mental health conditions, Edmo
lacked the coping skills necessary to deal with the stress of the surgery and transition; and (3)
knowing that Edmo would soon be parole eligible, he felt that Edmo would be best served by
having the procedure done after her release and after she had a chance to live as a woman in her
“real world” and to ensure she could develop a social network that would support her transition.
Dr. Eliason was concerned about the risk that Edmo might commit suicide after the surgery. He
considered Edmo’s prior self-castration attempt, but his concerns about performing irreversible
sex reassignment surgery outweighed that risk, and he took action to deter Edmo from further
attempts at self-castration.
The district court concluded that Dr. Eliason’s decision not to recommend sex
reassignment surgery was deliberately indifferent because he did not apply a transgender
advocacy group’s controversial treatment guidelines. The Ninth Circuit affirmed, implicitly
adopting the advocacy group’s guidelines as constitutional requirements to find Dr. Eliason’s
treatment decision “medically unacceptable.” The Ninth Circuit then concluded Dr. Eliason was
deliberately indifferent because he knew that there was a risk that Edmo would attempt self-

2

castration if sex reassignment surgery was not performed. The Ninth Circuit failed to consider
Dr. Eliason’s subjective reasoning for not recommending sex reassignment surgery, as well as
the risks he considered for and against surgery, in analyzing whether he knew of and disregarded
a substantial risk of serious harm.
Applicants have now filed a Petition for Writ of Certiorari seeking this Court’s review of
the Ninth Circuit’s decision. The Petition asks this Court to grant certiorari for two compelling
reasons: (1) to resolve a clear split between the Ninth and the First, Fifth, Tenth, and Eleventh
Circuits as to whether the advocacy group’s guidelines set the constitutional minima for the
treatment of gender dysphoria and (2) because the Ninth Circuit violated this Court’s binding
precedent in Estelle v. Gamble, 429 U.S. 97 (1976), by adopting a negligence standard to
determine deliberate indifference, and in Farmer v. Brennan, 511 U.S. 825 (1994), by failing to
properly consider Dr. Eliason’s subjective state of mind and the risks he weighed both for and
against surgery. Ten judges dissented from the Ninth Circuit’s order denying rehearing en banc
for these very reasons.
Reinstatement of the stay order that was issued during the Ninth Circuit appeal is
warranted because there is a reasonable probability that four Justices will consider these issues
sufficiently meritorious to grant certiorari, a fair prospect that a majority of the Court will vote to
reverse the judgment below, and this Court’s stay order is necessary to prevent irreparable harm
and to preserve the issues for this Court’s review if certiorari is granted.
JURISDICTION
On December 13, 2018, the district court entered a permanent injunction requiring
Applicants to provide Edmo with sex reassignment surgery. (Ex. A.) The district court denied
Applicants’ motion to stay the injunction pending appeal to the Ninth Circuit. (Ex. B.) On

3

March 20, 2019, the Ninth Circuit stayed the injunction pending appeal. (Ex. C.) On August 23,
2019, the Ninth Circuit issued its opinion affirming the injunction, in part, and declared that the
stay “shall automatically terminate upon issuance of the mandate.” (Ex. D.) On September 6,
2019, the Applicants filed a petition for rehearing en banc, which temporarily stayed the
mandate. On October 10, 2019, the Ninth Circuit partially lifted the stay to allow Edmo to
receive pre-surgical hair removal, but left the injunction to provide the surgery in place. (Ex. E.)
The Ninth Circuit denied the petition for rehearing en banc on February 10, 2020. (Ex. F.) On
February 13, 2020, the Applicants filed a request with the Ninth Circuit to stay the mandate
pending certiorari review by this Court, which again temporarily stayed issuance of the mandate.
That request was denied and the mandate issued on February 19, 2020. (Ex. G.) Edmo is
scheduled to undergo the irreversible sex reassignment surgery in early July 2020. This Court
has jurisdiction to reinstate the stay ordered by the Ninth Circuit of the district court’s injunction
to allow for its review of a petition for writ of certiorari pursuant to 28 U.S.C. §§ 1254(1) and
2101(f).
STATEMENT OF THE CASE
A.

Dr. Eliason treated Edmo for gender dysphoria in prison; in 2016, he made the
medical decision not to recommend sex reassignment surgery for Edmo.
Dr. Scott Eliason is a board-certified psychiatrist who is experienced and trained in

treating prisoners, including those with gender dysphoria. ER1 797 (Tr. 401:4-25), ER 802 (Tr.
406:3-6, 16-21), ER 816 (Tr. 420:8-13). He is the Regional Psychiatric Director for Corizon, a
company that provides certain medical services for inmates in Idaho Department of Correction
(“IDOC”) custody. Ex. D at 9 n.1; ER 797 (Tr. 401:3-4).

1

All citations to “ER” are to the Excerpt of Record filed in the Ninth Circuit by the DefendantsAppellants.
4

In 2012, Dr. Eliason was assigned a new patient, Adree Edmo (who was then known as
Mason Edmo), who had recently pled guilty to sexually assaulting a sleeping 15 year-old boy.
Ex. D at 20; ER 1513. Well before her 2012 incarceration, Edmo suffered from abuse, trauma,
and profound mental illness and was repeatedly non-compliant with treatment. Ex. D at 22; ER
880, 882, 884-86. Edmo attempted suicide at least twice in the years prior to her arrest. Ex. D
at 22; ER 602 (Tr. 206:14-16).
Dr. Eliason diagnosed Edmo with gender identity disorder, now known as gender
dysphoria, in June 2012. Ex. D at 20. Shortly after, prison doctors started Edmo on hormone
therapy. Id. at 21. She now has the same circulating hormones and secondary sexual
characteristics of an adult female. Id. The hormones have “alleviate[ed] her gender dysphoria to
some extent.” Id.
Dr. Eliason and other prison providers also recommended that Edmo participate in mental
health treatment and counseling to reduce her gender-related dysphoria and co-existing mental
health conditions. Id. at 22; Ex. A at 27-28. However, Edmo repeatedly refused to attend
treatment and declined to fully participate in counseling, which the district court found
“troubling.” Ex. D at 22; Ex. A at 27.
Dr. Eliason met with Edmo regularly following her diagnosis. ER 811 (Tr. 415:4-12). In
April 2016, Dr. Eliason evaluated Edmo for sex reassignment surgery. Ex. D at 22. At that time,
no prisoner in the United States had ever received such a surgery.2 Dr. Eliason noted that Edmo
reported she was “doing alright.” Id. Edmo reported that hormone therapy had improved her

2

As of the 2018 evidentiary hearing, only one other prisoner in the U.S. had received sex
reassignment surgery. ER 208 (Tr. 514:9-11), ER 1088 (Tr. 110:9-12); California murder
convict becomes first U.S. inmate to have state-funded sex reassignment surgery, L.A. TIMES
(Jan. 6, 2017), https://www.latimes.com/local/lanow/la-me-ln-inmate-sex-reassignment20170106-story.html
5

dysphoria, but she remained frustrated by her genitalia; she had attempted self-castration months
earlier. Id. Dr. Eliason correctly indicated in his charting that “Medical Necessity for Sexual
Reassignment Surgery is not very well defined and is constantly shifting.” Id. at 23; ER 1730.
He noted that one indicator of medical necessity for sex reassignment surgery was “severe and
devastating dysphoria that is primarily due to genitals[.]” Ex. D at 23. Dr. Eliason “did not see
significant dysphoria” at his April 2016 evaluation of Edmo. Id. “[I]nstead, she ‘looked pleasant
and had a good mood.’” Id. Dr. Eliason also spoke to prison staff, who confirmed Edmo had
“animated affect and no observed distress.” Id. Dr. Eliason was concerned, in the absence of
more severe distress, about the risks of pursuing the most aggressive—and permanent—gender
dysphoria treatment: surgery. ER 1730; ER 189 (Tr. 495:10-12); ER 826-28 (Tr. 430:22432:11); ER 229 (Tr. 535:1-13).
There were two additional reasons underlying Dr. Eliason’s decision.3 Ex. D at 24; Ex. A
at 24-25. First, Dr. Eliason concluded that Edmo’s separate mental health conditions—including
major depressive disorder and substance abuse—were not adequately controlled. Ex. D at 24.
Dr. Eliason was concerned about Edmo’s ability to cope with the stressful process of the lifechanging surgery and transition. ER 180-81 (Tr. 486:5-487:11); ER 237 (Tr. 543:1-11); ER 82728 (Tr. 431:3-432:11).
Second, Dr. Eliason was concerned that Edmo had not yet had an opportunity to live as a
woman in an out-of-prison social setting. Ex. D at 24-25. Dr. Eliason was aware of reports of
high suicide rates for postoperative patients and concerned that Edmo might be at a greater risk
of suicide given the potential lack of support from family, friends, and her social network during

3

The Ninth Circuit suggested that these were post-hoc explanations, but the district court made
no such finding and only determined that Dr. Eliason did not follow the advocacy group’s
treatment guidelines. Ex. D at 60; Ex. A at 25-26.
6

her transition. ER 827-28 (Tr. 431:3-432:11). He knew Edmo would be parole eligible in 2016
and would soon have the opportunity to live as a woman in her community before undergoing
the irreversible procedure; Dr. Eliason was gravely concerned that “it was not doing Ms. Edmo
any service to rush through getting gender reassignment surgery in that current social situation.”4
Id.; ER 180 (Tr. 486:6-13), ER 827 (Tr. 431:3-6); Ex. A at 25.
Prior to making a final decision, Dr. Eliason researched how entities like Medicare and
Medicaid handled sex reassignment surgery and he sought input from providers and mental
health colleagues with different backgrounds and viewpoints. ER 821 (Tr. 425:2-5), ER 823 (Tr.
427:20-24). Dr. Eliason staffed the evaluation with Dr. Jeremy Stoddart (for another psychiatric
viewpoint) and Dr. Murray Young, Corizon’s Regional Medical Director (for a medical
perspective), as well as Jeremy Clark, an IDOC clinical supervisor and member of the World
Professional Association for Transgender Health (“WPATH”) (for a WPATH perspective). Ex.
D at 24; ER 821 (Tr. 425:7-14); ER 717 (Tr. 321:17-22). He also presented the evaluation to the
prison Management and Treatment Committee (”MTC”), a multi-disciplinary team of medical,
mental health, and security professionals that regularly discusses how best to meet the unique
needs of prisoners diagnosed with gender dysphoria. Ex. D at 24. There was universal
agreement with Dr. Eliason’s treatment plan. Id.
Ultimately, Dr. Eliason decided not to refer Edmo for sex reassignment surgery and to
maintain the treatment that had already been helpful for Edmo, including hormone therapy and
counseling. Id. at 23-24. He left the door open to revisit the decision. Id. To deter any future

4

Edmo has not been granted parole due to her refusal to complete Sex Offender Treatment
Programming and significant disciplinary history, which includes multiple offenses for assault,
theft, and sexual contact. ER 3149-51, ER 1113 (Tr. 135:12-18), ER 3401. Edmo will complete
her current sentence in July 2021 and will be released at that time. ER 626 (Tr. 230:2-10), ER
3401.
7

self-castration attempts, Dr. Eliason explained to Edmo the importance of having intact genitals
for any future sex reassignment surgery. ER 818 (Tr. 422:21-24).
By September 2016, Dr. Eliason had stopped treating Edmo because she had moved off
the Behavioral Health Unit. ER 798-99 (Tr. 402:22-403:5), ER 811 (Tr. 415:6-12), ER 186 (Tr.
492:21-493:3); ER 1759. Edmo continued to be monitored by the MTC and treated by other
providers and clinicians. ER 186-87 (Tr. 492:21-493:3). Dr. Eliason reviewed her case in the
context of the MTC meetings, but he was never asked to reevaluate her for sex reassignment
surgery. ER 187 (Tr. 493:3-9).
Edmo attempted self-castration for a second time in December 2016. Ex. D at 25. Dr.
Eliason felt Edmo’s self-castration attempts were reflective of her poor coping response to
stressors, such as discipline, rather than indicia of an immediate need for sex reassignment
surgery. ER 180-81 (Tr. 486:22-487:11). His informed medical opinion continues to be that if
sex reassignment surgery is ever indicated, doing so “on the outside [of prison] would best suit
Ms. Edmo.” ER 180 (Tr. 486:12-13).
B.

Edmo filed a lawsuit alleging her treatment for gender dysphoria was
constitutionally inadequate.
About a year after the 2016 evaluation, Edmo filed suit under 42 U.S.C. § 1983 against

Dr. Eliason, the IDOC, Corizon, and several other prison medical providers and staff, alleging
that the denial of sex reassignment surgery had, among other things, violated her Eighth
Amendment right to be free from cruel and unusual punishment. Ex. D at 26. She filed a motion
for a preliminary injunction to compel the provision of sex reassignment surgery. Id. at 26-27.
In October 2018, following four months of discovery, the district court held an
evidentiary hearing on the requested preliminary injunction. Id. at 27. Dr. Eliason, Clinician

8

Clark, and Edmo testified at the hearing. Id. at 27-28. Four expert witnesses also testified at the
hearing. Id. at 28.
Edmo’s experts were Dr. Randi Ettner, a psychologist, and Dr. Ryan Gorton, an
emergency room physician. Id. at 28, 31. Both doctors are heavily involved in WPATH. Id.
WPATH is an advocacy organization dedicated to “developing best practices and
supportive policies worldwide that promote health, research, education, respect, dignity, and
equality for transsexual, transgender, and gender nonconforming people in all cultural settings.”
ER 2938 (WPATH, Standards of Care for the Health of Transsexual, Transgender, and Gender
Nonconforming People, 1 (7th ed. 2011) (“Standards”)). WPATH promulgates guidelines,
which it calls “Standards of Care” (referred to herein as “Standards”), that provide treatment
recommendations.5 See Ex. D at 15; Ex. A at 6-7.
The term “Standards of Care” is a misnomer. The WPATH Standards do not reflect
accepted standards of care in the medical community. The Centers for Medicare and Medicaid
Services (“CMS”) have refused to adopt them as controlling and at least one medical group has
expressed concern regarding their scientific underpinnings. CMS, DECISION MEMO FOR GENDER
DYSPHORIA AND GENDER REASSIGNMENT SURGERY (Aug. 30, 2016),
https://go.cms.gov/36yMrxX; see also ER 544-81 (William Byne et al., Report of the American
Psychiatric Association Task Force on Treatment of Gender Identity Disorder, 41 Archives of
Sexual Behav. 759, 783 (2012)). Even WPATH itself states that the Standards are intended to be
“flexible clinical guidelines” from which providers may deviate. Ex. D at 15.

5

While Applicants use the shorthand “Standards” to refer to the WPATH Standards to be
consistent with the terminology used by the courts of appeals, they do not concede that the
WPATH Standards equate with a medically-accepted and endorsed standard of care.
9

The WPATH Standards set forth six suggested criteria for male-to-female sex
reassignment surgery:
(1)

persistent, well documented gender dysphoria;

(2)

capacity to make a fully informed decision and to consent for
treatment;

(3)

age of majority. . .;

(4)

if significant medical or mental health concerns are present, they
must be well controlled;

(5)

12 continuous months of hormone therapy as appropriate to the
patient’s gender goals; and

(6)

12 continuous months of living in a gender role that is congruent
with their gender identity.

Id. at 17-18 (quoting Standards at 60 (ER 2997)) (internal quotation marks omitted).
Dr. Ettner and Dr. Gorton testified that, in their opinion, Edmo needed sex reassignment
surgery, in part, because she met the suggested criteria for sex reassignment surgery in the
Standards and because she was unlikely to have further improvement in her gender dysphoria
without surgery. Id. at 29-33.
Defendants’ experts were Dr. Keelin Garvey, MD, the former Chief Psychiatrist of the
Massachusetts Department of Correction (MADOC) and Chair of its Gender Dysphoria
Treatment Committee, and Dr. Joel Andrade, Ph.D, a clinical social worker who served as
MADOC’s Clinical Director and member of the same Gender Dysphoria Treatment Committee.
Id. at 33-35.
Dr. Garvey and Dr. Andrade disagreed with Edmo’s experts. Dr. Garvey testified that
she did not regard the WPATH Standards as definitive treatment criteria, let alone reflective of
medical consensus. ER 225-28 (Tr. 531:5-534:7). She testified the evidence underlying the
Standards was not sufficiently developed, particularly as to the treatment of gender dysphoric

10

prisoners. Id. Dr. Garvey opined Dr. Eliason had used “his clinical judgment to apply decisionmaking[.]” ER 221 (Tr. 527:5-7).
Both Dr. Garvey and Dr. Andrade agreed with Dr. Eliason that sex reassignment surgery
was not appropriate for Edmo. Ex. D at 33-37. They raised concerns that she would have
problems transitioning after surgery because her co-existing mental health concerns were not
well controlled. Id. And they were concerned that she had not yet lived as a woman outside of
prison, meaning that she did not yet know if she and her social network were ready for the postsurgery challenges. Id.
C.

The district court issued an injunction ordering Idaho to provide Edmo with sex
reassignment surgery.
The district court analyzed the evidence in the context of a motion for preliminary

injunction. See Ex. A at 29-31.
In analyzing Edmo’s likelihood of success on the merits, the district court first looked at
whether sex reassignment surgery was medically necessary for Edmo. Id. at 35-39. As a critical
threshold issue, the district court found the WPATH Standards to be the standard of care for the
treatment of gender dysphoria in incarcerated patients. Id. at 36. Using the Standards as its
touchstone, the district court found the State’s experts “unconvincing” and gave their opinions
“virtually no weight.” Id. at 36-39. The district court then found the “Defendants” as a whole
had been deliberately indifferent to Edmo’s medical needs (focusing on findings it felt suggested
bias by IDOC and Corizon against providing sex reassignment surgery). Id. at 39-41.
The district court never found or concluded that Dr. Eliason himself was deliberately
indifferent, nor did it find that Dr. Eliason was not credible. See id. at 4-44. The district court’s
only conclusion specific to deliberate indifference by Dr. Eliason was that, in the court’s view,

11

he “did not apply the WPATH criteria” or his evaluation “failed to accurately apply the
WPATH” guidelines. Id. at 40.
The district court granted Edmo’s motion for preliminary injunction and ordered
Defendants to provide Edmo with sex reassignment surgery. Id. at 45. In a footnote, the district
court suggested it had “effectively converted” the evidentiary hearing into a final trial on the
merits. Id. at 31 n.1. The district court denied the Defendants’ motion to stay the injunction
pending appeal to the Ninth Circuit. Ex. B at 4.
D.

The Ninth Circuit panel affirmed the injunction issued by the district court.
The Defendants timely appealed the district court’s decision to the Ninth Circuit. The

Ninth Circuit stayed the injunction pending the outcome of the appeal, with the exception of an
already scheduled pre-surgical consultation. Ex. C at 2; Ex. D at 40.
Before issuing its opinion, the panel remanded the case to the district court on the limited
question of whether the injunction was preliminary or permanent. Ex. D at 40. In response, the
district court issued an order stating it had granted permanent injunctive relief and that it had
found Edmo succeeded on the merits of her Eighth Amendment claim. Id.
Three months later, the Ninth Circuit panel issued its opinion affirming the district
court’s finding that Dr. Eliason violated Edmo’s Eighth Amendment rights and the order
instructing Idaho prison officials to provide Edmo with sex reassignment surgery.6 Id. at 72, 85.
The Ninth Circuit applied the following test to determine whether there was deliberate
indifference: (1) whether “the course of treatment the [official] chose was medically

The panel reversed and vacated the injunction as to all Defendants named in their individual
capacities, other than Dr. Eliason, as there was insufficient evidence to conclude they were
deliberately indifferent. Ex. D at 75-77. The panel affirmed the injunction against several IDOC
officials named in their official capacities whom the panel held would be responsible for
implementing the injunction. Id. at 75-76.
6

12

unacceptable under the circumstances” and (2) whether “the [official] chose this course in
conscious disregard of an excessive risk to the plaintiff’s health.” Id. at 49.
To answer the first question, the Ninth Circuit affirmed the district court’s expert
credibility determinations, using compliance with the WPATH Standards as its touchstone. Id. at
50-51, 53-59 (“[T]he district court did not err in crediting the opinions of Edmo’s experts over
those of the State because aspects of Dr. Garvey’s and Dr. Andrade’s opinions ran contrary to the
established standards of care in the area of transgender health care—the WPATH Standards”).
The panel approved the district court’s decision to “credit[] the opinions of Edmo’s experts”
because it agreed Edmo’s experts’ testimony was the most consistent with the WPATH
Standards. Id. at 53-59. And it refused to give any deference to the judgment of the prison
doctors. Id. at 50. With that baseline, the panel concluded the “credited expert testimony
established that [sex reassignment surgery] is medically necessary to alleviate Edmo’s gender
dysphoria.” Id. at 59.
The panel then held that Dr. Eliason’s decision not to recommend sex reassignment
surgery was unreasonable because he “did not follow” or “reasonably deviate” from the WPATH
Standards. Id. at 59-63 (“Dr. Eliason did not follow accepted standards of care in the area of
transgender health care. . . . [The criteria he applied bore] little resemblance to the widely
accepted, evidence-based criteria set out in the WPATH’s Standards . . . ”; “Dr. Eliason’s criteria
. . . are so far afield from the WPATH standards that we cannot characterize his decision as a
flexible application of or deviation from those standards.”). The panel discounted the agreement
of Dr. Stoddart, Dr. Young, Clinician Clark, and the MTC with Dr. Eliason’s assessment because
“general agreement in a medically unacceptable form of treatment does not somehow make it
reasonable.” Id. at 63 n.18.

13

In applying the second part of its test—whether the treatment was chosen in conscious
disregard to an excessive risk to Edmo’s health—the panel held that Dr. Eliason was deliberately
indifferent simply because he “knew . . . that Edmo had attempted to castrate herself” and
“continued with Edmo’s . . . treatment plan” and he knew of Edmo’s second attempt at selfcastration in December 2016 but did not “change his mind or the treatment plan regarding
surgery.” Id. at 63-64. The panel did not discuss whether Dr. Eliason knew his treatment
decision was medically unacceptable nor did it consider that Dr. Eliason stopped being Edmo’s
treating physician prior to the second self-castration attempt. Further, the panel did not consider
that Dr. Eliason took steps to avert the risk of self-castration or that Dr. Eliason’s treatment
decision was the result of his effort to balance multiple risks to Edmo’s well-being.
The Ninth Circuit declared that the stay ordered on March 20, 2019 “shall automatically
terminate upon issuance of the mandate.” Id. at 85.
E.

The Ninth Circuit denied Defendants’ request for rehearing en banc, despite the
disagreement of ten circuit judges.
The Defendants timely petitioned for rehearing en banc on September 6, 2019, which

temporarily stayed the issuance of the mandate. Shortly thereafter, on October 10, 2019, the
Ninth Circuit expanded its partial lift of the district court’s stay order to include all pre-surgical
treatments and related corollary appointments or consultations necessary for sex reassignment
surgery. Ex. E at 2.
The Ninth Circuit denied the petition for re-hearing en banc on February 10, 2020. Ex. F
at 5.
Judge O’Scannlain, joined by eight other judges, opined in a statement respecting the
denial of rehearing en banc that the panel first erred in analyzing what it meant for medical
treatment to be “unacceptable” under the Eighth Amendment by (1) defining “constitutionally

14

acceptable medical care” by the “standards of one organization”; (2) adopting the guidelines of
“a controversial self-described advocacy group that dresses ideological commitments as
evidence-based conclusions”; and (3) failing to recognize the case was one of “dueling experts.”
Id. at 15. Even if this were not error, Judge O’Scannlain continued, the panel erred in its
deliberate indifference inquiry by disregarding risks that Dr. Eliason addressed and by fixating
on just one risk when Dr. Eliason made a considered treatment choice in a complex situation that
he believed “would mitigate overall risk.” Id. at 27 (emphasis omitted). Judge O’Scannlain
warned that the panel’s approach had created a circuit split. Id. at 29.
Judge Collins dissented from the denial of rehearing en banc, opining that the panel
failed to apply this Court’s binding precedent in Estelle v. Gamble by watering the analysis down
to a “mere negligence” test. Id. at 34-35.
Finally, Judge Bumatay, joined by five other judges in full and six in part, also dissented
from rehearing en banc, and opined that Dr. Eliason’s conduct was not a violation of the Eighth
Amendment based on the text and original understanding of the Constitution because of the yet
unproven, contested, and evolving nature of the WPATH Standards, the lack of medical
consensus, and the particular circumstances of the case. Id. at 35-43. Judge Bumatay further
maintained that the panel’s decision had departed from this Court’s precedent by diluting the
deliberate indifference standard to mere negligence and erasing the subjective component of the
deliberate indifference standard through circular reasoning. Id. at 43-48.
On February 13, 2020, the Defendants-Appellants filed a request with the Ninth Circuit
to stay the mandate pending certiorari review by this Court, which again temporarily stayed
issuance of the mandate. That request was denied and the mandate issued on February 19, 2020.
Ex. G at 2.

15

Edmo is scheduled to undergo the irreversible sex reassignment surgery in early July
2020.
REASONS FOR REINSTATING THE STAY
“To obtain a stay pending the filing and disposition of a petition for a writ of certiorari,
an applicant must show (1) a reasonable probability that four Justices will consider the issue
sufficiently meritorious to grant certiorari; (2) a fair prospect that a majority of the Court will
vote to reverse the judgment below; and (3) a likelihood that irreparable harm will result from
the denial of a stay.” Hollingsworth v. Perry, 558 U.S. 183, 190 (2010). A stay is particularly
appropriate where it is necessary, as it is here, to prevent mootness and preserve a party’s ability
to seek appellate review. John Doe Agency v. John Doe Corp., 488 U.S. 1306, 1309 (1989)
(Marshall, J., in chambers).
This case meets each of these requirements.
I.

There is a reasonable probability that this Court will grant certiorari.
In order to justify a stay, Applicants only need to show a reasonable probability that four

Justices will consider the issues sufficiently meritorious to grant certiorari. Applicants have filed
a Petition for Writ of Certiorari with this Court that presents two questions, both of which
independently justify a grant of certiorari.
First, as multiple Ninth Circuit judges have identified in dissents from the denial of rehearing en banc, the Ninth Circuit panel’s decision created a clear circuit split with the First,
Fifth, Tenth, and Eleventh Circuits by adopting an advocacy group’s guidelines as constitutional
requirements. Second, the analysis the Ninth Circuit applied is in direct conflict with this
Court’s precedent in two seminal cases. The decision is in conflict with Estelle v. Gamble, 429
U.S. 97 (1976), because the Ninth Circuit found deliberate indifference based on a provider’s

16

medical decision that, at most, was mere negligence, which Estelle proscribed. It is also in
conflict with this Court’s precedent in Farmer v. Brennan, 511 U.S. 825 (1994), because the
Ninth Circuit found deliberate indifference solely based on its determination that Dr. Eliason’s
treatment decision was unreasonable, failing to properly consider his subjective reasoning and
the risks he weighed both for and against providing the surgery.
A.

There is at least a reasonable probability that four Justices will find
certiorari warranted on the first Question Presented.

The first Question Presented asks whether the Ninth Circuit erred in “concluding that the
guidelines set by an advocacy organization constitute the constitutional minima for inmate
medical care under the Eighth Amendment, when the First, Fifth, Tenth, and Eleventh Circuits
have all concluded that they do not.” Br. for Petitioner at i. There is at least a reasonable
probability that four Justices will find certiorari warranted on this question, which is grounded in
a clear circuit split and in conflict with this Court’s precedent.
With its decision here, the Ninth Circuit elevated the WPATH Standards to constitutional
canon and found Dr. Eliason deliberately indifferent merely because he did not adhere to the
advocacy organization’s guidelines. As Judge O’Scannlain, joined by eight other judges,
identified, the Ninth Circuit’s “novel approach . . . conflicts with every other circuit to consider
the issue.” Ex. F at 29. The Ninth Circuit’s decision also conflicts with this Court’s precedent,
which established that the views of professional organizations and special interest groups do not
set constitutional requirements for prison conditions. See Bell v. Wolfish, 441 U.S. 520 (1979).
1. The Ninth Circuit’s adoption of guidelines set by an advocacy organization
creates a circuit split with the First, Fifth, Tenth, and Eleventh Circuits.
Five courts of appeals have directly addressed the question of what constitutes cruel and
unusual punishment in the context of gender dysphoria treatment in prison. Four of those courts,

17

the First, Fifth, Tenth, and Eleventh Circuits, have rejected efforts to chain the determination of
whether prison officials and providers acted with deliberate indifference to an inmate’s serious
medical needs to their adherence to the treatment guidelines set by the advocacy organization
WPATH and its predecessors. The Ninth Circuit stands alone.
As Judge O’Scannlain explained, the Ninth Circuit “enshrine[d] the WPATH Standards
as an enforceable ‘medical consensus,’ effectively putting an ideologically driven private
organization in control of every relationship between a doctor and a gender dysphoric patient
within [the Ninth] circuit.” Ex. F at 33. The Ninth Circuit held that prison psychiatrist Dr.
Eliason was deliberately indifferent because, it concluded, Dr. Eliason’s medical decision not to
recommend sex reassignment surgery did not follow or “reasonably deviate” from the WPATH
Standards. Ex. D at 59-64. The Ninth Circuit reached its conclusion by affirming the district
court’s decision to discount any testimony that did not adhere to the WPATH Standards. Id. at
51-59. To quote Judge O’Scannlain, “[b]y rejecting any expert not (in the court’s view)
appropriately deferential to WPATH, the district court and . . . the panel . . . effectively decided
ab initio that only the WPATH Standards could constitute [constitutionally] . . . acceptable
treatment.”7 Ex. F at 18.
The Ninth Circuit’s decision is in direct conflict with the decisions of the First, Fifth,
Tenth, and Eleventh Circuits, which have declined to adopt the advocacy organization’s
guidelines as the constitutional minima for medical treatment under the Eighth Amendment.

The panel incorrectly stated that the parties agreed that the appropriate benchmark for treatment
of gender dysphoria was the WPATH Standards. See Ex. D at 8-9. Defendants never contended
or admitted that prison medical providers were required to base their treatment decisions on the
WPATH Standards. See Ex. F at 18 n.6 (“[B]efore the district court and before our court, the
State clearly rejected the notion that any particular treatment criteria defines what is medically
acceptable[.]”). In fact, Defendants presented evidence of significant deficiencies in the
WPATH Standards. See ER 225-28 (Tr. 531:5-534:7), ER 544-81.
7

18

Just months before the Ninth Circuit issued its decision, the Fifth Circuit held it could
never be deliberate indifference to deny sex reassignment surgery as treatment for gender
dysphoria. In Gibson v. Collier, 920 F.3d 212 (5th Cir. 2019), cert. denied, 140 S. Ct. 653
(2019), the Fifth Circuit rejected a transgender inmate’s argument, which relied exclusively on
the WPATH Standards, that prison doctors were deliberately indifferent when they denied the
inmate’s request for sex reassignment surgery. Id. at 218, 221-23. Unlike the Ninth Circuit, the
Fifth Circuit refused to conclude the advocacy organization’s guidelines were constitutional
mandates, stating “the WPATH Standards . . . reflect not consensus, but merely one side in a
sharply contested medical debate over sex reassignment surgery.” Id. at 221. “The [Fifth
Circuit] panel majority . . . wasn’t prepared to accept the [WPATH] Standards as authoritative.”
Campbell v. Kallas, 936 F.3d 536, 547 n.3 (7th Cir. 2019) (citing Gibson, 920 F.3d at 221-24).
The Ninth Circuit has acknowledged that “its decision is in tension” with the Fifth Circuit’s
decision. Ex. D at 67.
Similarly, in Kosilek v. Spencer, 774 F.3d 63 (1st Cir. 2014), cert. denied, Kosilek v.
O’Brien, 135 S. Ct. 2059 (2015), the First Circuit rejected the argument that the “only
constitutionally sufficient treatment regimen [was] to adhere to the Standards of Care’s
[treatment] sequence in full, including the provision of [sex reassignment surgery].”8 Id. at 86.
There, a transgender inmate with gender dysphoria (then called gender identity disorder) was
treated with conservative therapies, including mental health therapy and hormones, but she was
denied sex reassignment surgery. Id. at 68-74. Like the district court here, the district court in

8

In Kosilek, the court was asked to apply an earlier version of the Standards issued by WPATH’s
predecessor, the Harry Benjamin International General Dysphoria Association. See Kosilek, 774
F.3d at 70 n.3. The treatment options in the earlier version of the Standards are essentially the
same as the version of the WPATH Standards at issue here. Id. at 70 n.4; Ex. D at 15-16.
19

Kosilek discounted the evidence of the providers who did not adhere to its interpretation of the
WPATH Standards. Id. at 76-77, 81, 87-88. For example, the trial court refused to credit the
prison’s expert psychiatrist’s testimony in large part because he did not “follow” the guidelines
that preceded the WPATH Standards. Id. at 76-77, 81, 87-88. Unlike the Ninth Circuit, the First
Circuit deemed this error, concluding that the district court put too much “weight” on the
WPATH Standards and substituted its own beliefs for multiple medical experts. Id. at 87-88.
The First Circuit ultimately “held that medically acceptable treatment of gender dysphoric
prisoners is not synonymous with the demands of WPATH.” Ex. F at 30.
The Tenth Circuit has also twice refused to adopt the WPATH Standards as
constitutionally mandated. In Lamb v. Norwood, 262 F. Supp. 3d 1151, 1156-57 (D. Kan. 2017),
an inmate claimed that prison medical providers and officials violated “her Eighth Amendment
rights by treating her in a manner that [fell] short of WPATH standards” and that she was
entitled to a number of gender dysphoria treatments, including sex reassignment surgery.
Contrary to this case, the district court concluded that the prison medical provider’s medical
judgment that weighed the costs and benefits of sex reassignment surgery against more
conservative therapies precluded a finding of deliberate indifference, in spite of the provider’s
deviation from the WPATH Standards. Id. at 1157-59. The Tenth Circuit affirmed, implicitly
adopting the district court’s refusal to enshrine the WPATH Standards as constitutional minima.
See Lamb v. Norwood, 899 F.3d 1159, 1163 (10th Cir. 2018), cert. denied, 140 S. Ct. 252 (2019).
Moreover, three years prior, the Tenth Circuit, in an unpublished opinion, affirmed the district
court’s denial of a preliminary injunction sought by an inmate ordering the prison defendants to
raise her hormone levels to the levels recommended by the WPATH Standards. See Druley v.
Patton, 601 Fed. App’x 632, 633 (10th Cir. 2015). The Tenth Circuit concluded that simple

20

deviation from the WPATH Standards, without more, was insufficient to even demonstrate a
substantial likelihood of success on the merits of the deliberate indifference claim. Id. at 635.
Most recently, the Eleventh Circuit similarly refused to find that the WPATH Standards
set the constitutional minima for medical care for transgender inmates. In Keohane v. Florida
Department of Corrections Secretary, 952 F.3d 1257 (11th Cir. 2020), a transgender inmate
diagnosed with gender dysphoria sought social transitioning—“in particular, to wear long hair,
makeup, and female undergarments.” Id. at 1262. Just like the district court here, the district
court in Keohane erroneously refused to credit medical testimony that did not follow the
WPATH Standards. See Keohane v. Jones, 328 F. Supp. 3d 1288, 1312 (N.D. Fla. 2018). It
found deliberate indifference, in part, because the prison did not apply the WPATH Standards.
Id. at 1316. The Eleventh Circuit rejected the district court’s reasoning, implicitly concluding
that the failure to adhere to the WPATH Standards did not render the denial of sex reassignment
surgery cruel and unusual punishment. Keohane, 952 F.3d at 1277, 1278 n.15. The dissent
pointed out the split with the Ninth Circuit, citing the Ninth Circuit’s decision for the proposition
that other courts “have found” the WPATH Standards “authoritative for treating gender
dysphoria in prison” and using the Ninth Circuit’s decision to “highlight[] the ways the majority
ha[d] gone wrong.” Id. at 1296, 1300 (Wilson, J., dissenting) (citations omitted).
The above decisions demonstrate that a clear circuit split exists as to whether an
advocacy organization’s guidelines constitute constitutional mandates.
2. The Ninth Circuit’s adoption of guidelines set by an advocacy organization
conflicts with this Court’s precedents.
The Ninth Circuit’s decision to adopt the guidelines of an advocacy organization as the
constitutional minima for prison medical care also conflicts with this Court’s precedent. In Bell
v. Wolfish, this Court refused to adopt the correctional standards issued by various advocacy and

21

special interest groups as constitutional requirements for the purposes of an Eighth Amendment
challenge to the space provided to pre-trial detainees. 441 U.S. at 543 n.27. “[R]ather, they
establish goals recommended by the organization in question.” Id.
This Court’s reasoning compels the conclusion that the WPATH Standards similarly do
not establish the constitutional requirements for the treatment of inmates with gender dysphoria.
WPATH is “an advocacy group for the transgendered” and the Standards are “not a politically
neutral document.” Kosilek, 774 F.3d at 78. As the Fifth and First Circuits have recognized,
“the WPATH Standards . . . reflect not consensus, but merely one side in a sharply contested
medical debate over sex reassignment surgery.” Gibson, 920 F.3d at 221 (discussing the First
Circuit’s conclusions in Kosilek). Reflective of this, CMS declined to adopt the WPATH
Standards due to inadequate scientific backing. CMS, DECISION MEMO FOR GENDER DYSPHORIA
AND GENDER REASSIGNMENT SURGERY

(Aug. 30, 2016), https://go.cms.gov/36yMrxX.

Judge O’Scannlain correctly identified that “[t]he pressure to be advocates appears to
have won the day in the WPATH Standards’ recommendations regarding institutionalized
persons,” as demonstrated by the fact that WPATH recommends sex reassignment surgery for
inmates who have no experience living as their chosen gender outside of prison despite the
“totally undeveloped” “medical knowledge about how such surgery might differ [for
incarcerated persons].” Ex. F at 20. The evidentiary basis for the WPATH Standards is
insufficient to justify constitutionally mandated compliance. For example, the Standards “lack
the evidence-based grading system that characterizes archetypal treatment guidelines[.]” Id. at
21-22 (citing William Byne et al., Report of the American Psychiatric Association Task Force on
Treatment of Gender Identity Disorder, 41 Archives of Sexual Behav. 759, 783 (2012)

22

(concluding that “the level of evidence” supporting WPATH Standards’ criteria for sex
reassignment surgery “was generally low”)).
3. The first Question Presented involves recurring issues of national importance.
The Petition for Writ of Certiorari filed by Applicants is also likely to be granted because
it raises questions of vital importance to prison systems, medical and mental health providers,
administrators, governments, and inmates nationwide.
Under the Ninth Circuit’s interpretation, medical decision-making that conflicts with the
views of advocacy organizations is enough to establish an Eighth Amendment violation. This
amounts to a deeply troubling expansion of the Eighth Amendment’s Cruel and Unusual
Punishments Clause. “[T]he primary concern of the drafters [of the Eighth Amendment] was to
proscribe ‘torture(s)’ and other ‘barbar(ous)’ methods of punishment.” Estelle, 429 U.S. at 102
(quoting Anthony F. Granucci, “Nor Cruel and Unusual Punishment Inflicted:” The Original
Meaning, 57 Cal. L. Rev. 839, 842 (1969)). While this Court has recognized that the
Amendment proscribes more than just barbarous treatment, even subpar treatment cannot
constitute cruel and unusual punishment. Id., 429 U.S. at 105-06 (“an inadvertent failure to
provide adequate medical care cannot be said to” violate the Eighth Amendment). Yet the Ninth
Circuit’s approach guarantees inmates cutting-edge and unproven treatments that even
individuals on Medicare are not guaranteed. See CMS, DECISION MEMO FOR GENDER
DYSPHORIA AND GENDER REASSIGNMENT SURGERY (Aug. 30, 2016),
https://go.cms.gov/36yMrxX. And this issue is not limited to gender dysphoria treatment.
Similar arguments are playing out across the country in the context of treatment for other
medical conditions in prison, such as Hepatitis C. See, e.g., Atkins v. Parker, 412 F. Supp. 3d
761, 782 (M.D. Tenn. 2019).

23

The Ninth Circuit’s decision threatens to have a detrimental and destabilizing effect on
the administration of prisons in other ways, as well. This Court, as well as the First and Eleventh
Circuits, have acknowledged that the medical treatment provided to inmates, particularly
transgender inmates, impacts the administration of prisons. See Farmer, 511 U.S. at 848-49
(summarizing evidence that a prison’s refusal to provide segregated housing to a pre-operative
male-to-female transsexual could pose significant safety concerns); Kosilek, 774 F.3d at 93
(“[r]ecognizing that reasonable concerns would arise regarding a post-operative, male-to-female
transsexual being housed with male prisoners takes no great stretch of the imagination”);
Keohane, 952 F.3d at 1275 (“an inmate dressed and groomed as a female would inevitably
become a target for abuse in an all-male prison”). By constitutionalizing a right to controversial
medical treatments with complex practical ramifications simply based on the views of an
advocacy organization, the Ninth Circuit has tied the hands of prison providers and
administrators.
Even if the import of this case were limited to the treatment of gender dysphoria in prison
(and it is not), the issue of constitutionally appropriate treatment for gender dysphoric inmates is
arising with increasing frequency across the country. The First Circuit addressed this question in
2014 and, in just the last two years, four more courts of appeal have faced this question. The
issue continues to reoccur. Subsequent to the Ninth Circuit’s decision alone, the district courts
have seen a flurry of cases alleging deliberate indifference related to gender dysphoria treatment,
including a putative class action.9 The WPATH Standards are fundamental to many, if not all, of
the claims.

See, e.g., Clark v. LeBlanc, No. 3:19-00512-BAJ-RLB, 2019 WL 5085425, at *2 (M.D. La.
Oct. 10, 2019); Monroe v. Baldwin, No. 18-CV-00156-NJR-MAB, 2019 WL 6918474, at *17
(S.D. Ill. Dec. 19, 2019), on recon. in part sub nom. Monroe v. Meeks, No. 18-cv-00156-NJR,
9

24

This case is an ideal vehicle for resolving the circuit split and the issues discussed above.
Unlike in many prison litigation cases, the plaintiff in this case has been represented by counsel
from nearly the start. The district court allowed the parties to conduct several months of
discovery and held a multi-day hearing before issuing its decision. Thus, the factual record is
more developed in this case than in many others, and it is ripe for review. Compare Ex. D, with
Lamb, 899 F.3d at 1163 (noting the “sparseness of the summary judgment record”) and Gibson,
920 F.3d at 221-23 (relying on the record created in the First Circuit’s decision in Kosilek).
There is a high likelihood that this Court will grant certiorari to resolve the circuit split as
to whether an advocacy group’s aspirations for medical treatment set constitutional requirements
for medical treatment in prison and to clarify that the principle established in Bell holds in the
context of medical treatment for prisoners.
B.

There is at least a reasonable probability that four Justices will find
certiorari warranted on the second Question Presented.

The second Question Presented asks “[w]hether the Ninth Circuit’s holding that a prison
health care provider’s individualized medical decision was unreasonable and therefore
constituted deliberate indifference, regardless of his subjective reasoning, conflicts with Estelle
v. Gamble, 429 U.S. 97 (1976) (holding that mere negligence does not establish deliberate
indifference), and Farmer v. Brennan, 511 U.S. 825 (1994) (holding the provider must have

2020 WL 1048770 (S.D. Ill. Mar. 4, 2020); Armstrong v. Mid-Level Prac. John B. Connally
Unit, No. SA-18-CV-00677-XR, 2020 WL 230887, at *5 (W.D. Tex. Jan. 15, 2020); Avilez v.
Barr, No. 19-cv-08296-CRB, 2020 WL 570987, at *4 (N.D. Cal. Feb. 5, 2020); Porter v. Crow,
No. 18-CV-0472-JED-FHM, 2020 WL 620284, at *9 (N.D. Okla. Feb. 10, 2020); Murillo v.
Godfrey, No. 2:18-cv-02342-JGB-JC, 2020 WL 1139811, at *14 (C.D. Cal. Mar. 9, 2020);
Jackson v. Kallas, No. 17-cv-350-bbc, 2020 WL 1139769, at *2 (W.D. Wis. Mar. 9, 2020);
Dana v. Tewalt, No. 1:18-cv-00298-DCN, 2020 WL 1545786, at *9 (D. Idaho Apr. 1, 2020);
Gonzales v. Cal. Dep’t of Corrs. & Rehab., No. 1:19-cv-01467BAM (PC), 2020 WL 1847491, at
*6 (E.D. Cal. Apr. 13, 2020).
25

known of and disregarded a substantial risk of serious harm to find deliberate indifference).” Br.
for Petitioners at i-ii. There is at least a reasonable probability that four Justices will find
certiorari warranted on this question as well, which is grounded in the direct conflict between the
Ninth Circuit’s decision and this Court’s binding precedent.
1. The Ninth Circuit’s deliberate indifference analysis conflicts with Estelle v.
Gamble by imposing liability for what could, at most, be mere medical
negligence.
As Judge Bumatay, joined by six other judges, and Judge Collins identified in their
dissents to the denial of rehearing en banc, the Ninth Circuit disregarded this Court’s precedent
in Estelle by watering down Estelle’s deliberate indifference standard into a “mere negligence”
test. Ex. F at 34, 47. The Ninth Circuit’s decision is squarely in conflict with Estelle.
In Estelle, the Court held that deliberate indifference by prison doctors in responding to
the serious medical needs of prisoners was proscribed by the Eighth Amendment. Estelle, 429
U.S. at 104 (citation omitted). However, the Court held, “a complaint that a physician has been
negligent in diagnosing or treating a medical condition does not state a valid claim of medical
mistreatment under the Eighth Amendment.” Id. at 106. The “inadvertent failure to provide
adequate medical care” is not “an unnecessary and wanton infliction of pain” or “repugnant to
the conscience of mankind.” Id. at 105-06.
In the years since Estelle and later Farmer v. Brennan (discussed further below), this
Court has repeatedly reaffirmed that mere negligence, inadvertence or good-faith error cannot
establish deliberate indifference. See Hope v. Pelzer, 536 U.S. 730, 738 (2002); Minneci v.
Pollard, 565 U.S. 118, 130 (2012) (“[T]o show an Eighth Amendment violation a prisoner must
typically show that a defendant acted, not just negligently, but with ‘deliberate indifference.’”
(Citation omitted.)); Corr. Servs. Corp. v. Malesko, 534 U.S. 61, 73 (2001) (discussing how the

26

heightened deliberate indifference standard set by Estelle and Farmer “would make it
considerably more difficult for respondent to prevail than on a theory of ordinary negligence”).
The facts of the Estelle decision demonstrate how deliberate indifference differs from
ordinary negligence. There, the inmate was treated for a back injury by multiple doctors and
with multiple modalities. Estelle, 429 U.S.at 107. Yet, he contended additional treatment should
have been provided and that his condition had worsened absent that treatment. Id. at 107; id. at
109 (Stevens, J., dissenting). The court of appeals agreed, concluding that additional testing
could have led to an appropriate diagnosis and treatment. Id. at 107. But this Court disagreed,
holding that “[a] medical decision not to order an X-ray, or like measures, does not represent
cruel and unusual punishment. At most, it is medical malpractice[.]” Id. Whether additional
“forms of treatment is indicated is a classic example of a matter of medical judgment.” Id.
Treatment decisions derived from an exercise of medical judgment do not amount to cruel and
unusual punishment. Id.
Contrary to Estelle, the Ninth Circuit found deliberate indifference based solely on Dr.
Eliason’s decision not to recommend the course of treatment that the district court and the panel
found preferable. Ex. D at 49-65. Dr. Eliason recommended treating Edmo with hormone
therapy and counseling, but, based on his medical judgment, Dr. Eliason did not recommend sex
reassignment surgery. Id. at 22-25; Ex. A at 22-25. At worst, Dr. Eliason made a mistaken
judgment; Estelle teaches that this is not cruel and unusual punishment.
At the time of his 2016 evaluation, Dr. Eliason concluded in his chart note that the
medical necessity for sex reassignment surgery was “not very well defined and [was] constantly

27

shifting[.]”10 Ex. D at 23. He noted that hormone therapy had resulted in an improvement in
Edmo’s gender dysphoria and that she did not exhibit significant distress. Id. at 22-23. He,
joined by other clinicians and mental health staff, felt Edmo had other mental health conditions
that were not well controlled and which were not sufficiently stabilized to handle the lifechanging surgery. Id. at 21-22, 24; Ex. A at 24. Given that Edmo would soon be parole eligible,
Dr. Eliason strongly believed that it was in Edmo’s best interests to wait until she had experience
living as a woman outside of prison before deciding to undergo surgery. Ex. A at 24-25; ER
827-28 (Tr. 431:3-432:11), ER 180 (Tr. 486:6-13). Dr. Eliason researched how other
organizations handled the issue and consulted with multiple professionals with multiple
backgrounds, who universally agreed with his assessment. ER 821 (Tr. 425:2-5), ER 823 (Tr.
427:20-24); Ex. D at 24; Ex. A at 23. Dr. Eliason’s medical judgment was also supported by
expert testimony and studies. See, e.g., ER 221 (Tr. 527:5-7).
In short, Dr. Eliason arrived at an individualized medical judgment that analyzed the risks
inherent in the potential treatments available and decided that the conservative approach was
most appropriate for Edmo’s particular circumstances. He also took action to investigate the risk
of self-harm by Edmo and took action to mitigate it. ER 818 (Tr. 422:21-24). Yet, because the
courts found Dr. Eliason deviated from the controversial WPATH Standards, the Ninth Circuit
affirmed the finding that Dr. Eliason was deliberately indifferent.
In so doing, the Ninth Circuit replicated the mistake from the Estelle decision. As Judge
Collins recognized, the Ninth Circuit did just what Estelle proscribed: “by narrowly defining the

10

Sex reassignment surgery is so controversial and the medical necessity and efficacy of the
procedure so disputed that the Fifth Circuit has held that the Eighth Amendment does not require
the performance of the procedure in any circumstance. Gibson, 920 F.3d at 223; see also
Kosilek, 774 F.3d at 79 (noting “the treatment of [gender dysphoria] [is] an evolving field, in
which practitioners could reasonably differ in their preferred treatment methods”).
28

range of ‘medically acceptable’ options that the court believe[d] a prison doctor may properly
consider in a case such as this one, and by then inferring deliberate indifference from Dr.
Eliason’s failure to agree with that narrow range, the district court and the panel . . . applied
standards that look much more like negligence than deliberate indifference.” Ex. F at 34
(citation omitted). At bottom, the Ninth Circuit analyzed the reasonableness of Dr. Eliason’s
decision. This amounts to a negligence standard and is foreclosed by this Court’s decision in
Estelle.
That the Ninth Circuit actually applied a negligence standard is confirmed by the court’s
repeated express references to reasonableness. See, e.g., Ex. D at 62 (Dr. Eliason did not
“reasonably deviate from” the WPATH Standards), 63 n.18 (the Ninth Circuit discounted the
agreement of Dr. Stoddart, Dr. Young, Clinician Clark, and the MTC with Dr. Eliason’s
assessment with the statement that “general agreement in a medically unacceptable form of
treatment does not somehow make it reasonable” (emphasis added)), 70 n.19 ( “By choosing to
rely upon a medical opinion which a reasonable person would likely determine to be inferior, the
prison officials took actions which may have amounted to . . . the unnecessary and wanton
infliction of pain.” (Emphasis added) (internal quotation marks omitted)).
The decisions of the First, Tenth, and Eleventh Circuits discussed above illustrate how
grievously the Ninth Circuit deviated from this Court’s precedent. These decisions adhered to
Estelle by requiring more than just negligence to find deliberate indifference. As the First
Circuit explained, “[t]he law is clear that where two alternative courses of medical treatment
exist, and both alleviate negative effects within the boundaries of modern medicine, it is not the
place of our court to ‘second guess medical judgments’ or to require that the [Department of
Correction] adopt the more compassionate of two adequate options.” Kosilek, 774 F.3d at 90

29

(citations omitted); see also Keohane, 952 F.3d at 1277-78 (holding that arguably subpar medical
care provided to an inmate by prison providers who did not have particularized experience or
training in treatment for gender dysphoria did not violate the Eighth Amendment); Lamb, 899
F.3d at 1162 (finding no deliberate indifference when the prison provider exercised his medical
judgment to determine a course of treatment).
The Ninth Circuit’s disregard of this Court’s binding precedent in Estelle warrants the
requested grant of certiorari.
2. The Ninth Circuit’s deliberate indifference analysis conflicts with Farmer v.
Brennan by ignoring the subjective component of deliberate indifference.
The Ninth Circuit’s decision also squarely conflicts with the Court’s seminal decision in
Farmer, as multiple Judges identified in the statement and dissents from the denial of rehearing
en banc. Ex. F at 26, 44-46.
In Farmer, the Court clarified the subjective component of deliberate indifference: a
prison official only acts with deliberate indifference when “the official knows of and disregards
an excessive risk to inmate health or safety; the official must both be aware of facts from which
the inference could be drawn that a substantial risk of serious harm exists, and he must also draw
the inference.” Farmer, 511 U.S. at 837 (emphasis added). The course of treatment must have
been criminally reckless or worse. Id. at 839-40. Anything less, such as “an official’s failure to
alleviate a significant risk that he should have perceived but did not, . . . cannot under our cases
be condemned as the infliction of punishment.” Id. at 838.
For this reason, deliberate indifference cannot solely be “premised on obviousness or
constructive notice.” Id. at 841 (citation omitted). To support a finding of deliberate indifference
based on an obvious risk, there must have been strong evidence suggestive of risk available to
the provider and the provider must have deliberately refused to confirm it. Id. at 842-43 n.8. “It

30

is not enough merely to find that a reasonable person would have known, or that the defendant
should have known[.]” Id.
This Court has affirmed that Farmer’s deliberate indifference standard is still good law.
See Ortiz v. Jordan, 562 U.S. 180, 190 (2011) (restating Farmer’s articulation of the deliberate
indifference standard and noting that Farmer’s deliberate indifference standard was not in
controversy).
The deliberate indifference analysis that the Ninth Circuit employed plainly contradicts
this binding precedent. As Judge Bumatay, joined by six other judges, identified, “the panel’s
analysis effectively erases the subjective deliberate indifference requirement with its circular
reasoning.” Ex. F at 46.
Neither the district court nor the panel examined whether Dr. Eliason subjectively knew
he was making a medically unacceptable choice.11 The district court’s sole conclusion related to
Dr. Eliason’s subjective deliberate indifference was that Dr. Eliason failed to apply the WPATH
criteria. Ex. A at 40. Implicitly acknowledging the insufficiency of this analysis, the Ninth
Circuit applied a different (also insufficient) analysis that analyzed Dr. Eliason’s reasoning only
in the context of concluding that Dr. Eliason made a subpar medical choice. See Ex. D at 59-63.
The Ninth Circuit did not conclude that Dr. Eliason was deliberately indifferent because he knew
that the only appropriate treatment for Edmo was sex reassignment surgery, nor did it conclude
that Dr. Eliason deliberately avoided that knowledge. Id. at 63-64. “Such an approach is
particularly troublesome because” it infers deliberate indifference “solely from a finding of a
‘medically unacceptable’ treatment.” Ex. F at 47.

11

There is not a single explicit finding in the district court’s opinion as to Dr. Eliason’s state of
mind. Ex. A at 39-41.
31

Second, the Ninth Circuit concluded its analysis by finding that Dr. Eliason knew there
was a risk of self-castration and dysphoria inherent in the course of treatment he had chosen. Ex.
D at 63-64. But as Judge O’Scannlain correctly pointed out, the Ninth Circuit fixated on just one
risk when Dr. Eliason made a considered treatment choice in a complex situation that he believed
“would mitigate overall risk.” Ex. F at 27 (emphasis omitted). As discussed above, Dr. Eliason
made an informed medical decision to opt for a more conservative approach to treating Edmo’s
gender dysphoria in light of Edmo’s particular circumstances. As to the risk of self-castration,
he considered this risk, he took steps to avert further self-castration attempts, and he continues to
believe Edmo, as a whole person, would be best served by undergoing surgery after her release.
Despite the Ninth Circuit’s fig-leaf citation to Farmer, the standard the Ninth Circuit
actually applied was, at most, the very “should have known” negligence standard that this Court
explicitly rejected in Farmer. Farmer, 511 U.S. at 843 n.8. As Judge Bumatay warned, “the
ultimate effect of the panel’s analysis is to dilute the heightened, subjective culpability required
for deliberate indifference, into mere negligence[.]” Ex. F at 47 (first citing Farmer, 511 U.S. at
839-40; then citing Estelle, 429 U.S. at 105-06).
Again, the decisions by other circuits that have adhered to this Court’s precedent
demonstrate how badly the Ninth Circuit erred. As the First Circuit has aptly stated “a later court
decision—ruling that the prison [officials] were wrong in their estimation of the treatment’s
reasonableness—does not somehow convert that choice into one exhibiting the sort of obstinacy
and disregard required to find deliberate indifference.” Kosilek, 774 F.3d at 92 (citation
omitted); see also Druley, 601 Fed. App’x. at 635 (rejecting a gender dysphoric inmate’s
argument that her constitutional rights would be violated if she was not treated with the hormone
levels suggested by WPATH because the inmate presented no evidence that the defendants

32

“failed to consider the WPATH’s flexible guidelines, failed to make an informed judgment as to
the hormone levels appropriate for her, or otherwise deliberately ignored her serious medical
needs”).
The Ninth Circuit’s disregard of this Court’s binding precedent in Farmer separately
warrants review.
3. The second Question Presented also involves recurring issues of national
importance.
The same recurring issues of national importance discussed above that justify a grant of
certiorari on the first Question Presented justify a grant of certiorari on the second Question
Presented.
Further, the Ninth Circuit’s analysis impermissibly inserts the federal courts into the dayto-day treatment decisions of prison medical and mental health providers, who are already tasked
with the very challenging job of treating prisoners experiencing complex and co-existing health
conditions within the prison environment. Despite this Court having stressed that judicial
inquiries into cruel and unusual punishment claims “spring from constitutional requirements
and . . . judicial answers to them must reflect that fact rather than a court’s idea of how best to
operate a detention facility,” the federal judiciary now holds the role of prison medical
committee in the Ninth Circuit. Rhodes v. Chapman, 452 U.S. 337, 351 (1981) (quoting Bell,
441 U.S. at 539).
Moreover, if the Ninth Circuit’s decision is allowed to stand in violation of Estelle and
Farmer, inmates will be allowed to pursue state-law negligence claims disguised as
constitutional claims. Inmates will be granted an end-run around the tort claim requirements that
govern every other litigant. This will deter qualified medical professionals from working in

33

prisons because of the constant threat of litigation. The Ninth Circuit’s decision unlocks a
Pandora’s Box of all manner of inmate medical negligence lawsuits.
II.

There is at least a fair prospect that the Ninth Circuit’s decision will be overturned.
Given the reasonable probability that four Justices would grant certiorari, it is doubtful

that the prospects of reversal even need to be considered. See In re Roche, 448 U.S. 1312, 1314
n.1 (1980) (Brennan, J., in chambers) (“[T]he consideration of prospects for reversal dovetails, to
a great[] extent, with the prediction that four Justices will vote to hear the case. Thus, it may be
that the ‘fair prospect’-of-reversal criterion has less independent significance in a stay
determination when review will be sought by way of certiorari.”). Even so, the second factor
justifying the issuance of a stay pending disposition of the petition for certiorari is also present
here.
There is at least a fair prospect that the Ninth Circuit’s decision will be overturned.
On the first Question Presented, this Court has already strongly signaled how it will
resolve the split between the Ninth Circuit and the First, Fifth, Tenth, and Eleventh Circuits. It
has sounded the death knell for the Ninth Circuit’s decision.
This Court indicated in Bell v. Wolfish, 441 U.S. 520 (1979), that it would refuse to adopt
an advocacy group’s guidelines as constitutional requirements. While that case involved prison
conditions, the Court’s rationale in refusing to adopt the standards of outside groups as hard-andfast constitutional requirements applies just as strongly here. As Judge O’Scannlain identified,
the WPATH Standards’ recommendations are most accurately viewed as the product of
advocacy, rather than of evidence-based medicine. Ex. F at 19-21. The Court’s reasoning in
Bell is even more compelling here, as medical decision-making involves an individualized
balancing of risk and other considerations that cannot be reduced to compliance versus non-

34

compliance to an advocacy group’s guidelines, particularly given the additional complexities
present in prison.
As discussed above, the other three courts of appeals to have directly confronted this
issue have recognized this and refused to adopt the WPATH Standards as constitutional
requirements. The Ninth Circuit is the outlier. There is at least a fair prospect that this Court
will adhere to its own precedent and agree with the other three circuits that have addressed the
issue. Given that the Ninth Circuit’s key holding that Dr. Eliason was deliberately indifferent
turned on first the district court and then the Ninth Circuit’s refusal to credit any testimony that
did not adhere to the WPATH Standards and its finding that Dr. Eliason’s treatment decision was
not reasonably aligned with the WPATH Standards, it is highly likely that the Ninth Circuit’s
opinion will be overturned if certiorari is granted.
On the second Question Presented, as discussed above, the analysis that the Ninth Circuit
employed to find Dr. Eliason deliberately indifferent is in direct violation of this Court’s binding
precedent and, thus, there is at least a fair chance that the Ninth Circuit’s decision will be
reversed upon review.
First, in Estelle, this Court clearly established that a provider’s mere negligence in
treatment decisions does not violate the Eighth Amendment. But, as discussed above, the Ninth
Circuit applied a mere negligence standard to determine whether there was a constitutional
violation here. The Ninth Circuit found Dr. Eliason deliberately indifferent because he, at worst,
made what the Court found to be an unreasonable treatment decision. This is sufficient grounds
to warrant reversal of the Ninth Circuit’s decision.
Second, in Farmer, this Court clarified that a provider only acts with deliberate
indifference to serious medical needs, the standard required to violate the Eighth Amendment, if

35

he subjectively knows of and disregards an excessive risk to inmate health or safety. Yet the
Ninth Circuit only considered Dr. Eliason’s reasoning in the context of concluding he made what
the court believed to be the wrong treatment decision.
As discussed above, the Ninth Circuit failed to consider the steps Dr. Eliason took to
reach his treatment decision or whether Dr. Eliason knew his treatment decision was medically
unacceptable. It effectively failed to consider his reasoning at all. The panel also fixated on one
risk to Edmo—the risk of self-castration—and ignored all the other risks that Dr. Eliason
balanced in reaching his treatment decision—most notably, the risk of suicide post-surgery. As
to the risk of self-castration, the Ninth Circuit failed to consider that Dr. Eliason considered this
risk, he took steps to avert further self-castration attempts, and he continues to believe Edmo, as
a whole person, would be best served by undergoing surgery after her release. In short, the Ninth
Circuit applied a standard grossly different than that required by Farmer.
The Ninth Circuit’s disregard of this Court’s binding precedent in Farmer also
demonstrates at least a fair chance that the Ninth Circuit’s decision will be overturned.
III.

Applicants will suffer irreparable harm if the requested stay is not granted.
A party suffers irreparable harm if its appeal becomes moot before it exhausts its right to

appellate review. John Doe Agency v. John Doe Corp., 488 U.S. 1306, 1309 (1989) (Marshall,
J., in chambers); see also Republican State Cent. Comm. of Ariz. v. Ripon Soc. Inc., 409 U.S.
1222, 1225 (1972) (Rehnquist, J., in chambers). Indeed, preserving a party’s ability to achieve
appellate review of an erroneous decision is one of the principle purposes of granting a stay.
Nken v. Holder, 556 U.S. 418, 427 (2009). “[J]udicial review would be an idle ceremony if the
situation were irreparably changed before the correction could be made.” Scripps-Howard Radio
v. F.C.C., 316 U.S. 4, 10 (1942).

36

If Edmo receives the irreversible sex reassignment surgery before final disposition of the
petition for certiorari, a substantial likelihood exists that this appeal will become moot “because
the terms of the injunction . . . [will] have been fully and irrevocably carried out.” Univ. of Tex.
v. Camenisch, 451 U.S. 390, 398 (1981). In short, there will no longer be a live controversy for
the Court to review. Id. at 394.
This cannot be allowed to happen. Dr. Eliason will suffer severe harm because he will be
unable to challenge the Ninth Circuit’s conclusion that he acted with deliberate indifference, a
serious and personal charge that is tantamount to criminal recklessness, despite the fact that the
Ninth Circuit’s holding was contrary to this Court’s binding precedent.
Idaho will sustain irreparable harm because Idaho taxpayers will have been forced to
fund a controversial surgery that Edmo’s treating doctor determined in good faith was not
medically necessary. Edmo, an indigent prisoner, does not have the financial ability to
reimburse Idaho taxpayers for the expenses associated with the surgery. While payment of
money generally does not alone amount to irreparable harm, this Court has recognized that
requiring the government to pay money that it likely cannot recoup is. Ledbetter v. Baldwin, 479
U.S. 1309, 1310-11 (1986) (Powell, J., in chambers); Heckler v. Turner, 468 U.S. 1305, 1308
(1984) (Rehnquist, J., in chambers).
In a broader context, Idaho will suffer irreparable harm to its prison system if the Ninth
Circuit’s decision is allowed to stand. For example, (1) inmates will be able to bring state-law
medical negligence claims disguised as constitutional claims against Idaho officials; (2) qualified
medical professionals will be deterred from working in Idaho’s prisons by the threat of litigation
and court-imposed findings of deliberate indifference merely for exercising their professional
judgment; (3) Idaho will have to operate its prisons with the knowledge that the federal courts

37

have effectively been placed in the role of prison medical review committee; (4) Idaho could be
forced to treat the medical conditions of inmates according to the guidelines and suggestions
promulgated by agenda-driven advocacy groups even when they conflict with the treating
physician’s clinical and professional judgment regarding the best course of treatment for an
individual inmate; (5) Idaho prison officials and administrators will be forced into making
medical decisions regarding the medical care of gender dysphoric prisoners without regard for
any risk that those treatments could destabilize their prisons; and (6) Idaho will face the very real
harm that any inmate who desires tax-payer funded sex reassignment surgery will be found
entitled to such surgery, regardless of their compliance with treatment, their treating physician’s
judgment, and other medical considerations, simply because he or she threatens self-harm, which
could have enormous financial ramifications for states and prison systems.
“[I]n a close case it may be appropriate to balance the equities–to explore the relative
harms to applicant and respondent, as well as the interests of the public at large.” Rostker v.
Goldberg, 448 U.S. 1306, 1308 (1980) (Brennan J., in chambers) (quotation marks omitted)
(citations omitted). Even if the need to reinstate the stay is not clear, the equities weigh heavily
in favor of Applicants, as well as prison administrators, medical providers, and the general
public, which all have an interest in this case being resolved on the merits.
Implicit in the Ninth Circuit’s eleven-month stay pending appeal was recognition that the
harm a stay poses to Edmo, if any, does not outweigh the competing interests warranting a stay
to allow full appellate review. Reinstating the stay will not forever preclude Edmo from
receiving the surgery. Edmo may receive the surgery if this Court affirms the injunction or upon
her release from prison in July 2021. Notably, neither the district court nor the Ninth Circuit
determined that Edmo must undergo the surgery immediately. Indeed, Edmo’s own expert

38

witness testified that it would be “kind of absurd” to consider sex reassignment surgery as an
emergency medical issue. ER 697 (Tr. 301:21-23). Edmo will continue to receive hormone
therapy during the stay and is encouraged to participate in the mental health counseling and
therapy recommended by her treating providers.
The district court’s concern that Edmo may re-attempt self-castration has proven
unfounded since the injunction was entered in December 2018. Edmo has not made any attempts
to self-castrate since 2016. It is worth noting that giving undue weight to Edmo’s subjective
statements of such a risk here creates a perverse incentive for inmates to threaten self-harm to
gain a litigation advantage and to manipulate the prison environment. Regardless, Edmo
testified in 2018 that she remains committed to not re-attempting self-castration because the
tissue plays a critical role in a successful future sex reassignment surgery. ER 614 (Tr. 218:214).
The strong likelihood of irreparable harm to Applicants that will result from the denial of
this motion for stay demonstrates that a stay is appropriate here. Even if the question of whether
to grant the stay is close enough to balance the equities, this balancing further demonstrates the
stay that was issued by the Ninth Circuit during the pendency of the appeal below should be
reinstated to allow this Court to consider the Petition for Writ of Certiorari without the imminent
risk that this appeal will be mooted by Edmo’s rapidly approaching surgery date.
CONCLUSION
Applicants respectfully request that this Court reinstate the Ninth Circuit’s stay of the
district court’s injunction, including staying the ordered sex reassignment surgery, pending final
disposition of the Petition for Writ of Certiorari.

39

Respectfully submitted,

Hlfl

LA WRENCE G. WASDEN
ATTORNEY GENERAL STATE OF IDAHO
BRIAN KANE

Assistant Chief Deputy

MEGAN A. LARRONDO

Deputy Attorney General
BRADY J. HALL
Special Deputy Attorney General
Counsel of Record
Moore Elia Kraft & Hall, LLP
P.O. Box 6756
Boise, Idaho 83707
Telephone: (208) 336-6900
brady@melawfirm.net
Counsel for the Idaho Department of Correction and Henry Atencio, Jeff Zmuda, and Al
Ramirez, in their official capacities

DYLAN A. EATON
J. KEVIN WEST
BRYCE JENSEN

PARSONS BEHLE & LA TIMER
800 West Main Street
Suite 1300
Boise, Idaho 83702
Counsel for Scott Eliason, M.D.
May 6, 2020

40

EXHIBIT A

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 1 of 45

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
ADREE EDMO,
Plaintiff,
v.

Case No. 1:17-cv-00151-BLW
FINDINGS OF FACT,
CONCLUSIONS OF LAW, AND
ORDER

IDAHO DEPARTMENT OF
CORRECTION, et al.,
Defendants.

INTRODUCTION
For more than forty years, the Supreme Court has consistently held that
consciously ignoring a prisoner’s serious medical needs amounts to cruel and unusual
punishment in violation of the Eighth Amendment. See Estelle v. Gamble, 429 U.S. 97,
103 (1976). After all, inmates have no choice but to rely on prison authorities to treat
their medical needs, and “if the authorities fail to do so, those needs will not be met.” Id.
Prison authorities thus treat inmates with all manner of routine medical conditions –
broken bones are set; diabetic inmates receive insulin; inmates with cancer receive
chemotherapy; and so on. This constitutional duty also applies to far less routine, and
even controversial, procedures – if necessary to address a serious medical need. And so it
is here. Plaintiff Adree Edmo alleges that prison authorities violated her Eighth
Amendment rights by refusing to provide her with gender confirmation surgery. For the
FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 1

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 2 of 45

reasons explained below, the Court agrees and will order defendants to provide her with
this procedure, a surgery which is considered medically necessary under generally
accepted standards of care.
The Court will explain its reasoning below but will first pause to place this
decision in a broader context. The Rule of Law, which is the bedrock of our legal system,
promises that all individuals will be afforded the full protection of our legal system and
the rights guaranteed by our Constitution. This is so whether the individual seeking that
protection is black, white, male, female, gay, straight, or, as in this case, transgender.
This decision requires the Court to confront the full breadth and meaning of that promise.
Adree Edmo is a male-to-female transgender prisoner in the custody of the Idaho
Department of Correction (“IDOC”). She has been incarcerated since April 2012. In June
2012, soon after being incarcerated, an IDOC psychiatrist diagnosed Ms. Edmo with
gender dysphoria. An IDOC psychologist confirmed that diagnosis a month later.
Gender dysphoria is a medical condition experienced by transgender individuals in
which the incongruity between their assigned gender and their actual gender identity is so
severe that it impairs the individual’s ability to function. The treatment for gender
dysphoria depends upon the severity of the condition. Many transgender individuals are
comfortable living with their gender identity, role, and expression without surgery. For
others, however, gender confirmation surgery, also known as gender or sex reassignment
surgery (“SRS”), is the only effective treatment.
To treat Ms. Edmo’s gender dysphoria, medical staff at the prison appropriately

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 2

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 3 of 45

began by providing Ms. Edmo with hormone therapy. This continued until she was
hormonally confirmed – meaning she had the same circulating sex hormones and
secondary sex characteristics as a typical adult female. Ms. Edmo thus achieved the
maximum physical changes associated with hormone treatment. But, Ms. Edmo
continued to experience such extreme gender dysphoria that she twice attempted selfcastration. For her second attempt, Ms. Edmo prepared for weeks by studying the
anatomy of the scrotum and took steps to diminish the chance of infection by boiling a
razor blade and scrubbing her hands with soap. She was successful in opening the
scrotum and exposing a testicle. But because there was too much blood, Ms. Edmo
abandoned her second self-castration attempt and sought medical assistance. She was
transported to a hospital where her testicle was repaired.
As already noted, an inmate has no choice but to rely on prison authorities to treat
their medical needs. For this reason, the United States Supreme Court has held that
deliberate indifference to a prisoner’s serious medical needs constitutes cruel and unusual
punishment in violation of the Eighth Amendment to the United States Constitution. See,
e.g., Estelle v. Gamble, 429 U.S. 97, 103 (1976). To show such deliberate indifference,
Ms. Edmo must establish two things. First, she must show a “serious medical need” by
demonstrating that failure to treat a medical condition could result in significant further
injury or the “unnecessary and wanton infliction of pain.” Second, she must show that
the prison officials were aware of and failed to respond to her pain and medical needs,
and that she suffered some harm because of that failure.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 3

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 4 of 45

Ms. Edmo’s case satisfies both elements of the deliberate indifference test. She has
presented extensive evidence that, despite years of hormone therapy, she continues to
experience gender dysphoria so significant that she cuts herself to relieve emotional pain.
She also continues to experience thoughts of self-castration and is at serious risk of acting
on that impulse. With full awareness of Ms. Edmo’s circumstances, IDOC and its
medical provider Corizon refuse to provide Ms. Edmo with gender confirmation surgery.
In refusing to provide that surgery, IDOC and Corizon have ignored generally accepted
medical standards for the treatment of gender dysphoria. This constitutes deliberate
indifference to Ms. Edmo’s serious medical needs and violates her rights under the
Eighth Amendment to the United States Constitution. Accordingly, for the reasons
explained in detail below, IDOC and Corizon will be ordered to provide Ms. Edmo with
gender confirmation surgery. Thus, the Court will grant in part Plaintiff’s Motion for
Preliminary Injunction (Dkt. 62).
In so ruling, the Court notes that its decision is based upon, and limited to, the
unique facts and circumstances presented by Ms. Edmo’s case. This decision is not
intended, and should not be construed, as a general finding that all inmates suffering from
gender dysphoria are entitled to gender confirmation surgery.
FINDINGS OF FACT
I.
1.

Transgender and Gender Dysphoria

Transgender is an umbrella term for a person whose gender identity is not
congruent with their assigned gender. Tr. 50:5-11. A transgender person suffers

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 4

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 5 of 45

from gender dysphoria when that incongruity is so severe that it impairs the
individual’s ability to function. Tr. 50:12-14.
2.

The American Psychiatric Association’s Diagnostic and Statistical Manual of
Mental Disorders (“DSM-5”) sets forth specific criteria which must exist before a
diagnosis of gender dysphoria is appropriate. Specifically, two conditions are
required:
a. First, there must be marked incongruence between one’s
experienced/expressed gender and assigned gender, of at least six month’s
duration, as manifested by at least two of the following:
i. A marked incongruence between one’s experienced/expressed
gender and primary and/or secondary sex characteristics.
ii. A strong desire to be rid of one’s primary and/or secondary sex
characteristics because of a marked incongruence with one’s
experienced/expressed gender.
iii. A strong desire for the primary and/or secondary sex characteristics
of the other gender.
iv. A strong desire to be of the other gender.
v. A strong desire to be treated as the other gender.
vi. A strong conviction that one has the typical feelings and reactions of
the other gender.
b. Second, the individual’s condition must be associated with clinically

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 5

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 6 of 45

significant distress or impairment in social, occupational, or other important
areas of functioning. Exh. 1001 at 3-4.
3.

“Clinically significant distress” means that the distress impairs or severely limits
the person’s ability to function in a meaningful way and has reached a threshold
that requires either medical or surgical interventions, or both. Tr. 51:3-8.

4.

Not every person who identifies as transgender has gender dysphoria. Tr. 50:5-11.
II.

5.

WPATH

The World Professional Association of Transgender Health (“WPATH”)
Standards of Care for the Health of Transsexual, Transgender, and Gender
Nonconforming People were first promulgated in 1979 and are the internationally
recognized guidelines for the treatment of individuals with gender dysphoria. Tr.
42:6-20; Exh. 15. WPATH Standards of Care are “flexible clinical guidelines.” Tr.
118:16-24, 119:1-7, 8-25, 288:7-23, and “are intended to be flexible in order to
meet the diverse health care needs of transsexual, transgender, and gender
nonconforming people.” Exh. 15 at 8.

6.

The WPATH Standards of Care have provided treatment guidelines for
incarcerated individuals since 1998. Tr. 54:11-21; Exh. 15 at 73. The current
WPATH Standards of Care apply equally to all individuals “irrespective of their
housing situation” and explicitly state that health care for transgender people
“living in an institutional environment should mirror that which would be
available to them if they were living in a non-institutional setting within the same

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 6

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 7 of 45

community.” Tr. 54:11-21; Exh. 15 at 73. The next update to the WPATH
Standards of Care will also apply to an individual regardless of where that person
is housed, including in a prison setting. Tr. 54:25-55:12.
7.

The WPATH Standards of Care indicate that options for psychological and
medical treatment of gender dysphoria include:
a. changes in gender expression and role,
b. hormone therapy to feminize or masculinize the body,
c. surgical changes of primary or secondary sex characteristics, and
d. psychotherapy. Exh. 15 at 15-16.

8.

The WPATH Standards of Care suggest options for social support and changes in
gender expression, including:
a. offline and online peer support resources, groups, or community
organizations that provide avenues for social support and advocacy;
b. offline and online support resources for families and friends;
c. voice and communication therapy to help individuals develop verbal and
non-verbal communication skills that facilitate comfort with their gender
identity;
d. hair removal through electrolysis, laser treatment, or waxing;
e. breast binding or padding, genital tucking or penile prostheses, padding of
hips or buttocks; and
f. changes in name and gender marker on identity documents. Exh. 15 at 16.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 7

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 8 of 45

9.

The WPATH Standards of Care provide that the purposes of psychotherapy
include “exploring gender identity, role, and expression; addressing the negative
impact of gender dysphoria and stigma on mental health; alleviating internalized
transphobia; enhancing social and peer support; improving body image; or
promoting resilience.” Exh. 15 at 16.

10.

Cross-sex hormone therapy results in development of secondary sex
characteristics of the other sex and provides an increase in the overall level of
well-being of a person with gender dysphoria. Tr. 60:8-22. For a transgender
woman, hormone treatment has physical effects such as breast growth, thinning of
facial hair, redistribution of fat and muscle, and shrinkage of the testicles. Tr.
246:7-20. The maximum physical effects of hormone therapy will typically be
achieved within two to three years. Exh. 15 at 42; Tr. 60:23-61:5, 246:7-247:1.

11.

Surgery – particularly genital surgery – is often the last and the most considered
step in the treatment process for gender dysphoria. Exh. 15 at 60.

12.

Many transgender individuals find comfort with their gender identity, role, and
expression without surgery. Exh. 15 at 60. For many others, however, surgery is
essential and medically necessary to alleviate their gender dysphoria. Exh. 15 at
60. For the latter group, relief from gender dysphoria cannot be achieved without
modification of their primary or secondary sex characteristics to establish greater
congruence with their gender identity. Exh. 15 at 60.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 8

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 9 of 45

13.

For individuals with severe gender dysphoria, where hormone therapy is
insufficient, gender confirmation surgery is the only effective treatment and is
medically necessary. Tr. 168:23-169:15; see also Ettner Decl. ¶ 51.

14.

The WPATH criteria for genital reconstruction surgery in male-to-female patients
include the following:
a. Persistent, well documented gender dysphoria;
b. Capacity to make a fully informed decision and to consent for treatment;
c. Age of majority in a given country;
d. If significant medical or mental health concerns are present, they must be
well controlled;
e. 12 continuous months of hormone therapy as appropriate to the patient’s
gender goals; and
f. 12 continuous months of living in a gender role that is congruent with their
gender identity. Exh. 15 at 66.

15.

Regarding the first criterion, “persistent, well documented gender dysphoria” is
deemed to exist when the person has a well-established diagnosis of gender
dysphoria that has persisted beyond six months. Tr. 55:21-56:3.

16.

Regarding the fourth criterion, the WPATH Standards of Care make clear that the
presence of co-existing mental health concerns does not necessarily preclude
possible changes in gender role or access to feminizing/masculinizing hormones or
surgery. Exh. 15 at 31. But these concerns need to be optimally managed prior to,

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 9

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 10 of 45

or concurrent with, treatment of gender dysphoria. Exh. 15 at 31.
a. It is often difficult to determine whether coexisting mental health concerns
are a result of gender dysphoria or are unrelated to that medical condition.
Tr. 171:1-14, 24-25, 172:1-5; 387:20-25, 388:1, 398:2-18, 601: 11- 602: 2;
Campbell Decl., Dkt. 101-4, ¶¶ 30-33. Co-existing mental health issues
directly tied to an individual’s gender dysphoria should not be considered
in assessing whether an individual meets the fourth WPATH criterion that
significant medical or mental health concerns must be well controlled. Tr.
387:6 to 388:6.
17.

Regarding the sixth criterion – a twelve-month experience of living in an identitycongruent role – the WPATH Standards of Care provide that this is intended to
ensure that the individual has had the opportunity to experience the full range of
different life experiences and events that may occur throughout the year (e.g.,
family events, holidays, vacations, season-specific work or school experiences).
During this time, patients should present consistently, on a day-to-day basis and
across all settings of life, in their desired gender role. This includes coming out to
partners, family, friends, and community members (e.g., at school, work, and in
other settings). Exh. 15 at 67.

18.

An individual in prison can satisfy the criterion of living in a gender role
congruent with their gender identity. Tr. 62:16-63:4, 584:16-25.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 10

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 11 of 45

III.

Expert Testimony

A. Plaintiff’s Experts
19.

Dr. Ettner is one of the authors of the WPATH Standards of Care, version 7. Tr.
42:21-24. Dr. Ettner has been a WPATH member since 1993 and chairs its
Committee for Institutionalized Persons. Tr. 43:2-16; Exh. 1003.
a. Dr. Ettner has treated approximately 3,000 individuals with gender
dysphoria, including evaluating whether gender confirmation surgery is
necessary for certain patients. She has referred approximately 300 patients
for gender confirmation surgery and assessed approximately 30
incarcerated individuals with gender dysphoria. Tr. 43:17-44:1, 44:9-13.
b. Dr. Ettner has extensive experience treating patients who have undergone
gender confirmation surgery. Tr. 44:2-8.
c. Dr. Ettner is an author or editor of numerous peer-reviewed publications on
treatment of gender dysphoria and transgender healthcare. Dr. Ettner is an
editor for the textbook, “Principles of Transgender Medicine and Surgery,”
which was revised in 2017 and is the textbook used in medical schools. Tr.
44:14-45:1; Exh. 1003.
d. Dr. Ettner also trains medical and mental health providers on treating
people with gender dysphoria, including assessing whether gender
confirmation surgery is appropriate, through the global education initiative
of WPATH and other presentations. Tr. 41:8-16, 45:17-46:18.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 11

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 12 of 45

e. Dr. Ettner has been appointed by a federal court as an independent expert
related to evaluation of an incarcerated patient for gender confirmation
surgery. Tr. 46:19-22.
f. However, Dr. Ettner is not a Certified Correctional Healthcare Professional,
and she has not treated inmates with gender dysphoria. Tr. 106:21-24,
107:11-18.
20.

Dr. Gorton is an emergency medicine physician who practices at a federally
qualified healthcare center that primarily services uninsured patients or those with
Medicare or Medicaid. Exh. 1004; Tr. 234:24-235:2. Dr. Gorton also works with
Project Health, which has provided training for numerous clinics regarding the
provision of transgender health care in California. Tr. 233:5-21. Dr. Gorton is a
member of WPATH and is on WPATH’s Transgender Medicine and Research
Committee and its Institutionalized Persons Committee. Tr. 238:4-6; Exh. 1004.
a. Dr. Gorton has been the primary care physician for approximately 400
patients with gender dysphoria and is currently the primary care physician
for approximately 100 patients with gender dysphoria. Exh. 1004; Tr.
237:4-12. Dr. Gorton currently provides follow-up care for about thirty
patients who have had vaginoplasty. Exh. 1004; Tr. 249:20-250:3.
b. Dr. Gorton has published peer-reviewed articles regarding treatment of
gender dysphoria. Tr. 239:16-18, Exh. 1004.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 12

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 13 of 45

c. Dr. Gorton has been qualified as an expert in multiple cases involving
transgender healthcare. Tr. 239:19-240:19; Exh. 1004.
d. However, Dr. Gorton has no experience treating inmates with gender
dysphoria. Tr. 269:17-23. Dr. Gorton is not a Certified Correctional
Healthcare Professional. Tr. 270:9-16.
B. Defendants’ Experts
21.

Dr. Garvey is a psychiatrist and Certified Correctional Healthcare Professional
under the National Commission on Correctional Health Care. Tr. 525:15-23. As
the Chief Psychiatrist in the Massachusetts Department of Corrections, Dr. Garvey
served as the chair of the Gender Dysphoria Treatment Committee. Tr. 508:10-11.
Dr. Garvey directly treated patients in the Massachusetts Department of
Correction who had gender dysphoria. Tr. 508:13-509:1.
a. Prior to evaluating Ms. Edmo, Dr. Garvey had never conducted an inperson evaluation to determine whether a patient needed gender
confirmation surgery. Tr. 558:10-14.
b. Dr. Garvey has never recommended that a patient with gender dysphoria
receive gender confirmation surgery or done long-term follow-up care with
a patient who has had gender confirmation surgery. Tr. 556:20-557:9.

22.

Dr. Andrade is a licensed independent clinical social worker and is a Certified
Correctional Healthcare Professional with an emphasis in mental health. Tr. 626:121. Dr. Andrade has over a decade of experience providing and supervising the

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 13

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 14 of 45

provision of correctional mental health care, including directing and overseeing
the treatment of all inmates diagnosed with gender dysphoria in the custody of the
Massachusetts Department of Corrections in his role as clinical director, chair of
the Gender Dysphoria Supervision Group, and member of the Gender Dysphoria
Treatment Committee. Tr. 627:22-23.
a. Over the last decade, Dr. Andrade has provided treatment to gender
dysphoria inmates in his role on the treatment committee and has evaluated
and confirmed diagnoses of gender dysphoria for over 100 inmates. Tr.
627:2-14. But Dr. Andrade has never provided direct treatment for patients
with gender dysphoria and has never been a treating clinician for a patient
who has had gender confirmation surgery. Tr. 647:8-14, 651:10-12.
b. As part of a committee, Dr. Andrade has recommended gender confirming
surgery for incarcerated inmates on two occasions. Tr. 627-629:1-10. But
the recommendation was contingent upon the requirement that the inmates
first live in a women’s prison for approximately twelve months. Tr. 647:19648:25. The Massachusetts Department of Corrections houses prisoners
according to their genitals, so the inmates were not allowed to move to a
women’s prison. Tr. 649:1-650:11. To Dr. Andrade’s knowledge, the
inmates had not been moved to a women’s prison at least seven months
after his recommendation. Tr. 649:1-650:11. Thus, the twelve-month period
of living in a women’s prison could not have started. Tr. 650:6-11.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 14

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 15 of 45

c. As a licensed independent clinical social worker, Dr. Andrade does not
qualify under IDOC’s former gender dysphoria policy as a “gender identity
disorder evaluator” who could assess someone for surgery. Tr. 660:11-17;
Exh. 8 at 3.
23.

Dr. Campbell is IDOC’s Chief Psychologist. He has provided mental health
services to incarcerated inmates since 2012. Campbell Decl., Dkt. 101-4, ¶¶ 2-7.
Dr. Campbell is a member of WPATH and is familiar with the WPATH Standards
of Care regarding gender dysphoria offenders and transgender inmates as provided
by the National Commission on Correctional Healthcare (“NCCHC”), the National
Institute of Corrections, and the Federal Bureau of Prisons. Campbell Decl., Dkt.
101-4, ¶¶ 8-10.
a. Dr. Campbell serves as chair of the Management and Treatment Committee
(“MTC”), a multidisciplinary committee that meets monthly to discuss and
evaluate the needs of inmates who have been diagnosed with gender
dysphoria. Campbell Decl., Dkt. 101-4, ¶¶ 13-14.
b. Dr. Campbell has directly conducted six gender dysphoria assessments and
has overseen the treatment and assessment of approximately fifty inmates
who have requested gender dysphoria evaluations, through his role as chair
of the Management and Treatment Committee and as the Chief
Psychologist. Campbell Decl., Dkt. 101-4, ¶¶ 13-14.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 15

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 16 of 45

c. There is no evidence that Dr. Campbell has ever recommended gender
confirmation surgery for an inmate.
IV.
24.

NCCHC

The NCCHC endorses the WPATH Standards of Care as the accepted standards
for the treatment of transgender prisoners. Exh. 1041 at 2, 4, n.1; Tr. 477:14478:22.
V.

Defendants’ Policies and Practices Regarding Gender Dysphoria

A. Corizon’s Policies and Practices
25.

Corizon is a private corporation that contracts to provide health care to prisons and
jails throughout the country. Corizon providers have never recommended gender
confirmation surgery to a patient at any of the prisons where it provides medical
services. Tr. 489:20-23.

26.

Corizon’s only written policy regarding gender dysphoria treatment does not
include gender confirmation surgery as a form of treatment. Tr. 482:25-483:9;
Exh. 14.

B. IDOC’s Policies and Practices
27.

The IDOC MTC is a multiple-disciplinary team that addresses treatment, planning,
and security issues associated with IDOC inmates who have gender dysphoria. Tr.
322:12-20. The Management and Treatment Committee reviews the treatment of
all inmates with gender dysphoria but does not make medical decisions. Tr. 323:413, 324:9-14.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 16

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 17 of 45

28.

There are currently 30 prisoners with gender dysphoria in IDOC custody. Tr.
322:21-323:3. No individual in IDOC custody has ever been recommended for, or
received, gender confirmation surgery. Tr. 376:23-377:4.

29.

IDOC’s operative gender dysphoria policy when Ms. Edmo was assessed for
surgery defined a “qualified gender identity disorder (GID) evaluator as ‘[a]
Doctor of philosophy (PhD) level practitioner licensed by an appropriate state
licensing authority as a psychologist, or a physician licensed by a state Board of
Medicine, who has demonstrated an indicia of basic competence related to the
diagnosis and treatment of GID and related mental or emotional disorders through
their licensure, training, continuing education, and clinical experience.’” Exh. 8 at
3; Tr. 388:16-389:1.

30.

This policy stated that gender confirmation surgery “will not be considered for
individuals within the Idaho Department of Correction (IDOC), unless determined
medically necessary by the treating physician.” Exh. 8 at 8.

31.

On October 5, 2018, shortly before the hearing in this matter, IDOC implemented
a new gender dysphoria policy that would allow prisoners at Idaho State
Correctional Institute (“ISCI”) diagnosed with gender dysphoria to order and
possess female commissary items and present in a manner consistent with their
gender identity. Tr. 347:18-348:23; Exh. 9.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 17

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 18 of 45

a. The new policy also states that “to avoid a sexually charged atmosphere in
IDOC facilities . . .. [n]o provocative or sexually charged clothing or
behavior will be permitted.” Exh. 9 at 6.
b. IDOC’s new gender dysphoria policy continues to state that gender
confirmation surgery “will not be considered for individuals within the
Idaho Department of Correction (IDOC), unless determined medically
necessary by the treating physician.” Exh. 9 at 8-9.
c. The policy further states that prisoners will be housed “based upon the
inmate’s primary physical sexual characteristics.” Exh. 9 at 4.
V.
32.

Adree Edmo’s Gender Dysphoria

Adree Edmo is a male-to-female transgender prisoner in the custody of IDOC. Ms.
Edmo has been incarcerated at ISCI since April 2012. Tr. 192:19-20; see also
Edmo Decl. ¶ 12. She is 30 years of age. Tr. 192:17-18.
33. From the age of 5 or 6, Ms. Edmo has viewed herself as female. In her words,
“my brain typically operates female, even though my body hasn't corresponded
with my brain.” Tr. 193:7-8.
34. While others viewed her as being gay, that is not how she perceived herself. Tr.
193:18-23. While, she struggled with her gender identity as a child and teenager,
she began living as a woman at age 20 or 21. Tr. 211:1-11. She views herself as a
woman with a heterosexual attraction to men. Tr. 193:15-17.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 18

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 19 of 45

35.

Prior to being incarcerated, and learning about gender identity and transgender,
Ms. Edmo struggled with her own identity and sexual orientation. On two
occasions in 2010 and 2011, she attempted suicide. Tr. 206:12-15.

36.

In June 2012, soon after being incarcerated, Ms. Edmo was diagnosed with gender
identity disorder by Corizon psychiatrist Dr. Eliason. Exh. 1 at 321. In July 2012,
Corizon psychologist Claudia Lake confirmed Ms. Edmo’s diagnosis of gender
identity disorder. Exh. 1 at 323-27. There is no dispute that Ms. Edmo suffers from
gender dysphoria. Tr. 69:20-70:3, 251:23-252:3, 518:16-18, 635:1-7.

37.

Ms. Edmo legally changed her name to Adree Edmo in September 2013. Tr.
192:6-9. Ms. Edmo has also changed her sex to “female” on her birth certificate to
further affirm her gender identity. Tr. 203:13-22; Exh. 1002.

38.

Ms. Edmo has consistently presented as feminine throughout her incarceration by
wearing her hair in traditionally feminine hairstyles when able to do so, wearing
makeup when able to do so, and acting in a feminine demeanor. Tr. 194:24-195:5,
411:1-7, 463:11-464:21. Ms. Edmo’s feminine presentation has been documented
by Defendants’ medical providers since 2012. See, e.g., Exh. 1 at 321, 347, 425,
452, 538. Ms. Edmo has also held two jobs while in prison and has presented as
feminine at her places of employment. Tr. 201:24-202:10.

39.

Ms. Edmo has continually sought to present herself as feminine despite receiving
multiple disciplinary offense reports related to wearing makeup, styling her hair in
a feminine manner, and altering her male-issued undergarments into female

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 19

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 20 of 45

panties. Tr. 195:11-20; Exh. 5 at 8, 9, 21-22, 25, 27-28, 33-34, 41-43, 48-57, 6265; Yordy Dep. 47:4-49:15, 85:22-87:11; Edmo Decl. ¶ 19.
40.

Ms. Edmo testified that hormone therapy helped treat her gender dysphoria to
some extent. Tr. 223:9-14. The hormones “cleared her mind,” and resulted in
breast growth, body fat redistribution, and changes in her skin consistency. Tr.
196:15-25. As a result of hormone therapy, Ms. Edmo is hormonally confirmed,
which means she has the same circulating sex hormones and secondary sex
characteristics as a typical adult female. Tr. 72:14-21; Ettner Decl. ¶ 59.

41.

Ms. Edmo has achieved the maximum physical changes associated with hormone
treatment. Tr. 602:1-603:4. However, Ms. Edmo continues to experience distress
related to gender incongruence, which is mostly focused on her male genitalia. She
testified she feels “depressed, embarrassed, and disgusted” by her male genitalia
and that this is an “everyday reoccurring thought.” Tr. 197:7-24.

42.

Ms. Edmo first attempted self-castration to remove her testicles in September 2015
using a disposable razor blade. She wrote a note to let the officers know she was
not trying to commit suicide and was only trying to help herself. She attempted to
cut her testicle sac open but was unsuccessful. Edmo Decl. ¶ 31; Tr. 197:25-198:8.

43.

In January 2016, Ms. Edmo reported to Dr. Eliason that she was having difficulty
sleeping due to thoughts of self-castration. In response, Dr. Eliason prescribed Ms.
Edmo sleeping medication. Tr. 458:5-10, 461:18-24.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 20

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 21 of 45

44.

Ms. Edmo also reported her frequent thoughts of self-castration to her assigned
clinician, Krina Stewart, in November 2016. Ms. Stewart testified that none of the
interventions she identified for Ms. Edmo at that visit would alleviate her gender
dysphoria or desire to self-castrate. Stewart Dep. 58:15-59:16; Exh. 1 at 584-85.

45.

Ms. Edmo attempted self-castration a second time in December 2016. She
prepared for weeks by studying the anatomy of the scrotum and took steps to
diminish the chance of infection by boiling the razor blade and scrubbing her
hands with soap. Ms. Edmo made more surgical headway on this attempt and was
able to cut open the testicle sac and remove the testicle. Gorton Decl. ¶ 74.
Because there was too much blood, Ms. Edmo abandoned her attempt and sought
medical assistance. Tr. 198:9-16. She was transported to a hospital where her
testicle was repaired. Tr. 198:25-199:13.

46.

Ms. Edmo was receiving hormone therapy both times she attempted to selfcastrate. Tr. 228:20-25.

47.

After the procedure, Ms. Edmo felt disappointed in herself because she felt she
had come so close to removing her testicle but had not succeeded. Tr. 199:17-23.
Ms. Edmo continues to actively experience thoughts of self-castration. Tr.
197: 21-24. In an effort to avoid acting on them, when she has experienced
extreme episodes of gender dysphoria in the past year, Ms. Edmo “selfmedicat[es]” by using a razor to cut her arm. The physical pain she feels from

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 21

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 22 of 45

cutting helps her release the emotional torment and mental anguish she feels at the
time. Tr. 199:24-200:15.
48.

Ms. Edmo will likely be released from prison sometime in 2021. Tr. 201:14-15,
230:3-10.
VI.

49.

Defendants’ Treatment of Ms. Edmo for Gender Dysphoria

On April 20, 2016, Dr. Eliason evaluated Ms. Edmo for sex reassignment surgery.
Jt. Exh. 1 at 538. Dr. Eliason noted that Ms. Edmo reported she was “doing
alright,” that she was eligible for parole, but it had not been granted because of
multiple Disciplinary Offense Reports (“DORs”). Jt. Exh. 1 at 538. The DORS
were related to her use of makeup and feminine appearance. Jt. Exh. 1 at 538.

50.

Dr. Eliason noted that Ms. Edmo had been on hormone replacement for the last
year and a half, but that she felt she needed more. Jt. Exh. 1 at 538. Dr. Eliason
specifically noted that Ms. Edmo stated an improvement in gender dysphoria on
hormone replacement but had ongoing frustrations stemming from her current
anatomy. Jt. Exh. 1 at 538. He also recognized Ms. Edmo’s multiple attempts to
“mutilate her genitalia” because of the severity of her distress. Jt. Exh. 1 at 538.
He also noted that he spoke to prison staff about Ms. Edmo’s behavior, “which is
notable for animated affect and no observed distress.” Jt. Exh. 1 at 538. Dr.
Eliason then stated that he also personally observed Ms. Edmo in these settings
and did not observe significant dysphoria. Jt. Exh. 1 at 538.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 22

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 23 of 45

51.

Nevertheless, Dr. Eliason noted that Ms. Edmo appeared feminine in demeanor
and interaction style. Jt. Exh. 1 at 538. He concluded that Ms. Edmo had Gender
Dysphoria, Alcohol Use disorder, and Depression, Jt. Exh. 1 at 538, but his
ultimate conclusion was that Ms. Edmo “[d]oes not meet criteria for medical
necessity for sex reassignment surgery.” Jt. Exh. 1 at 538.

52.

In assessing Ms. Edmo’s need for gender confirmation surgery, Dr. Eliason
indicated that he staffed her case with Dr. Jeremy Stoddart, Dr. Murray Young,
and Jeremy Clark LCPC (clinical supervisor and WPATH member). Each of these
individuals agreed with his assessment. Jt. Exh. 1 at 538.

53.

Dr. Eliason indicated he would continue to monitor and assess Ms. Edmo for the
medical necessity of gender confirmation surgery. Jt. Exh. 1 at 538. He further
determined that the combination of hormonal treatment and supportive counseling
is sufficient for Ms. Edmo’s gender dysphoria for the time being.

54.

To justify his conclusion, Dr. Eliason noted that while medical necessity for
gender confirmation surgery is not very well defined and is constantly shifting, the
following situations could constitute medical necessity for the surgery:
a. Congenital malformations or ambiguous genitalia;
b. Severe and devastating dysphoria that is primarily due to genitals; and
c. Some type of medical problem in which endogenous sexual hormones were
causing severe physiological damage. Jt. Exh. 1 at 538.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 23

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 24 of 45

55.

He also explained that there may also be other situations where gender
confirmation surgery is medically necessary as more information becomes
available. Jt. Exh. 1 at 538.

56.

Although not noted in his April 20, 2016 progress notes, Dr. Eliason testified that
Ms. Edmo’s mental health concerns were not “fully in adequate control.” Tr.
430:22-431:2. He testified that not all of Ms. Edmo’s mental health issues, such as
her major depression and alcohol use disorders, stemmed from her gender
dysphoria. His testimony, however, is contradicted by his April 20, 2016 clinician
notes. Tr. 451:1-12.

57.

Ms. Edmo has received mental health treatment from a psychiatrist and mental
health nurse practitioner since she began her incarceration in 2012. Tr. 225:8227:2. However, she has not consistently attended therapy to help her work
through serious underlying mental health issues and a pre-incarceration history of
trauma, abuse, and suicide attempts. Tr. 134:8-25, 135:1-23, 218:21-25, 219:1-14,
220:17-20; 221:16-19; Campbell Decl. Dkt., 101-4, ¶¶24, 29; Stewart Decl., Dkt.
101-1, ¶12; Watson Decl., Dkt. 101-3, ¶18; Clark Decl., Dkt. 101-7, ¶14).

58.

Dr. Eliason testified that there were two primary reasons why sex reassignment
surgery was not medically necessary at the time:
a. Ms. Edmo had not satisfied the 12-month period of living in her identified
gender role under WPATH standards. Tr. 430: 25-431:2; and

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 24

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 25 of 45

b. “[I]t was not doing Ms. Edmo any service to rush through getting gender
reassignment surgery in that current social situation.” Tr. 431:3-6.
59.

Dr. Eliason’s evaluation was the only time IDOC and Corizon evaluated Ms.
Edmo for gender confirmation surgery prior to this lawsuit. Exh. 1 at 538; Tr.
419:1-10.

60.

In concluding that surgery was not medically necessary for Ms. Edmo, Dr. Eliason
did not review her prior criminal record, disciplinary history, or her presentence
investigation reports. Tr. 468:4-18. The only information Dr. Eliason relied upon
was Ms. Edmo’s medical record, staff observations, and her therapist’s notes. Tr.
469:16-25. Dr. Eliason testified that when he assessed her for surgery, he was
aware of Ms. Edmo’s prior self-surgery attempt. He believed Ms. Edmo’s gender
dysphoria had risen to another level, but he made no change to her treatment plan.
Tr. 471:7-22.
VII.

61.

Ms. Edmo’s Medical Necessity for Gender Confirmation Surgery

Plaintiff’s and Defendants’ experts disagree on whether Ms. Edmo meets all the
WPATH standards criteria for gender confirmation surgery. Specifically,
Defendants’ experts believe that Ms. Edmo does not meet the fourth and sixth
criteria – that any significant mental health concerns be well controlled and that
she live twelve months in a fully gender-congruent role. Tr. 75:9-78:3; 252:13254:11; 607:2-10, 639:14-640:25.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 25

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 26 of 45

62.

Notably, however, Dr. Eliason did not rely upon any finding that Ms. Edmo did
not meet the WPATH criteria in concluding in his April 2016 assessment that she
did not meet the criteria for gender confirmation surgery. Tr. 462:3-463:10.

63.

With regard to the fourth criterion, Ms. Edmo has been diagnosed with Major
Depressive Disorder, Alcohol Use Disorder, and Gender Dysphoria. See, e.g., Exh.
1 at 538. These diagnoses were generally confirmed by each of the experts, with
observation that any substance use disorder has been in remission while Ms. Edmo
has been incarcerated. Tr. 67:16-18, 253:3-9, 518:16-219:6, 603:22-604:5.
a. Plaintiff’s experts testified that Ms. Edmo’s depression and anxiety are as
controlled as they can be and do not impair her ability to undergo surgery.
Tr. 76:13-25, 123:14-124:11, 253:3-9; Exh. 15 at 30. In their view, the
clinical significance of Ms. Edmo’s self-surgery attempts and recent cutting
of her arm is that she has severe genital-focused gender dysphoria and is
not getting medically necessary treatment to alleviate it. Tr. 254:15-19,
98:11-22. Ms. Edmo’s self-surgery attempts are not acts of mutilation or
self-harm, but are instead attempts to remove her target organ that produces
testosterone, which is the cure for gender dysphoria. Tr. 80:3-13. Ms.
Edmo’s gender dysphoria, not her depression and anxiety, is the driving
force behind her self-surgery attempts. Tr. 254:20-255:8.
b. Thus, Ms. Edmo’s self-surgery attempts and cutting do not indicate she has
mental health concerns that are not well controlled. Tr. 98:11-22. Rather,

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 26

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 27 of 45

Ms. Edmo’s recent cutting is attention-reduction behavior that she uses to
prevent herself from cutting her genitals. Tr. 98:16-22. Her self-surgery
attempts indicate a need for treatment for gender dysphoria. Tr. 98:11-15.
c. In the more than six years she has spent in IDOC custody, no Corizon or
IDOC provider has ever diagnosed Ms. Edmo with borderline personality
disorder. Tr. 361:18-362:3, 470:4-6. Defense expert Dr. Andrade is the first
person to ever diagnose Ms. Edmo with borderline personality disorder, and
he was unable to identify his criteria for this diagnosis of Ms. Edmo during
his testimony. Tr. 652:21-24, 638:16-22. None of the other experts,
including Defense expert Dr. Garvey, diagnosed Ms. Edmo with borderline
personality disorder. Tr. 131:24-132:3, 139:19-24.
d. One of the primary concerns underlying the fourth criterion is that the
individual be able to properly participate in postsurgical care. Ms. Edmo
has demonstrated the capacity to follow through with the postsurgical care
she would require. Tr. 99:3-8, 169:23-170:25.
e. Although it is troubling that Ms. Edmo has declined to fully participate in
the mental health treatment and counseling sessions recommended by Dr.
Eliason and others, Dr. Ettner made clear that, “Psychotherapy is neither a
precondition for treatment or a condition -- a precondition for surgery.” Tr.
98:23-99:2.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 27

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 28 of 45

f. Dr. Ettner concludes that Ms. Edmo meets the fourth criterion, since she
has no unresolved mental health issues that would prevent her from
receiving gender confirmation surgery. Tr. 98:3-10.
64.

With respect to the sixth criterion, both Plaintiff’s experts testified that Ms. Edmo
meets and exceeds the condition of social role transition by living as a woman to
the best of her ability in a male prison.
a. For the six-plus years she has lived in prison, Ms. Edmo has consistently
sought to present as feminine, despite living in an environment hostile to
her efforts, and despite the disciplinary consequences she faces. Tr. 77:978:3, 254:4-11.

65.

Dr. Ettner testified that gender confirmation surgery would eliminate Ms. Edmo’s
gender dysphoria and significantly attenuate much of the attendant depression and
symptoms she is experiencing. Tr. 104:24-105:9. She testified that gender
confirmation surgery is the cure for gender dysphoria and will therefore result in
therapeutic and beneficial effects for Ms. Edmo. Tr. 81:13-19.

66.

Dr. Gorton testified that it is highly unlikely that Ms. Edmo’s severe gender
dysphoria will improve without gender confirmation surgery. Tr. 267:19-22.

67.

The risks of not providing gender confirmation surgery to Ms. Edmo include
surgical self-treatment, emotional decompensation, and risk of suicide given her
high degree of suicide ideation. Tr. 80:24:81:8, 264:13-22. If she is not provided
with surgery, Ms. Edmo has indicated that she will try self-surgery again to deal

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 28

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 29 of 45

with her extreme episodes of gender dysphoria. Tr. 199:24-200:5. Given that Ms.
Edmo made increasing progress on her first two self-surgery attempts, it is likely
that Ms. Edmo will be successful if she attempts self-surgery again. Tr. 264:13-22.
68.

Scientific studies indicate that the regret rate for individuals who have had gender
confirmation surgery is very low and generally in the range of one percent of
patients. Tr. 103:25-12, 165:16-166:4. Ms. Edmo does not have any of the risk
factors that make her likely to regret undergoing gender confirmation surgery. Tr.
266:1-267:1.
CONCLUSIONS OF LAW
I.

1.

Injunction Standard

Ms. Edmo asks for a preliminary injunction. A preliminary injunction is only
awarded upon a clear showing that the plaintiff is entitled to the requested relief.
Winter v. Natural Resources Defense Council, Inc., 555 U.S. 7, 22 (2008).

2.

To make this showing, the plaintiff must establish: (1) a likelihood of success on
the merits; (2) a likelihood of irreparable harm to the moving party in the absence
of preliminary relief; (3) that the balance of equities tips in favor of the moving
party; and (4) that an injunction is in the public interest. Id.

3.

The requirements are stated in the conjunctive so that all four elements must be
established to justify injunctive relief. The court may apply a sliding scale test,
under which “the elements of the preliminary injunction test are balanced, so that a

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 29

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 30 of 45

stronger showing of one element may offset a weaker showing of another.”
Alliance for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1131 (9th Cir. 2011).
4.

A more stringent standard is applied where mandatory, as opposed to prohibitory,
injunctive relief is sought. Prohibitory injunctions restrain a party from taking
action and effectively “freeze[ ] the positions of the parties until the court can hear
the case on the merits.” Heckler v. Lopez, 463 U.S. 1328, 1333 (1983). Mandatory
injunctions go well beyond preserving the status quo, as they order a party to take
some action. See Marlyn Nutraceuticals, Inc. v. Mucos Pharma GmbH & Co.,
571 F.3d 873, 879 (9th Cir. 2009).

5.

Although the same general principles inform the court’s analysis in deciding
whether to issue mandatory or prohibitory relief, courts should be “extremely
cautious” about ordering mandatory relief. Martin v. Intl Olympic Comm., 740
F.2d 670, 675 (9th Cir. 1984). Mandatory preliminary relief should not issue
unless both the facts and the law clearly favor the moving party and extreme or
very serious damage will result. See Marlyn Nutraceuticals, 571 F.3d at 879.
Mandatory injunctions are not issued in doubtful cases, or where the party seeking
an injunction could be made whole by an award of damages. Id.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 30

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 31 of 45

6.

The Court agrees with defendants that Edmo seeks mandatory relief. Thus, the
Court will apply the more stringent standard. 1

7.

The Prison Litigation Reform Act (“PLRA”) requires any preliminary injunction
to be “narrowly drawn, extend no further than necessary to correct the harm the
court finds requires preliminary relief, and be the least intrusive means necessary
to correct the harm. The court shall give substantial weight to any adverse impact
on public safety or the operation of a criminal justice system.” 18 U.S.C. §
3626(a)(2).
II.

Eighth Amendment Claim

A. Likelihood of Success on the Merits
8.

The Eighth Amendment to the United States Constitution protects prisoners
against cruel and unusual punishment. To state a claim under the Eighth

In discussions with counsel before the evidentiary hearing, the Court expressed
the concern that the nature of the relief requested in this case, coupled with the extensive
evidence presented by the parties over a 3-day evidentiary hearing, effectively converted
these proceedings into a final trial on the merits of the plaintiff’s request for permanent
injunctive relief. Neither party addressed the Court’s concern, and both parties appear to
have treated the evidentiary hearing as a final trial of Ms. Edmo’s claims.
In an abundance of caution, the Court has considered the standard for the issuance
of a permanent injunction, which would have required the plaintiff to show (1) she has
suffered an irreparable injury, (2) monetary damages would not compensate her for that
injury, (3) after balancing the hardships between the parties, a remedy of equity is
warranted, and (4) the public interest would not be disserved by a permanent injunction.
See, eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391 (2006). That standard appears
to be no more rigorous than that applicable to a claim for preliminary mandatory relief.
The Court concludes that under either standard Ms. Edmo is entitled to relief.
1

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 31

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 32 of 45

Amendment, Ms. Edmo must show that she is “incarcerated under conditions
posing a substantial risk of serious harm,” or that she has been deprived of “the
minimal civilized measure of life’s necessities” as a result of Defendants’ actions.
Farmer v. Brennan, 511 U.S. 825, 834 (1994) (internal quotation marks omitted).
9.

An Eighth Amendment claim requires a plaintiff to satisfy “both an objective
standard – that the deprivation was serious enough to constitute cruel and unusual
punishment – and a subjective standard – deliberate indifference.” Snow v.
McDaniel, 681 F.3d 978, 985 (9th Cir. 2012).

10.

The Eighth Amendment includes the right to adequate medical care in prison, and
prison officials or prison medical providers can be held liable if their “acts or
omissions [were] sufficiently harmful to evidence deliberate indifference to
serious medical needs.” Estelle v. Gamble, 429 U.S. 97, 106 (1976).

11.

Regarding the objective standard for prisoners’ medical care claims, the Supreme
Court of the United States has explained that “[b]ecause society does not expect
that prisoners will have unqualified access to health care, deliberate indifference to
medical needs amounts to an Eighth Amendment violation only if those needs are
‘serious.’” Hudson v. McMillian, 503 U.S. 1, 9 (1992) (quoting Estelle v.
Gamble, 429 U.S., 97, 103 (1976)).

12.

The Ninth Circuit has defined a “serious medical need” in the following ways:
failure to treat a prisoner’s condition [that] could result in further significant injury
or the unnecessary and wanton infliction of pain [;] ... [t]he existence of an injury

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 32

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 33 of 45

that a reasonable doctor or patient would find important and worthy of comment
or treatment; the presence of a medical condition that significantly affects an
individual’s daily activities; or the existence of chronic and substantial pain . . . .”
McGuckin v. Smith, 974 F.2d 1050, 1059–60 (9th Cir. 1992) (internal citations
omitted), overruled on other grounds, WMX Techs., Inc. v. Miller, 104 F.3d 1133
(9th Cir. 1997) (en banc).
13.

As to the subjective standard, a prison official or prison medical provider acts with
“deliberate indifference . . . only if the [prison official] knows of and disregards an
excessive risk to inmate health and safety.” Gibson v. Cnty. of Washoe, Nev., 290
F.3d 1175, 1187 (9th Cir. 2002) (citation and internal quotation marks omitted).
“Under this standard, the prison official must not only ‘be aware of facts from
which the inference could be drawn that a substantial risk of serious harm exists,’
but that person ‘must also draw the inference.’” Toguchi v. Chung, 391 F.3d 1051,
1057 (9th Cir. 2004) (quoting Farmer, 511 U.S. at 837).

14.

“If a [prison official] should have been aware of the risk, but was not, then the
[official] has not violated the Eighth Amendment, no matter how severe the risk.”
Gibson, 290 F.3d at 1188 (citation omitted). However, “whether a prison official
had the requisite knowledge of a substantial risk is a question of fact subject to
demonstration in the usual ways, including inference from circumstantial
evidence, . . . and a factfinder may conclude that a prison official knew of a
substantial risk from the very fact that the risk was obvious.” Farmer, 511 U.S. at

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 33

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 34 of 45

842; see also Lolli v. County of Orange, 351 F.3d 410, 421 (9th Cir. 2003)
(deliberate indifference to medical needs may be shown by circumstantial
evidence when the facts are sufficient to demonstrate that defendant actually knew
of a risk of harm).
15.

In the medical context, a conclusion that a defendant acted with deliberate
indifference requires that the plaintiff show both “a purposeful act or failure to
respond to a prisoner’s pain or possible medical need and . . . harm caused by the
indifference.” Jett v. Penner, 439 F.3d 1091, 1096 (9th Cir. 2006).

16.

Deliberate indifference can be “manifested by prison doctors in their response to
the prisoner’s needs or by prison guards in intentionally denying or delaying
access to medical care or intentionally interfering with the treatment once
prescribed.” Estelle, 429 U.S. at 104–05 (footnotes omitted).

17.

Non-medical prison personnel are generally entitled to rely on the opinions of
medical professionals with respect to the medical treatment of an inmate.
However, if “a reasonable person would likely determine [the medical treatment]
to be inferior,” the fact that an official is not medically trained will not shield that
official from liability for deliberate indifference. Snow, 681 F.3d at 986; see also
McGee v. Adams, 721 F.3d 474, 483 (7th Cir. 2013) (stating that non-medical
personnel may rely on medical opinions of health care professionals unless “they
have a reason to believe (or actual knowledge) that prison doctors or their

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 34

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 35 of 45

assistants are mistreating (or not treating) a prisoner”) (internal quotation marks
omitted).
18.

Differences in judgment between an inmate and prison medical personnel
regarding appropriate medical diagnosis and treatment are not enough to establish
a deliberate indifference claim. Sanchez v. Vild, 891 F.2d 240, 242 (9th Cir.1989).
“[T]o prevail on a claim involving choices between alternative courses of
treatment, a prisoner must show that the chosen course of treatment ‘was
medically unacceptable under the circumstances,’ and was chosen ‘in conscious
disregard of an excessive risk’ to the prisoner's health.” Toguchi, 391 F.3d at 1058,
(alteration omitted) (quoting Jackson v. McIntosh, 90 F.3d 330, 332 (9th Cir.
1996)).

19.

Mere indifference, medical malpractice, or negligence will not support a cause of
action under the Eighth Amendment. Broughton v. Cutter Labs., 622 F.2d 458,
460 (9th Cir.1980) (per curiam). Likewise, a delay in treatment does not
constitute a violation of the Eighth Amendment unless the delay causes further
harm. McGuckin, 974 F.2d at 1060.
1. Serious Medical Need

20.

There is no dispute that Ms. Edmo suffers from gender dysphoria. And there is no
dispute that gender dysphoria is a serious medical condition recognized by the
DSM-5.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 35

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 36 of 45

21.

WPATH Standards of Care are the accepted standards of care for treatment of
transgender patients. These standards have been endorsed by the NCCHC as
applying to incarcerated persons.

22.

There are no other competing, evidence-based standards that are accepted by any
nationally or internationally recognized medical professional groups.

23.

The Court finds credible the testimony of Plaintiff’s experts Drs. Ettner and
Gorton, who have extensive personal experience treating individuals with gender
dysphoria both before and after receiving gender confirmation surgery. Plaintiff’s
experts found that Ms. Edmo satisfied all six WPATH medical necessity criteria
for surgery.

24.

Defendants’ experts, by contrast, have opined that surgery is not medically
necessary for Ms. Edmo. However, neither Dr. Garvey nor Dr. Andrade has any
direct experience with patients receiving gender confirmation surgery or assessing
patients for the medical necessity of gender confirmation surgery. Defendants’
experts also have very little experience treating patients with gender dysphoria
other than assessing them for the existence of the condition.

25.

Defendants’ experts appear to misrepresent the WPATH Standards of Care by
concluding that Ms. Edmo, despite presenting as female since her incarceration in
2012, cannot satisfy the WPATH criteria because she has not presented as female
outside of the prison setting. But there is no requirement in the WPATH Standards
of Care that a “patient live for twelve months in his or her gender role outside of

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 36

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 37 of 45

prison before becoming eligible for SRS.” Norsworthy v. Beard, 87 F. Supp. 3d
1164 (N.D. Cal. 2015),
26.

Indeed, Plaintiff’s experts opine that Ms. Edmo exceeds this criterion because she
has not only presented as female for far longer than twelve months, but has done
so in an environment arguably more hostile to these efforts than the non-custodial
community, and despite the disciplinary consequences of doing so. The WPATH
Standards of Care explicitly provide that they apply “in their entirety . . . to all
transsexual, transgender, and gender-nonconforming people, irrespective of their
housing situation,” and “including institutional environments such as prisons.”
Exh. 15 at 73. The Standards of Care make clear that “[d]enial of needed changes
in gender role or access to treatments, including sex reassignment surgery, on the
basis of residence in an institution are not reasonable accommodations.” Exh. 15 at
74.

27.

Defendants’ evidence to the contrary is unconvincing and suggests a decided bias
against approving gender confirmation surgery.

28.

In 2016, Dr. Eliason contacted Dr. Steven Levine to lead a training for IDOC and
Corizon providers on medical necessity for gender confirmation surgery. Tr.
433:23-434:24. Dr. Levine’s training presentation was titled “Medical Necessity
of Transgender Inmates: In Search of Clarity When Paradox, Complexity, and
Uncertainty Abound.” Exh. 17 at 1. Dr. Levine trained Corizon and IDOC staff
that gender confirmation surgery is “not conceived as lifesaving as is repairing a

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 37

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 38 of 45

potentially leaking aortic aneurysm but as life enhancing as is providing
augmentation for women distressed about their small breasts.” Exh. 17 at 43; Exh.
16.
29.

Dr. Levine is considered an outlier in the field of gender dysphoria and does not
ascribe to the WPATH Standards of Care. Tr. 176:14-21. His training materials do
not reflect opinions that are generally accepted in the field of gender dysphoria.
Tr. 176:22-179:1.

30.

Dr. Levine’s training includes additional criteria proposed by Cynthia Osborne
and Anne Lawrence that incarcerated individuals must meet in order to receive
gender confirmation surgery. Exh. 17 at 39-41, 51; Exh. 19. These requirements
are not part of the WPATH criteria and are in opposition to the WPATH Standards
of Care. Tr. 101:15-22, 103:14-20. There are no scientific studies that support
these additional requirements, and no professional associations or organizations
have endorsed Osborne and Lawrence’s proposed requirements for prisoners. Tr.
103:4-13. The NCCHC has not adopted Osborne and Lawrence’s additional
requirements. Tr. 480:12-16. Like Dr. Levine, Osborne and Lawrence are
considered outliers in the field of gender dysphoria treatment, are not WPATH
members, and do not ascribe to the WPATH Standards of Care. Tr. 101:2-14.

31.

A decision of the U.S. District Court in the Northern District of California,
Norsworthy v. Beard, 87 F. Supp. 3d 1164 (N.D. Cal. 2015), is noteworthy here.
Dr. Levine was retained as a defense expert by the California Department of

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 38

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 39 of 45

Corrections and Rehabilitation in a suit filed by a transgender plaintiff in that case.
In ordering the prison to provide the plaintiff gender confirmation surgery, the
Norsworthy court afforded Dr. Levine’s opinions “very little weight,” stating: “To
the extent that Levine’s apparent opinion that no inmate should ever receive SRS
predetermined his conclusion with respect to Norsworthy, his conclusions are
unhelpful in assessing whether she has established a serious medical need for
SRS.” Norsworthy, 87 F. Supp. 3d at 1188. The court also determined that Dr.
Levine’s opinion was not credible because of illogical inferences, inconsistencies,
and inaccuracies,” including misrepresentations of the WPATH Standards of Care,
overwhelming “generalizations about gender dysphoric prisoners” and Dr.
Levine’s fabrication of a prisoner anecdote. Id.
32.

Under these circumstances, the Court gives virtually no weight to the opinions of
Defendants’ experts that Ms. Edmo does not meet the fourth and sixth WPATH
criteria for gender confirmation surgery.
2. Deliberate Indifference

33.

Defendants misapplied the recognized standards of care for treating Ms. Edmo’s
gender dysphoria.

34.

Defendants insufficiently trained their staff with materials that discourage referrals
for surgery and represent the opinions of a single person who rejects the WPATH
Standards of Care.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 39

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 40 of 45

35.

Defendants’ sole evaluation of Ms. Edmo for surgery prior to this lawsuit failed to
accurately apply the WPATH Standards of Care. Specifically, Dr. Eliason’s
assessment that Ms. Edmo did not meet medical necessity for surgery did not
apply the WPATH criteria.

36.

Defendants have been deliberately indifferent to Ms. Edmo’s medical needs by
failing to provide her with available treatment that is generally accepted in the
field as safe and effective, despite her actual harm and ongoing risk of future harm
including self-castration attempts, cutting, and suicidal ideation.

37.

Evidence also suggests that Ms. Edmo has not been provided gender confirmation
surgery because Corizon and IDOC have a de facto policy or practice of refusing
this treatment for gender dysphoria to prisoners.

38.

In Norsworthy, the court found that the prison had a blanket policy barring surgery
in light of evidence that the prison’s “guidelines for treating transgender inmates,
which do not mention SRS as a treatment option, and the 2012 training provided
to CDCR staff by Levine, which indicated that SRS should never be provided to
incarcerated patients.” Norsworthy, 87 F. Supp. 3d at 1191.

39.

Here, the only guidelines Corizon issued to assist its providers in treating gender
dysphoria likewise do not include surgery as a treatment option. Moreover, Dr.
Levine’s training provided to Corizon and IDOC staff, and incorporated into
further Corizon and IDOC training, discourages providing surgery to incarcerated
persons with gender dysphoria.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 40

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 41 of 45

40.

Significantly, no Corizon or IDOC provider has ever recommended that gender
confirmation surgery is medically necessary for a patient in IDOC custody. In fact,
Corizon has never provided this surgery at any of its facilities in the United States.

41.

As was the case in Norsworthy, “[t]he weight of the evidence demonstrates that for
[Ms. Edmo], the only adequate medical treatment for her gender dysphoria is
[gender confirmation surgery], that the decision not to address her persistent
symptoms was medically unacceptable under the circumstances, and that
[Defendants] denied her the necessary treatment for reasons unrelated to her
medical need.” Norsworthy, 87 F. Supp. 3d at 1192.

42.

Accordingly, Ms. Edmo is likely to succeed on the merits of her Eighth
Amendment claim.

B. Likelihood of Irreparable Harm
43.

The Ninth Circuit has repeatedly held that serious psychological harm, in addition
to physical harm and suffering, constitutes irreparable injury. See, e.g., Chalk v.
U.S. Dist. Ct. Cent. Dist. of California, 840 F. 2d 701, 709 (9th Cir. 1988)
(plaintiff’s “emotional stress, depression and reduced sense of well-being”
constituted irreparable harm); Thomas v. Cnty. of Los Angeles, 978 F. 2d 504, 512
(9th Cir. 1992) (“Plaintiffs have also established irreparable harm, based on this
Court’s finding that the deputies’ actions have resulted in irreparable physical and
emotional injuries to plaintiffs and the violation of plaintiffs’ civil rights.”).

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 41

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 42 of 45

44.

Ms. Edmo’s gender dysphoria results in clinically significant distress or
impairment of functioning.

45.

Both Plaintiff’s and Defendants’ experts agree that Ms. Edmo is properly
diagnosed with gender dysphoria and continues to experience serious distress from
this condition.

46.

Ms. Edmo has received hormone treatment and achieved the maximum feminizing
effects years ago.

47.

Other district courts have recognized that the significant emotional pain, suffering,
anxiety, and depression caused by prison officials’ failure to provide adequate
treatment for gender dysphoria constitute irreparable harm warranting a
preliminary injunction. See, e.g., Hicklin v. Precynthe, 2018 WL 806764, at *9
(E.D. Missouri 2018); Norsworthy, 87 F. Supp. 3d at 1192.

48.

Ms. Edmo has twice attempted self-castration resulting in significant pain and
suffering.

49.

The Court is persuaded by Plaintiff’s experts that, without surgery, Ms. Edmo is at
serious risk of life-threatening self-harm.

50.

Thus, Ms. Edmo has satisfied the irreparable harm prong by showing that she will
suffer serious psychological harm and will be at high risk of self-castration and
suicide in the absence of gender confirmation surgery.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 42

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 43 of 45

C. Balance of Equities
51.

“Courts ‘must balance the competing claims of injury and must consider the effect
on each party of the granting or withholding of the requested relief.’” Winter, 555
U.S. at 24 (quoting Amoco Production Co., 480 U.S. 531, 542 (1987)).

52.

The balance of equities tips in a plaintiff’s favor where the plaintiff has established
irreparable harm in the form of unnecessary physical and emotional suffering and
denial of her constitutional rights. See, e. g., Hicklin, 2018 WL 806764, at *13;
Norsworthy, 87 F. Supp. 3d at 1193.

53.

Ms. Edmo has established that Defendants’ refusal to provide her with gender
confirmation surgery causes her ongoing irreparable harm.

54.

Defendants have made no showing that an order requiring them to provide
treatment that accords with the recognized WPATH Standard of Care causes them
injury.

D. The Public Interest
55.

The Court finds that a mandatory preliminary injunction is in the public interest.
“[I]t is always in the public interest to prevent the violation of a party’s
constitutional rights.” See Melendres v. Arpaio, 695 F. 3d 990, 1002 (9th Cir.
2012).

56.

“In addition, ‘the public has a strong interest in the provision of constitutionally
adequate health care to prisoners.’” McNearney v. Wash. Dep’t of Corr., 2012 WL
3545267, at *16 (W.D. Wash. 2012).

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 43

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 44 of 45

57.

Accordingly, a mandatory preliminary injunction should issue because both the
facts and the law clearly favor Ms. Edmo and extreme or very serious damage will
result if it is not issued. See Marlyn Nutraceuticals, 571 F.3d at 879.
III.

58.

FOURTEENTH AMENDMENT AND ACA CLAIMS

Plaintiff has not met her burden for a preliminary injunction on her Fourteenth
Amendment and Affordable Care Act claims at this time.

59.

As explained above, to make this showing for preliminary injunction, the plaintiff
must establish: (1) a likelihood of success on the merits; (2) a likelihood of
irreparable harm to the moving party in the absence of preliminary relief; (3) that
the balance of equities tips in favor of the moving party; and (4) that an injunction
is in the public interest. Winter, 555 U.S. at 22.

60.

While Ms. Edmo may ultimately prevail on her Fourteenth Amendment and
Affordable Care Act claims, she is unable to show that she is entitled to injunctive
relief at this time. Given the Court’s ruling on her Eighth Amendment claim, there
is no likelihood of irreparable harm to Ms. Edmo in the absence of injunctive
relief on these two claims.

61.

Moreover, the balance of equities tips in favor of Defendants because a more
developed record on Defendants’ treatment of transgender inmates is necessary
before making a broader ruling based upon the Fourteenth Amendment or the
Affordable Care Act.

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 44

Case 1:17-cv-00151-BLW Document 149 Filed 12/13/18 Page 45 of 45

62.

Likewise, a more developed record is necessary to assess the public’s interest in
granting such injunctive relief. Id.
ORDER
IT IS ORDERED:
1.

Plaintiff’s Motion for Preliminary Injunction (Dkt. 62) is GRANTED IN

PART. Defendants are ordered to provide Plaintiff with adequate medical care, including
gender confirmation surgery. Defendants shall take all actions reasonably necessary to
provide Ms. Edmo gender confirmation surgery as promptly as possible and no later than
six months from the date of this order. However, given IDOC’s implementation of an
updated gender dysphoria policy on October 5, 2018 that appears to provide Plaintiff’s
requested injunctive relief related to accessing gender-appropriate underwear, clothing,
and commissary items, the Court will not address that relief at this time. This is without
prejudice to the plaintiff’s right to raise the issue in the future, should IDOC revoke the
new policy or if the implementation of the policy results in ongoing violations.
2.

The Court’s Deputy, Jamie Bracke, is directed to set a telephonic status

conference in this case no later than two weeks after this decision issues.

DATED: December 13, 2018
_________________________
B. Lynn Winmill
Chief U.S. District Court Judge

FINDINGS OF FACT, CONCLUSIONS OF LAW, AND ORDER - 45

EXHIBIT B

Case 1:17-cv-00151-BLW Document 175 Filed 03/04/19 Page 1 of 4

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO

ADREE EDMO,

Case No. 1:17-cv-00151-BLW

Plaintiff,

MEMORANDUM DECISION AND
ORDER

v.
IDAHO DEPARTMENT OF
CORRECTION, et al.,
Defendants.

INTRODUCTION
Before the Court is Defendants’ Joint Motion to Stay Order [Dkt. 149] Pending
Appeal. Dkt. 156. For the reasons set forth below, Defendants’ motion is denied.
BACKGROUND
The Court issued its Findings of Fact, Conclusion of Law, and Order in this case
after a three-day evidentiary hearing. Dkt. 149. During that hearing, Ms. Adree Edmo
established that she was entitled to gender confirmation surgery by June 13, 2019. The
Court will not repeat all the factual and legal conclusions that led to its decision, but will
highlight the following portion of the Court’s order:
The risks of not providing gender confirmation surgery to Ms. Edmo include
surgical self-treatment, emotional decompensation, and risk of suicide given her
high degree of suicide ideation. Tr. 80:24:81:8, 264:13-22. If she is not provided
MEMORANDUM DECISION AND ORDER - 1

Case 1:17-cv-00151-BLW Document 175 Filed 03/04/19 Page 2 of 4

with surgery, Ms. Edmo has indicated that she will try self-surgery again to deal
with her extreme episodes of gender dysphoria. Tr. 199:24-200:5. Given that Ms.
Edmo made increasing progress on her first two self-surgery attempts, it is likely
that Ms. Edmo will be successful if she attempts self-surgery again. Tr. 264:1322.
Edmo v. Idaho Dep’t of Correction, No. 1:17-CV-00151-BLW, 2018 WL 6571203, at
*12 (D. Idaho Dec. 13, 2018) (emphasis added).
LEGAL STANDARD
Granting a stay is “an exercise of judicial discretion” that is “dependent upon the
circumstances of the particular case.” Nken v. Holder, 556 U.S. 418, 433, (2009). The
Supreme Court suggested in Hilton v. Braunskill, 481 U.S. 770, 776 (1987) that the trial
court, in exercising its discretion, should consider four factors: “(1) whether the stay
applicant has made a strong showing that he is likely to succeed on the merits; (2)
whether the applicant will be irreparably injured absent a stay; (3) whether issuance of
the stay will substantially injure the other parties interested in the proceeding; and (4)
where the public interest lies.”
The Ninth Circuit has suggested that the Hilton factors should be applied using a
“sliding scale” approach in which a stronger showing of one element may offset a weaker
showing of another. Peck Ormsby Const. Co. v. City of Rigby, No. CIV. 1:10-545 WBS,
2012 WL 914915, at *3 (D. Idaho Mar. 15, 2012). The moving party bears the burden of
showing that the circumstances justify an exercise of the court’s discretion and must
show at least a minimum threshold for each factor. Nken, 556 U.S. at 434. However, the
“first two factors ... are the most critical.” Id.
ANALYSIS
MEMORANDUM DECISION AND ORDER - 2

Case 1:17-cv-00151-BLW Document 175 Filed 03/04/19 Page 3 of 4

Defendants, in seeking a stay, rehash the arguments they presented during the
three-day evidentiary hearing in this case. The Court was unpersuaded by the arguments
then, and remains so now. Applying the Hilton factors to the findings of fact contained in
the Court’s prior decision, Defendants have failed to carry their burden to show that a
stay is appropriate.
While there is no certainty as to how this case will be viewed on appeal, the Court
is firmly convinced that its decision is supported by the facts and law presented during
the hearing. I must, therefore conclude that the Defendants have not made a strong
showing that they are likely to succeed on appeal.
The Court is not persuaded that the Defendants will be irreparably injured absent a
stay. Indeed, it is difficult to see how providing medical treatment to an inmate could
ever constitute an irreparable injury.
By comparison, the Court is convinced that issuing the stay will substantially
injure Ms. Edmo for the reasons identified in that portion of the Court’s decision quoted
above. Indeed, given Edmo’s past actions, time is of the essence.
Finally, I am also persuaded that there is a strong public interest in ensuring that
our prisons are not deliberately indifferent to the serious medical needs of its inmates.
The Court will offer just one more thought: Ms. Edmo’s testimony and that of her
experts conclusively established, in the Court’s opinion, that there is a substantial risk
that Ms. Edmo will make a third attempt to self-castrate if the Defendants continue to
deny her gender confirmation surgery. In short, her medical needs are urgent. The
Constitution requires Defendants to act accordingly.
MEMORANDUM DECISION AND ORDER - 3

Case 1:17-cv-00151-BLW Document 175 Filed 03/04/19 Page 4 of 4

ORDER
IT IS ORDERED:
1. Defendants’ Joint Motion to Stay Order [Dkt. 149] Pending Appeal (Dkt. 156) is
DENIED.

DATED: March 4, 2019
_________________________
B. Lynn Winmill
U.S. District Court Judge

MEMORANDUM DECISION AND ORDER - 4

EXHIBIT C

Case: 19-35017, 03/20/2019, ID: 11236104, DktEntry: 19, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 20 2019
MOLLY C. DWYER, CLERK

ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,
v.
CORIZON, INC.; et al.,

No.

19-35017

U.S. COURT OF APPEALS

D.C. No. 1:17-cv-00151-BLW
District of Idaho,
Boise
ORDER

Defendants-Appellants,
and
IDAHO DEPARTMENT OF
CORRECTIONS; et al.,
Defendants,
UNITED STATES OF AMERICA,
Real-party-in-interest.
ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,
v.
IDAHO DEPARTMENT OF
CORRECTIONS; et al.,
Defendants-Appellants,
and

KAM/MOATT

No.

19-35019

D.C. No. 1:17-cv-00151-BLW

Case: 19-35017, 03/20/2019, ID: 11236104, DktEntry: 19, Page 2 of 2

CORIZON, INC.; et al.,
Defendants,
UNITED STATES OF AMERICA,
Real-party-in-interest.
Before: TALLMAN and MURGUIA, Circuit Judges.
Appellants’ motion (Docket Entry No. 15 in No. 19-35017) to stay the
district court’s December 13, 2018 order pending appeal is granted. See Hilton v.
Braunskill, 481 U.S. 770, 776 (1987).
Appellants’ motion to file volume 18 of the excerpts of record under seal
(Docket Entry No. 14 in No. 19-35017) is granted. See Interim 9th Cir. R. 27-13.
The Clerk shall file volume 18 of the excerpts of record under seal, and shall file
the consolidated opening brief at Docket Entry No. 11 in No. 19-35017 and
volumes 1 through 17 of the excerpts of record publicly. The Clerk shall maintain
the motion at Docket Entry No. 14 in No. 19-35017 under seal.
Appellee’s request to expedite these appeals, contained in Docket Entry No.
17 in No. 19-35017, is granted. The consolidated answering brief is due April 3,
2019. The optional consolidated reply brief is due within 14 days of service of the
answering brief.
The Clerk shall place these cases on the May 2019 oral argument calendar.
See 9th Cir. Gen. Ord. 3.3(g).
KAM/MOATT

2

19-35017

EXHIBIT D

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 1 of 85

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,
v.
CORIZON, INC.; SCOTT ELIASON;
MURRAY YOUNG; CATHERINE
WHINNERY,
Defendants-Appellants,

No. 19-35017
D.C. No.
1:17-cv-00151BLW

and
IDAHO DEPARTMENT OF
CORRECTIONS; AL RAMIREZ, in his
official capacity as warden of Idaho
State Correctional Institution; *
HENRY ATENCIO; JEFF ZMUDA;
HOWARD KEITH YORDY; RICHARD
CRAIG; RONA SIEGERT,
Defendants.
ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,

No. 19-35019

Al Ramirez is substituted in his official capacity for his
predecessor, Howard Keith Yordy, pursuant to Rule 43(c)(2) of the
Federal Rules of Appellate Procedure.
*

(1 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 2 of 85

2

EDMO V. CORIZON
v.

IDAHO DEPARTMENT OF
CORRECTIONS; AL RAMIREZ, in his
official capacity as warden of Idaho
State Correctional Institution; HENRY
ATENCIO; JEFF ZMUDA; HOWARD
KEITH YORDY; RICHARD CRAIG;
RONA SIEGERT,
Defendants-Appellants,

D.C. No.
1:17-cv-00151BLW
OPINION

and
CORIZON, INC.; SCOTT ELIASON;
MURRAY YOUNG; CATHERINE
WHINNERY,
Defendants.
Appeal from the United States District Court
for the District of Idaho
B. Lynn Winmill, Chief District Judge, Presiding
Argued and Submitted May 16, 2019
San Francisco, California
Filed August 23, 2019
Before: M. Margaret McKeown and Ronald M. Gould,
Circuit Judges, and Robert S. Lasnik, ** District Judge.
Per Curiam Opinion
The Honorable Robert S. Lasnik, United States District Judge for
the Western District of Washington, sitting by designation.
**

(2 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 3 of 85

EDMO V. CORIZON

3

SUMMARY ***
Eighth Amendment / Prisoner Rights
The panel affirmed the district court’s entry of a
permanent injunction in favor of Idaho state prisoner Adree
Edmo, but vacated the injunction to the extent it applied to
defendants Corizon, Howard Yordy, Rona Siegert, Dr.
Young, Dr. Craig, and Dr. Whinnery, in their individual
capacities, in Edmo’s action seeking medical treatment for
gender dysphoria.
The district court concluded that Edmo had established
her Eighth Amendment claim. The district court further
concluded that gender confirmation surgery (“GCS”) was
medically necessary for Edmo, and ordered the State to
provide the surgery.
The panel credited the district court’s factual findings as
logical and well-supported, and held that the responsible
prison authorities were deliberately indifferent to Edmo’s
gender dysphoria, in violation of the Eighth Amendment.
The panel held that the record, as construed by the district
court, established that Edmo had a serious medical need, that
the appropriate medical treatment was GCS, and that prison
authorities had not provided that treatment despite full
knowledge of Edmo’s ongoing and extreme suffering and
medical needs. The panel rejected the State’s position that
there was a reasoned disagreement between qualified
medical professionals. The panel emphasized that its

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.
***

(3 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 4 of 85

4

EDMO V. CORIZON

analysis was individual to Edmo, and rested on the record of
this case.
Addressing further aspects of the appeal, the panel
rejected the State’s contention that the district court did not
make the Prison Litigation Reform Act’s requisite “neednarrowness-intrusiveness” findings, causing the injunction
to automatically expire and mooting the appeal. The panel
held that the district court’s order, considered as a whole,
made all the findings required by 18 U.S.C. § 3626(a)(1)(A),
and Ninth Circuit precedent. The panel also held that the
permanent injunction that the district court entered had not
expired, and remained in place, albeit stayed. The panel
accordingly denied the State’s motion to dismiss.
The panel held that the district court did not err in
granting a permanent injunction. Specifically, the panel
held, based on the district court’s factual findings, that Edmo
established her Eighth Amendment claim and that she will
suffer irreparable harm – in the form of ongoing mental
anguish and possible physical harm – if GCS is not provided.
The State did not dispute that Edmo’s gender dysphoria was
a sufficiently serious medical need to trigger the State’s
obligations under the Eighth Amendment. The panel held
that the district court did not err in crediting the testimony of
Edmo’s experts that GCS was medically necessary to treat
Edmo’s gender dysphoria and that the State’s failure to
provide that treatment was medically unacceptable. The
panel further held that the district court did not err in
discrediting the State’s experts because aspects of their
opinions were illogical and unpersuasive. Also, the panel
held that the record demonstrated that Dr. Eliason acted with
deliberate indifference to Edmo’s serious medical needs.
The panel noted that its decision was in tension with the Fifth
Circuit’s decision in Gibson v. Collier, 920 F.3d 212 (5th

(4 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 5 of 85

EDMO V. CORIZON

5

Cir. 2019), and the panel rejected that decision’s categorical
holding that denying GCS cannot, as a matter of law, violate
the Eighth Amendment.
The panel held that the district court did not err in finding
that Edmo would be irreparably harmed absent an
injunction. The panel rejected the State’s contentions as to
why the district court erred in this finding.
The panel next considered the State’s challenges to the
scope of the injunction. The panel held that the injunction
was properly entered against Dr. Eliason because he
personally participated in the deprivation of Edmo’s
constitutional rights. The panel also held that because Edmo
may properly pursue her Eighth Amendment claim for
injunctive relief against Attencio, Zmuda and Ramirez in
their official capacities, they were properly included within
the scope of the district court’s injunction. On remand, the
district court shall amend the injunction to substitute the
current warden as a party for Yordy. The panel vacated the
district court’s injunction to the extent it applied to Yordy,
Siegert, Dr. Young, Dr. Craig, and Dr. Whinnery in their
individual capacities because the evidence in the record was
insufficient to conclude that they were deliberately
indifferent to Edmo’s serious medical needs. The panel
vacated the injunction as to Corizon, and remanded with
instructions to the district court to modify the injunction to
exclude Corizon. Finally, the panel held that the injunctive
relief ordered was not overbroad.
The panel considered the State’s challenges to the
procedure used by the district court. The panel rejected the
State’s contention that the district court erroneously
converted the evidentiary hearing into a final trial on the
merits without giving proper notice. The panel held that the
State did receive notice, and in any event, the State had not

(5 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 6 of 85

6

EDMO V. CORIZON

shown any prejudice. The panel also rejected the State’s
contention that the district court violated defendants’
Seventh Amendment right to a jury trial by converting the
evidentiary hearing into a trial on the merits. The panel held
that the State’s conduct waived its right to a jury trial with
respect to issues common to Edmo’s request for an
injunction ordering GCS and her legal claims.
COUNSEL
Brady J. Hall (argued), Special Deputy Attorney General;
Lawrence G. Wasden, Attorney General; Office of the
Attorney General, Boise, Idaho; Marisa S. Crecelius, Moore
Elia Kraft & Hall LLP, Boise, Idaho; for DefendantsAppellants Idaho Department of Corrections, Henry
Atencio, Jeff Zmuda, Howard Keith Yordy, Richard Craig,
and Rona Siegert.
Dylan A. Eaton (argued), J. Kevin West, and Bryce Jensen,
Parsons Behle & Latimer, Boise, Idaho, for DefendantsAppellants Corizon, Inc.; Scott Eliason; Murray Young; and
Catherine Whinnery.
Lori Rifkin (argued), Hadsell Stormer & Renick LLP,
Emeryville, California; Dan Stormer and Shaleen Shanbhag,
Hadsell Stormer & Renick LLP, Pasadena, California; Craig
Durham and Deborah Ferguson, Ferguson Durham PLLC,
Boise, Idaho; Amy Whelan and Julie Wilensky, National
Center for Lesbian Rights, San Francisco, California; for
Plaintiff-Appellee.
David M. Shapiro, Sheila A. Bedi, and Vanessa del Valle,
Roderick & Solange MacArthur Justice Center, Chicago,
Illinois; Molly E. Whitman, Akin Gump Strauss Hauer &

(6 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 7 of 85

EDMO V. CORIZON

7

Feld LLP, Dallas, Texas; for Amici Curiae Andrea
Armstrong, Sharon Dolovich, Betsy Ginsberg, Michael B.
Mushlin, Alexander A. Reinert, Laura Rovner, and Margo
Schlanger.
Molly Kafka and Richard Alan Eppink, ACLU of Idaho
Foundation, Boise, Idaho; Devon A. Little and Derek
Borchardt, Walden Macht & Haran LLP, New York, New
York; Amy Fettig and Jennifer Wedekind, ACLU National
Prison Project, Washington, D.C.; Gabriel Arkles and Rose
Saxe, ACLU LGBT & HIV Project/ACLU Foundation, New
York, New York; for Amici Curiae Former Corrections
Officials.
Devi M. Rao and Jason T. Perkins, Jenner & Block LLP,
Washington, D.C., for Amici Curiae Medical and Mental
Health Professional Organizations.
Sharif E. Jacob, Ryan K. M. Wong, Kristin E. Hucek, and
Patrick E. Murray, Keker Van Nest & Peters LLP, San
Francisco, California, for Amicus Curiae Jody L. Herman.
Alan E. Schoenfeld, Wilmer Cutler Pickering Hale and Dorr
LLP, New York, New York; Michael Posada, Wilmer Cutler
Pickering Hale and Dorr LLP, Washington, D.C.; Richard
Saenz, Lambda Legal Defense & Education Fund Inc., New
York, New York; A. Chinyere Ezie, Center for
Constitutional Rights, New York, New York; for Amici
Curiae Civil Rights & Non-Profit Organizations.

(7 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 8 of 85

8

EDMO V. CORIZON
OPINION

PER CURIAM:
The Eighth Amendment prohibits “cruel and unusual
punishments.” U.S. Const. amend. VIII. “The Amendment
embodies broad and idealistic concepts of dignity, civilized
standards, humanity, and decency . . . .” Estelle v. Gamble,
429 U.S. 97, 102 (1976) (quotation omitted). Our society
recognizes that prisoners “retain the essence of human
dignity inherent in all persons.” Brown v. Plata, 563 U.S.
493, 510 (2011).
Consistent with the values embodied by the Eighth
Amendment, for more than 40 years the Supreme Court has
held that “deliberate indifference to serious medical needs”
of prisoners constitutes cruel and unusual punishment.
Estelle, 429 U.S. at 106. When prison authorities do not
abide by their Eighth Amendment duty, “the courts have a
responsibility to remedy the resulting . . . violation.” Brown,
563 U.S. at 511. We do so here.
Adree Edmo (formerly Mason Dean Edmo) is a male-tofemale transgender prisoner in the custody of the Idaho
Department of Correction (“IDOC”). Edmo’s sex assigned
at birth (male) differs from her gender identity (female). The
incongruity causes Edmo to experience persistent distress so
severe it limits her ability to function. She has twice
attempted self-castration to remove her male genitalia,
which cause her profound anguish.
Both sides and their medical experts agree: Edmo suffers
from gender dysphoria, a serious medical condition. They
also agree that the appropriate benchmark regarding
treatment for gender dysphoria is the World Professional
Association of Transgender Health Standards of Care for the

(8 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 9 of 85

EDMO V. CORIZON

9

Health of Transsexual, Transgender, and Gender
Nonconforming People (“WPATH Standards of Care”).
And the State 1 does not seriously dispute that in certain
circumstances, gender confirmation surgery (“GCS”) can be
a medically necessary treatment for gender dysphoria. The
parties’ dispute centers around whether GCS is medically
necessary for Edmo—a question we analyze with deference
to the district court’s factual findings.
Following four months of intensive discovery and a
three-day evidentiary hearing, the district court concluded
that GCS is medically necessary for Edmo and ordered the
State to provide the surgery. Its ruling hinged on findings
individual to Edmo’s medical condition. The ruling also
rested on the finding that Edmo’s medical experts testified
persuasively that GCS was medically necessary, whereas
testimony from the State’s medical experts deserved little
weight. In contrast to Edmo’s experts, the State’s witnesses
lacked relevant experience, could not explain their
deviations from generally accepted guidelines, and testified
illogically and inconsistently in important ways.
The district court’s detailed factual findings were amply
supported by its careful review of the extensive evidence and
testimony. Indeed, they are essentially unchallenged. The
appeal boils down to a disagreement about the implications
of the factual findings.
Crediting, as we must, the district court’s logical, wellsupported factual findings, we hold that the responsible
1
In addition to IDOC, Edmo sued Corizon, Inc. (a private for-profit
corporation that provides health care to inmates in IDOC custody) and
various employees of IDOC and Corizon. The defendants briefed the
case jointly, and for ease of reference we refer to them collectively as
“the State.”

(9 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 10 of 85

10

EDMO V. CORIZON

prison authorities have been deliberately indifferent to
Edmo’s gender dysphoria, in violation of the Eighth
Amendment. The record before us, as construed by the
district court, establishes that Edmo has a serious medical
need, that the appropriate medical treatment is GCS, and that
prison authorities have not provided that treatment despite
full knowledge of Edmo’s ongoing and extreme suffering
and medical needs. In so holding, we reject the State’s
portrait of a reasoned disagreement between qualified
medical professionals. We also emphasize that the analysis
here is individual to Edmo and rests on the record in this
case. We do not endeavor to project whether individuals in
other cases will meet the threshold to establish an Eighth
Amendment violation. The district court’s order entering
injunctive relief for Edmo is affirmed, with minor
modifications noted below.
Our opinion proceeds as follows. In Part I, we provide
background on gender dysphoria, the standard of care, and
the evidence considered and factual findings made by the
district court. Part II explains why this appeal complies with
the Prison Litigation Reform Act (“PLRA”) and is not moot.
In Part III, we turn to the gravamen of the appeal: Edmo’s
Eighth Amendment claim and showing of irreparable injury.
Part IV addresses the State’s challenges to the injunction’s
scope and narrows the injunction as to certain defendants.
Part V rejects the State’s objections to the procedure
employed by the district court. We conclude in Part VI.

(10 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 11 of 85

EDMO V. CORIZON

11

I. Background 2
A. Gender Dysphoria and its Treatment
Transgender individuals have a “[g]ender identity”—a
“deeply felt, inherent sense” of their gender—that does not
align with their sex assigned at birth. 3 Am. Psychol. Ass’n,
Guidelines for Psychological Practice with Transgender
and Gender Nonconforming People, 70 Am. Psychologist
832, 834 (2015).
Recent estimates suggest that
approximately 1.4 million transgender adults live in the
United States, or 0.6 percent of the adult population.
Andrew R. Flores et al., The Williams Inst., How Many
Adults Identify as Transgender in the United States?, at
2 (2016), http://williamsinstitute.law.ucla.edu/wp-content/
uploads/How-Many-Adults-Identify-as-Transgender-in-theUnited-States.pdf.
Gender dysphoria 4 is “[d]istress that is caused by a
discrepancy between a person’s gender identity and that
person’s sex assigned at birth (and the associated gender role
and/or primary and secondary sex characteristics).” World
Prof’l Ass’n for Transgender Health, Standards of Care for
the Health of Transsexual, Transgender, and Gender2
The following sections are derived from the district court’s factual
findings and the record on appeal.

At birth, infants are classified as male or female based on visual
observation of their external genitalia. This is a person’s “sex assigned
at birth,” but it may not be the person’s gender identity.
3

Until recently, the medical community commonly referred to
gender dysphoria as “gender identity disorder.” See Kosilek v. Spencer,
774 F.3d 63, 68 n.1 (1st Cir. 2014).
4

(11 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 12 of 85

12

EDMO V. CORIZON

Nonconforming People 2 (7th ed. 2011) (hereinafter
“WPATH SOC”). The Fifth Edition of the American
Psychiatric Association’s Diagnostic and Statistical Manual
of Mental Disorders (“DSM-5”) sets forth two conditions
that must be met for a person to be diagnosed with gender
dysphoria. 5
First, there must be “[a] marked incongruence between
one’s experienced/expressed gender and assigned gender, of
at least 6 months’ duration, as manifested by at least two of
the following”:
(1) “a marked incongruence between one’s
experienced/expressed gender and primary
and/or secondary sex characteristics”;
(2) “a strong desire to be rid of one’s primary
and/or secondary sex characteristics because
of a marked incongruence with one’s
experienced/expressed gender”;
(3) “a strong desire for the primary and/or
secondary sex characteristics of the other
gender”;
(4) “a strong desire to be of the other gender”;
(5) “a strong desire to be treated as the other
gender”; or

Each expert in the case used these criteria to determine whether
Edmo has gender dysphoria.
5

(12 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 13 of 85

EDMO V. CORIZON

13

(6) “a strong conviction that one has the
typical feelings and reactions of the other
gender.”
Am. Psychiatric Ass’n, Diagnostic and Statistical Manual of
Mental Disorders 452 (5th ed. 2013) (hereinafter “DSM-5”).
Second, the person’s condition must be associated with
“clinically significant distress”—i.e., distress that impairs or
severely limits the person’s ability to function in a
meaningful way and has reached a threshold that requires
medical or surgical intervention, or both. Id. at 453, 458.
Not every transgender person has gender dysphoria, and not
every gender dysphoric person has the same medical needs.
Gender dysphoria is a serious but treatable medical
condition. Left untreated, however, it can lead to debilitating
distress, depression, impairment of function, substance use,
self-surgery to alter one’s genitals or secondary sex
characteristics, self-injurious behaviors, and even suicide.
The district court found that the World Professional
Association of Transgender Health Standards of Care for the
Health of Transsexual, Transgender, and Gender
Nonconforming People (“WPATH Standards of Care”) 6
“are the internationally recognized guidelines for the
treatment of individuals with gender dysphoria.” Edmo v.
Idaho Dep’t of Corr., 358 F. Supp. 3d 1103, 1111 (D. Idaho
2018). Most courts agree. See, e.g., De’lonta v. Johnson,
708 F.3d 520, 522–23 (4th Cir. 2013); Keohane v. Jones,
328 F. Supp. 3d 1288, 1294 (N.D. Fla. 2018), appeal filed,
The WPATH Standards of Care were formerly referred to as the
“Harry Benjamin Standards of Care” and were promulgated by WPATH
under its former name, the “Harry Benjamin International Gender
Dysphoria Association.” Kosilek, 774 F.3d at 70 & n.3.
6

(13 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 14 of 85

14

EDMO V. CORIZON

No. 18-14096 (11th Cir. 2018); Norsworthy v. Beard, 87 F.
Supp. 3d 1164, 1170 (N.D. Cal.), appeal dismissed &
remanded, 802 F.3d 1090 (9th Cir. 2015); Soneeya v.
Spencer, 851 F. Supp. 2d 228, 231–32 (D. Mass. 2012). But
see Gibson v. Collier, 920 F.3d 212, 221 (5th Cir. 2019)
(“[T]he WPATH Standards of Care reflect not consensus,
but merely one side in a sharply contested medical debate
over [GCS].”); cf. Kosilek, 774 F.3d at 76–79 (recounting
testimony questioning the WPATH Standards of Care). And
many of the major medical and mental health groups in the
United States—including the American Medical
Association, the American Medical Student Association, the
American Psychiatric Association, the American
Psychological Association, the American Family Practice
Association, the Endocrine Society, the National
Association of Social Workers, the American Academy of
Plastic Surgeons, the American College of Surgeons, Health
Professionals Advancing LGBTQ Equality, the HIV
Medicine Association, the Lesbian, Bisexual, Gay and
Transgender Physician Assistant Caucus, and Mental Health
America—recognize the WPATH Standards of Care as
representing the consensus of the medical and mental health
communities regarding the appropriate treatment for
transgender and gender dysphoric individuals.
Each expert in this case relied on the WPATH Standards
of Care in rendering an opinion. As the State acknowledged
to the district court, the WPATH Standards of Care “provide
the best guidance,” and “are the best standards out there.”
“There are no other competing, evidence-based standards
that are accepted by any nationally or internationally
recognized medical professional groups.” Edmo, 358 F.
Supp. 3d at 1125.

(14 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 15 of 85

EDMO V. CORIZON

15

“[B]ased on the best available science and expert
professional consensus,” the WPATH Standards of Care
provide “flexible clinical guidelines” “to meet the diverse
health care needs of transsexual, transgender, and gender
nonconforming people.” WPATH SOC at 1–2. Treatment
under the WPATH Standards of Care must be
individualized: “[w]hat helps one person alleviate gender
dysphoria might be very different from what helps another
person.” Id. at 5. “Clinical departures from the [WPATH
Standards of Care] may come about because of a patient’s
unique anatomic, social, or psychological situation; an
experienced health professional’s evolving method of
handling a common situation; a research protocol; lack of
resources in various parts of the world; or the need for
specific harm reduction strategies.” Id. at 2.
The WPATH Standards of Care identify the following
evidence-based treatment options for individuals with
gender dysphoria:
(1) “changes in gender expression and role
(which may involve living part time or full
time in another gender role, consistent with
one’s gender identity)”;
(2) “psychotherapy (individual, couple,
family, or group) for purposes such as
exploring gender identity, role, and
expression[,] addressing the negative impact
of gender dysphoria and stigma on mental
health[,]
alleviating
internalized
transphobia[,] enhancing social and peer
support[,] improving body image[,] or
promoting resilience”;

(15 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 16 of 85

16

EDMO V. CORIZON
(3) “hormone therapy to feminize or
masculinize the body”; and
(4) “surgery to change primary and/or
secondary
sex
characteristics
(e.g.,
breasts/chest, external and/or internal
genitalia, facial features, body contouring).”

Id. at 10. The WPATH Standards of Care state that many
individuals “find comfort with their gender identity, role,
and expression without surgery.” Id. at 54. For others,
however, “surgery is essential and medically necessary to
alleviate their gender dysphoria.” Id. That group cannot
achieve “relief from gender dysphoria . . . without
modification of their primary and/or secondary sex
characteristics to establish greater congruence with their
gender identity.” Id. at 55; see also Jae Sevelius & Valerie
Jenness, Challenges and Opportunities for GenderAffirming Healthcare for Transgender Women in Prison,
13 Int’l J. Prisoner Health 32, 36 (2017) (“Negative
outcomes such as genital self-harm, including autocastration
and/or autopenectomy, can arise when gender-affirming
surgeries are delayed or denied.”); George R. Brown &
Everett McDuffie, Health Care Policies Addressing
Transgender Inmates in Prison Systems in the United States,
15 J. Corr. Health Care 280, 287–88 (2009) (describing the
authors’ “firsthand knowledge of completed autocastration
and/or autopenectomy in six facilities in four states”).
The weight of opinion in the medical and mental health
communities agrees that GCS is safe, effective, and
medically necessary in appropriate circumstances. See, e.g.,
U.S. Dep’t of Health & Human Servs., No. A-13-87,
Decision No. 2576, (Dep’t Appeals Bd. May 30, 2014);
Randi Ettner, et al., Principles of Transgender Medicine and

(16 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 17 of 85

EDMO V. CORIZON

17

Surgery 109–11 (2d ed. 2016); Jordan D. Frey, et al., A
Historical Review of Gender-Affirming Medicine: Focus on
Genital Reconstruction Surgery, 14 J. Sexual Med. 991, 991
(2017); Cynthia S. Osborne & Anne A. Lawrence, Male
Prison Inmates With Gender Dysphoria: When Is Sex
Reassignment Surgery Appropriate?, 45 Archives of Sexual
Behav. 1649, 1651–53 (2016); see also De’lonta, 708 F.3d
at 523 (“Pursuant to the Standards of Care, after at least one
year of hormone therapy and living in the patient’s identified
gender role, sex reassignment surgery may be necessary for
some individuals for whom serious symptoms persist. In
these cases, the surgery is not considered experimental or
cosmetic; it is an accepted, effective, medically indicated
treatment for [gender dysphoria].”).
The WPATH criteria for genital reconstruction surgery
in male-to-female patients include the following:
(1) “persistent, well documented gender
dysphoria”;
(2) “capacity to make a fully informed
decision and to consent for treatment”;
(3) “age of majority in a given country”;
(4) “if significant medical or mental health
concerns are present, they must be well
controlled”;
(5) “12 continuous months of hormone
therapy as appropriate to the patient’s gender
goals”; and

(17 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 18 of 85

18

EDMO V. CORIZON
(6) “12 continuous months of living in a
gender role that is congruent with their
gender identity.”

WPATH SOC at 60. The parties’ dispute focuses on
whether Edmo satisfied the fourth and sixth criteria.
With respect to the fourth criterion, the WPATH
Standards of Care provide that coexisting medical or mental
health concerns unrelated to the person’s gender dysphoria
do not necessarily preclude surgery. Id. at 25. But those
concerns need to be managed prior to, or concurrent with,
treatment of a person’s gender dysphoria. Id. Coexisting
medical or mental health issues resulting from a person’s
gender dysphoria are not an impediment under the fourth
criterion. It may be difficult to determine, however, whether
mental or medical health concerns result from the gender
dysphoria or are unrelated.
The WPATH Standards of Care explain that the sixth
criterion—living for 12 months in an identity-congruent
role—is intended to ensure that the person experiences the
full range of “different life experiences and events that may
occur throughout the year.” Id. at 61. During that time, the
patient should present consistently in her desired gender
role. Id.
Scientific studies show that the regret rate for individuals
who undergo GCS is low, in the range of one to two percent.
See, e.g., Osborne & Lawrence, Male Prison Inmates With
Gender Dysphoria, 45 Archives of Sexual Behav. at 1660;
William Byne, et al., Report of the American Psychiatric
Association Task Force on Treatment of Gender Identity
Disorder, 41 Archives of Sexual Behav. 759, 780–81
(2012). The district court found, and the State does not
dispute on appeal, that Edmo does not have any of the risk

(18 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 19 of 85

EDMO V. CORIZON

19

factors that would make her likely to regret GCS. See Edmo,
358 F. Supp. 3d at 1121.
The WPATH Standards of Care apply equally to all
individuals “irrespective of their housing situation” and
explicitly state that health care for transgender individuals
“living in an institutional environment should mirror that
which would be available to them if they were living in a
non-institutional setting within the same community.”
WPATH SOC at 67. The next update to the WPATH
Standards of Care will likewise apply equally to incarcerated
persons. The National Commission on Correctional Health
Care (“NCCHC”), a leading professional organization in
health care delivery in the correctional context, endorses the
WPATH Standards of Care as the accepted standards for the
treatment of transgender prisoners.
In summary, the broad medical consensus in the area of
transgender health care requires providers to individually
diagnose, assess, and treat individuals’ gender dysphoria,
including for those individuals in institutionalized
environments. Treatment can and should include GCS when
medically necessary. Failure to follow an appropriate
treatment plan can expose transgender individuals to a
serious risk of psychological and physical harm. The State
does not dispute these points; it contends that GCS is not
medically necessary for Edmo.
B. Edmo’s Treatment
Edmo is a transgender woman in IDOC custody. Her sex
assigned at birth was male, but she identifies as female. In
her words, “my brain typically operates female, even though
my body hasn’t corresponded with my brain.”

(19 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 20 of 85

20

EDMO V. CORIZON

Edmo has been incarcerated since pleading guilty in
2012 to sexual abuse of a 15-year-old male at a house party.
Edmo was 21 years old at the time of the criminal offense.
Edmo is currently incarcerated at the Idaho State
Correctional Institution (“ISCI”). At the time of the
evidentiary hearing, she was 30 years old and due to be
released from prison in 2021.
Edmo has viewed herself as female since age 5 or 6. She
struggled with her gender identity as a child and teenager,
presenting herself intermittently as female, but around age
20 or 21 she began living fulltime as a woman.
Although she identified as female from an early age,
Edmo first learned the term “gender dysphoria” and the
contours of that diagnosis around the time of her
incarceration. Shortly thereafter, Corizon psychiatrist
Dr. Scott Eliason diagnosed her with “gender identity
disorder,” now referred to as gender dysphoria. Corizon
psychologist Dr. Claudia Lake confirmed that diagnosis.
While incarcerated, Edmo has changed her legal name to
Adree Edmo and the sex on her birth certificate to “female”
to affirm her gender identity. Throughout her incarceration,
Edmo has consistently presented as female, despite receiving
many disciplinary offense reports for doing so. For example,
when able to do so, Edmo has worn her hair in feminine
hairstyles and worn makeup, for which she has received
multiple disciplinary offense reports. 7 Medical providers
have documented Edmo’s feminine presentation since 2012.

Before the evidentiary hearing, Edmo tried to receive access to
female commissary items, such as women’s underwear. Most of her
requests were denied. On the eve of the evidentiary hearing, IDOC
7

(20 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 21 of 85

EDMO V. CORIZON

21

Neither the parties nor their experts dispute that Edmo
suffers from gender dysphoria. That dysphoria causes Edmo
to feel “depressed,” “disgusting,” “tormented,” and
“hopeless.”
To alleviate Edmo’s gender dysphoria, prison officials
have, since 2012, provided hormone therapy. Edmo has
followed and complied with her hormone therapy regimen,
which helps alleviate her gender dysphoria to some extent.
The hormones “clear[] [her] mind” and have resulted in
breast growth, body fat redistribution, and changes in her
skin. Today, Edmo is hormonally confirmed, which means
that she has the hormones and secondary sex characteristics
(characteristics, such as women’s breasts, that appear during
puberty but are not part of the reproductive system) of an
adult female. Edmo has gained the maximum physical
changes associated with hormone treatment.
Hormone therapy has not completely alleviated Edmo’s
gender dysphoria. Edmo continues to experience significant
distress related to gender incongruence. Much of that
distress is caused by her male genitalia. Edmo testified that
she feels “depressed, embarrassed, [and] disgusted” by her
male genitalia and that this is an “everyday reoccurring
thought.” Her medical records confirm her disgust, noting
repeated efforts by Edmo to purchase underwear to keep, in
Edmo’s words, her “disgusting penis” out of sight.
In addition to her gender dysphoria, Edmo suffers from
major depressive disorder with anxiety and drug and alcohol
addiction, although her addiction has been in remission
amended its policy concerning the treatment of gender dysphoric
prisoners to increase transgender women’s access to female commissary
items.

(21 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 22 of 85

22

EDMO V. CORIZON

while incarcerated.
Edmo has taken her prescribed
medications for depression and anxiety. Prison officials
have also provided Edmo mental health treatment to help her
work through her serious underlying mental health issues
and a pre-incarceration history of trauma, abuse, and suicide
attempts. Edmo sees her psychiatrist when scheduled. But
Edmo does not see her treating clinician, Krina Stewart,
because Edmo does not believe Stewart is qualified to treat
her gender dysphoria. Edmo has attended group therapy
sessions inconsistently.
In September 2015, Edmo attempted to castrate herself
for the first time using a disposable razor blade. 8 Before
doing so, she left a note to alert officials that she was not
“trying to commit suicide,” and was instead “only trying to
help [her]self.” Edmo did not complete the castration,
though she continued to report thoughts of self-castration in
the following months.
On April 20, 2016, Dr. Eliason evaluated Edmo for GCS.
At the time, IDOC’s policy concerning the treatment of
gender dysphoric prisoners provided that GCS “will not be
considered for individuals within [IDOC], unless determined
medically necessary by” the treating physician. 9 Corizon’s
policy does not mention GCS.
In his evaluation, Dr. Eliason noted that Edmo reported
she was “doing alright.” He also noted that Edmo had been
on hormone replacement therapy for the last year and a half,
but that she felt she needed more. He reported that Edmo
She had previously reported thoughts of self-castration to
clinicians.
8

IDOC revised its policy shortly before the evidentiary hearing, but
its revised policy contains functionally identical language.
9

(22 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 23 of 85

EDMO V. CORIZON

23

had stated that hormone replacement therapy helped
alleviate her gender dysphoria, but she remained frustrated
with her male anatomy.
Dr. Eliason indicated that Edmo appeared feminine in
demeanor and interaction style. He also indicated that Edmo
had previously attempted to “mutilate her genitalia” because
of the severity of her distress. Dr. Eliason later testified that,
at the time of his evaluation, he felt that Edmo’s gender
dysphoria “had risen to another level,” as evidenced by her
self-castration attempt.
But Dr. Eliason also flagged that he had spoken to prison
staff about Edmo’s behavior and they explained it was
“notable for animated affect and no observed distress.” He
similarly noted that he had personally observed Edmo and
did not see significant dysphoria; instead, she “looked
pleasant and had a good mood.”
As to GCS, Dr. Eliason explained in his notes that while
medical necessity for GCS is “not very well defined and is
constantly shifting,” in his view, GCS would be medically
necessary in at least three situations: (1) “congenital
malformations or ambiguous genitalia,” (2) “severe and
devastating dysphoria that is primarily due to genitals,” or
(3) “some type of medical problem in which endogenous
sexual hormones were causing severe physiological
damage.” Dr. Eliason concluded that Edmo “does not meet
any of those . . . criteria” and, for that reason, GCS is not
medically necessary for her.
Dr. Eliason instead concluded that hormone therapy and
supportive counseling suffice to treat Edmo’s gender
dysphoria for the time being, despite recognizing that Edmo
had attempted self-castration on that regimen. Dr. Eliason

(23 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 24 of 85

24

EDMO V. CORIZON

indicated that he would continue to monitor and assess
Edmo.
Dr. Eliason staffed Edmo’s evaluation with Dr. Jeremy
Stoddart, Dr. Murray Young, and Jeremy Clark, who all
agreed with his assessment. They did not observe Edmo;
rather, they agreed with Dr. Eliason’s recommended
treatment as he presented it to them. The record is sparse on
the qualifications of Dr. Stoddart and Dr. Young, but Clark
has never personally treated anyone with gender dysphoria
and was not qualified under IDOC policy to assess whether
GCS would be appropriate for Edmo.
Dr. Eliason also discussed his evaluation with IDOC’s
Management and Treatment Committee (“MTC”), a multidisciplinary team composed of medical providers, mental
health clinicians, IDOC’s Chief Psychologist, and prison
leadership. The MTC meets periodically to evaluate and
address the unique medical, mental health, and housing
needs of prisoners with gender dysphoria. The committee
“does not make any individual treatment decisions
regarding” treatment for inmates with gender dysphoria.
“Those determinations are made by the individual clinicians
or the medical staff employed by Corizon.” The MTC
agreed with Dr. Eliason’s assessment.
Although not mentioned in his April 20, 2016 notes,
Dr. Eliason testified at the evidentiary hearing that he
considered the WPATH Standards of Care when
determining Edmo’s treatment. Citing those standards,
Dr. Eliason testified that he did not believe GCS was
appropriate for two reasons: (1) because mental health
issues separate from Edmo’s gender dysphoria were not
“fully in adequate control” and (2) because Edmo had not
lived in her identified gender role for 12 months outside of
prison. He explained that Edmo needed to experience

(24 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 25 of 85

EDMO V. CORIZON

25

“living as a woman” around “her real social network – her
family and friends on the outside” so that she could
“determine whether or not she felt like that was her real
identity.”
Edmo was never evaluated for GCS again, but the MTC
considered her gender dysphoria and treatment plan during
later meetings. The MTC continues to believe that GCS is
not medically necessary or appropriate for Edmo.
In December 2016, Edmo tried to castrate herself for the
second time. A medical note from the incident reports that
Edmo said she no longer wanted her testicles. Edmo
reported to medical providers that she was “feeling
angry/frustrated that [she] was not receiving the help desired
related to [her] gender dysphoria. Inmate Edmo’s actions
were reported as a method to stop/cease testosterone
production in Edmo’s body. Edmo denied suicidal ideation
. . . .”
Edmo’s second attempt was more successful than the
first. She was able to open her testicle sac with a razor blade
and remove one testicle. She abandoned her attempt,
however, when there was too much blood to continue. She
then sought medical assistance and was transported to a
hospital, where her testicle was repaired. Edmo was
receiving hormone therapy both times she attempted selfcastration.
Edmo testified that she was disappointed in herself for
coming so close but failing to complete her self-castration
attempts. She also testified that she continues to actively
think about self-castration. To avoid acting on those
thoughts and impulses, Edmo “self-medicat[es]” by cutting
her arms with a razor. She says that the physical pain helps

(25 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 26 of 85

26

EDMO V. CORIZON

to ease the “emotional torment” and mental anguish her
gender dysphoria causes her.
Edmo further testified that she expects GCS to help
alleviate some of her gender dysphoria. In particular, she
testified that she expects GCS to help her avoid having “as
much depression about myself and my physical body. I
don’t think I will be so anxious that people are always
knowing I’m different . . . .” Edmo recognizes, however,
that GCS “is not a fix-all”: “[i]t’s not a magic operation. . . .
I’m still going to have to face the same stressors that we all
face in everyday life . . . .”
C. Initiation of this Action
Edmo filed a pro se complaint on April 6, 2017. She also
moved for a temporary restraining order, a preliminary
injunction, and the appointment of counsel.
Edmo’s motion for appointment of counsel was granted
in part, and counsel for Edmo appeared in June and August
2017. Counsel withdrew Edmo’s pro se motion for
preliminary injunction shortly thereafter.
On September 1, 2017, Edmo filed an amended
complaint asserting claims under 42 U.S.C. § 1983, the
Eighth Amendment, the Fourteenth Amendment, the
Americans with Disabilities Act, the Affordable Care Act,
and for common law negligence. She named as defendants
IDOC, Henry Atencio (Director of IDOC), Jeff Zmuda
(Deputy Director of IDOC), Howard Keith Yordy (former
Warden of ISCI), Dr. Richard Craig (Chief Psychologist at
ISCI), Rona Siegert (Health Services Director at ISCI),
Corizon, Dr. Eliason, Dr. Young, and Dr. Catherine
Whinnery (Corizon employee).

(26 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 27 of 85

EDMO V. CORIZON

27

Through counsel, Edmo filed a renewed motion for a
preliminary injunction on June 1, 2018. Among other relief,
Edmo sought an order requiring the State to provide her with
a referral to a qualified surgeon and access to GCS.
The State moved to extend the time to respond to Edmo’s
motion. After a status conference, the district court set an
evidentiary hearing for October 10, 11, and 12, 2018. The
court permitted the parties to undertake four months of
extensive fact and expert discovery in preparation for the
hearing.
D. The Evidentiary Hearing
At the evidentiary hearing, each side had eight hours to
present its case. The district court heard live testimony from
seven witnesses over three days. It also considered
thousands of pages of exhibits, including Edmo’s medical
records. With the parties’ agreement, the court also
permitted the State to submit declarations in lieu of live
testimony and permitted Edmo to impeach the declarations
with deposition testimony.
At the outset of the hearing, the district court noted that
“[w]e’re here on a hearing for a temporary injunction,” but
it explained that “it’s hard for me to envision this hearing
being anything but a hearing on a final injunction[,] at least
as to” the injunctive relief ordering GCS. The court stated
that it was unsure whether that made a difference, and it
asked the parties to address at some point whether the
hearing was for a preliminary injunction or a permanent
injunction. Notably, the State did not do so.
The district court heard testimony from three percipient
witnesses: Edmo, Dr. Eliason (the Corizon physician), and
Jeremy Clark (an IDOC clinician who did not meet IDOC’s

(27 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 28 of 85

28

EDMO V. CORIZON

criteria to assess Edmo for GCS). Their relevant testimony
is largely recounted above.
It also heard testimony from four expert witnesses, two
each for Edmo and the State. Dr. Randi Ettner, Ph.D. in
psychology, testified first for Edmo. Dr. Ettner is one of the
authors of the current (seventh) version of the WPATH
Standards of Care. She has been a WPATH member since
1993 and chairs its Institutionalized Persons Committee. Dr.
Ettner has authored or edited many peer-reviewed
publications on the treatment of gender dysphoria and
transgender health care more broadly, including the leading
textbook used in medical schools on the subject. She also
trains medical and mental health providers on treating people
with gender dysphoria. Dr. Ettner has been retained as an
expert witness on gender dysphoria and its treatment in
many court cases, and she has been appointed as an
independent expert by one federal court to evaluate an
incarcerated person for GCS.
Dr. Ettner has evaluated, diagnosed, and treated between
2,500 and 3,000 individuals with gender dysphoria. She has
referred about 300 people for GCS. She has also refused to
recommend surgery for some patients who have requested it.
She believes that not everyone who has gender dysphoria
needs GCS. Dr. Ettner also has “[e]xtensive experience”
treating and providing post-operative care for patients who
have undergone GCS.
Dr. Ettner has assessed approximately 30 incarcerated
individuals with gender dysphoria for GCS and other
medical care, but she has not treated incarcerated patients.
She has not worked in a prison and she is not a Certified
Correctional Healthcare Professional.

(28 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 29 of 85

EDMO V. CORIZON

29

Based on her evaluation of Edmo and a review of
Edmo’s medical records, Dr. Ettner diagnosed Edmo with
gender dysphoria, depressive disorder, anxiety, and suicidal
ideation. In Dr. Ettner’s opinion, GCS is medically
necessary for Edmo and should be immediately performed.
She explained that most patients with gender dysphoria do
not require GCS, but Edmo requires it because hormone
therapy has been inadequate for her and Edmo has attempted
to remove her own testicles. Dr. Ettner further explained that
GCS would give Edmo congruent genitalia, eliminating the
severe distress Edmo experiences due to her male anatomy.
Dr. Ettner further opined that Edmo meets the WPATH
criteria for GCS. She explained that Edmo has “persistent
and well-documented long-standing gender dysphoria”;
Edmo “has no thought disorders and no impaired reality
testing”; Edmo is the age of majority in this country;
although Edmo has depression and anxiety, those conditions
do not “impair her ability to undergo surgery” because they
are “as controlled as [they] can be”; Edmo has had six years
of hormone therapy; and Edmo has lived for more than one
year “as a woman to the best of her ability in a male prison.”
More specifically, as to the fourth criterion, Dr. Ettner
opined that Edmo does not have mental health concerns that
would preclude GCS. She explained that Edmo’s depression
and anxiety are as “controlled as can be” because Edmo “is
taking the maximum amount of medication that controls
depression.” Dr. Ettner noted that Edmo has complied with
taking her prescribed medications and that psychotherapy is
not “a precondition for surgery” under the WPATH
Standards of Care. She also flagged that Edmo has the
capacity to comply with her postsurgical treatment, as
evidenced by her compliance with her hormone therapy to
date.

(29 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 30 of 85

30

EDMO V. CORIZON

As to the clinical significance of Edmo’s self-castration
attempts and cutting behaviors, Dr. Ettner explained that
neither behavior indicates that Edmo has inadequately
controlled mental health concerns. Rather, those behaviors
indicate “the need for treatment for gender dysphoria.”
Dr. Ettner explained that
when an individual who is not psychotic or
delusional attempts what we call surgical
self-treatment – because we don’t regard
removal of the testicles or attempted removal
of the testicles as either mutilation or selfharm – we regard it as an intentional attempt
to remove the target organ that produces
testosterone, which, in fact, is the cure for
gender dysphoria.
In Dr. Ettner’s opinion, Edmo’s depression and anxiety “will
be attenuated post surgery.”
Dr. Ettner opined that Edmo satisfies the sixth criterion
because she has lived “as a woman to the best of her ability
in a male prison.” Dr. Ettner based her opinion on Edmo’s
“appearance . . . , her disciplinary records, which indicated
that she had attempted to wear her hair in a feminine
hairstyle and to wear makeup even though that was against
the rules and she was – received some sort of disciplinary
action for that, and her – the way that she was receiving
female undergarments and had developed the stigma of
femininity, the secondary sex characteristics, breast
development, et cetera.”
Dr. Ettner opined that if Edmo does not receive GCS,
“[t]he risks would be, as typical in inadequately treated or
untreated gender dysphoria, either surgical self-treatment,
emotional decompensation, or suicide.”
Dr. Ettner

(30 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 31 of 85

EDMO V. CORIZON

31

explained that Edmo “is at particular risk of suicide given
that she has a high degree of suicide ideation.” If, on the
other hand, Edmo receives surgery, Dr. Ettner opined that
[i]t would eliminate the gender dysphoria. It
would provide a level of wellbeing that she
hasn’t had previously. It would eliminate
80 percent of the testosterone in her body,
necessitating a lower dose of hormones going
forward, which would be particularly helpful
given that she has elevated liver enzymes.
And it would, I believe, eliminate much of the
depression and the attendant symptoms that
she is experiencing.
Dr. Ryan Gorton, M.D., also testified for Edmo.
Dr. Gorton is an emergency medicine physician. He also
works pro bono at a clinic serving uninsured patients or those
with Medicare or Medicaid. Many of those patients have
mental health conditions or have been in prison. He has
published peer-reviewed articles on the treatment of gender
dysphoria, and he has been qualified as an expert witness in
cases involving transgender health care. Dr. Gorton also
provides training on transgender health care issues to many
groups, is a member of WPATH, and serves on WPATH’s
Transgender Medicine and Research Committee and its
Institutionalized Persons Committee.
Dr. Gorton has been the primary care physician for about
400 patients with gender dysphoria. At the time of the
evidentiary hearing, Dr. Gorton was treating approximately
100 patients with gender dysphoria. Dr. Gorton has assessed
patients for gender dysphoria, initiated and monitored
hormone treatment, referred patients for mental health
treatment, and determined the appropriateness of GCS. At

(31 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 32 of 85

32

EDMO V. CORIZON

the time of the evidentiary hearing, Dr. Gorton was
providing follow-up care for about 30 patients who had
vaginoplasty.
Dr. Gorton has no experience treating
transgender inmates and is not a Certified Correctional
Healthcare Professional.
Based on his review of Edmo’s medical records and his
in-person evaluation of Edmo, Dr. Gorton opined that GCS
is medically necessary for Edmo and that she meets the
WPATH criteria for GCS. He explained that Edmo has
“persistent well-documented gender dysphoria,” as shown in
her prison medical records; she has the capacity “to make a
fully informed decision and to consent for treatment”
because “she didn’t seem at all impaired in her decisionmaking capacity”; she is the age of majority; she has
depression and anxiety, “but they are not to a level that
would preclude her getting [GCS]”; she had 12 consecutive
months of hormone therapy; and she has been living in her
“target gender role . . . despite an environment that’s very
hostile to that and some negative consequences that she has
experienced because of that.”
Dr. Gorton further opined that if Edmo “is not provided
surgery, there is a very substantial chance she will try to
attempt self-surgery again. And that’s especially worrisome
given her attempts have been progressive. . . . So I think she
might be successful” on her next attempt. He predicted that
there is little chance that Edmo’s gender dysphoria will
improve without surgery.
Conversely, Dr. Gorton
anticipated that Edmo is unlikely to regret surgery because
“her gender dysphoria is very genital-focused” and regret
rates among GCS patients are very low.
Dr. Gorton also opined that Edmo’s self-castration
attempts demonstrate “that she has severe genital-focused
gender dysphoria and that she is not getting the medically

(32 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 33 of 85

EDMO V. CORIZON

33

necessary treatment to alleviate that.” He elaborated that
Edmo’s depression and anxiety are not driving Edmo’s selfcastration attempts: “there [are] a lot of people with
depression and anxiety who don’t remove their testicles.”
Finally, Dr. Gorton criticized Dr. Eliason’s evaluation of
Edmo. He explained that he disagreed with Dr. Eliason’s
conclusion that Edmo does not need GCS and he also
disagreed with the three “criteria” Dr. Eliason gave for when
GCS would be necessary. Dr. Gorton criticized Dr.
Eliason’s first criterion—that GCS could be needed where
there is “congenital malformation or ambiguous genitalia”—
because that situation “isn’t even germane to transgender
people”; rather, it relates to “people with intersex
conditions.” As to the second criterion—that GCS could be
needed when a patient is suffering from “severe and
devastating gender dysphoria that is primarily due to
genitals”—Dr. Gorton pointed out that the WPATH
Standards of Care for surgery require only “clear and
significant dysphoria.” And even applying Dr. Eliason’s
higher bar, Dr. Gorton explained that Edmo would still
qualify for GCS because she has twice attempted selfcastration,
demonstrating
“severe
genital-focused
dysphoria.” Finally, Dr. Gorton characterized Dr. Eliason’s
third criterion—that GCS could be needed in situations when
“endogenous sexual hormones were causing severe
physiological damage”—as “bizarre.” Dr. Gorton could not
conjure “a clinical circumstance where that would be the
case that your hormones that your body produces are
attacking you . . . . I just don’t understand what [Dr. Eliason]
is talking about there.”
Dr. Keelin Garvey, M.D., testified for the State.
Dr. Garvey is a psychiatrist and Certified Correctional
Healthcare Professional. As the former Chief Psychiatrist of

(33 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 34 of 85

34

EDMO V. CORIZON

the Massachusetts Department of Corrections, Dr. Garvey
chaired the Gender Dysphoria Treatment Committee. She
directly treated a “couple of patients” with gender dysphoria
earlier in her career as Deputy Medical Director, but she has
not done so in recent years. Prior to evaluating Edmo, Dr.
Garvey had never evaluated a patient in person to determine
whether that person needed GCS. Dr. Garvey has never
recommended a patient for GCS, and she has not done
follow-up care with a person who has received GCS.
Based on her evaluation of Edmo and a review of
Edmo’s medical records, Dr. Garvey diagnosed Edmo with
gender dysphoria, major depressive disorder, alcohol use
disorder, stimulant use disorder, and opioid use disorder.
She explained that the latter three are in remission.
Relying on the WPATH Standards of Care, Dr. Garvey
opined that GCS is not medically necessary for Edmo. 10 Dr.
Garvey first explained that Edmo does not meet the first
WPATH Standards of Care criterion—“persistent, well
documented gender dysphoria”—because of a lack of
evidence in pre-incarceration medical records that Edmo
presented as female before her time in prison. Dr. Garvey
acknowledged, however, that Edmo has been presenting as
female since 2012 and that she has been diagnosed with
gender dysphoria since that time.
Dr. Garvey then explained that Edmo does not meet the
fourth criterion—“medical/mental health concerns must be
well controlled”—because Edmo “is actively self-injuring.”
Dr. Garvey elaborated that “self-injury in any form is never
Dr. Garvey testified that she relies on the WPATH Standards of
Care and the NCCHC guidelines adopting those standards when treating
inmates with gender dysphoria.
10

(34 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 35 of 85

EDMO V. CORIZON

35

considered a healthy or productive coping mechanism” and
that she would like to see Edmo “develop further coping
skills that she would be able to use following surgery so that
she is not engaging in self-injury after surgery.” Dr.
Garvey’s concern is that GCS is a “stressful undertaking”
and Edmo lacks “effective coping strategies” to deal with the
stress.
Finally, Dr. Garvey testified that Edmo does not meet the
sixth criterion—“12 continuous months of living in a gender
role that is congruent with gender identity”—because Edmo
has not presented as female outside of prison and “there [are]
challenges to using her time in a men’s prison as this reallife experience because it doesn’t offer her the opportunity
to actually experience all those things she is going to go
through on the outside.”
Dr. Joel Andrade, Ph.D. in social work, also testified for
the State. He is a licensed clinical social worker and is a
Certified Correctional Healthcare Professional with an
emphasis in mental health. Dr. Andrade has over a decade
of experience providing and supervising the provision of
correctional mental health care, including directing and
overseeing the treatment of inmates diagnosed with gender
dysphoria in the custody of the Massachusetts Department
of Corrections in his roles as clinical director, chair of the
Gender Dysphoria Supervision Group, and member of the
Gender Dysphoria Treatment Committee.
As a member of the Gender Dysphoria Treatment
Committee, Dr. Andrade recommended GCS for two
inmates. But the recommendations were contingent on the
inmates living in a women’s prison for approximately
12 months before the surgery.
The Massachusetts
Department of Corrections, like IDOC, houses prisoners

(35 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 36 of 85

36

EDMO V. CORIZON

according to their genitals, so the inmates had not been
moved (nor had their surgery occurred).
Dr. Andrade has never directly treated patients with
gender dysphoria, nor has he been a treating clinician for a
patient who has had GCS. His “experience with gender
dysphoria comes almost exclusively from [his] participation
on the Massachusetts Department of Corrections[’] Gender
Dysphoria Treatment Committee and Supervision Group.”
Dr. Andrade did not qualify, under the IDOC gender
dysphoria policy in effect at the time of his assessment of
Edmo, to assess a person for GCS because he is neither a
psychologist nor a physician.
Based on his evaluation of Edmo and a review of her
medical records, Dr. Andrade diagnosed Edmo with “major
depressive disorder, recurrent, in partial remission,”
“generalized anxiety disorder,” “alcohol use disorder,
severe,” and gender dysphoria. Dr. Andrade also diagnosed
Edmo with borderline personality disorder. The district
court did not credit this diagnosis, however, because no other
person (including the State’s other expert, Dr. Garvey) has
ever diagnosed Edmo with borderline personality disorder
and Dr. Andrade was unable to identify his criteria for this
diagnosis. Edmo, 358 F. Supp. 3d at 1120. The record
amply supports the district court’s finding in this respect.
Dr. Andrade opined that Edmo does not meet the
WPATH criteria for GCS. He explained that, based on his
review of Edmo’s pre-incarceration records, Edmo did not
present as female or discuss her gender dysphoria before
incarceration. Dr. Andrade testified that he would like to see
Edmo live as female outside of a correctional setting before
receiving GCS, or, at the least, live in a women’s prison first.
IDOC, however, houses prisoners according to their
genitals. Dr. Andrade also explained that Edmo needs to

(36 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 37 of 85

EDMO V. CORIZON

37

work through some of her trauma, particularly sexual abuse
that she suffered, and other mental health concerns before
receiving surgery. Dr. Andrade opined that Edmo’s mental
health issues will not be cured by GCS.
At the close of the hearing, the district court reiterated
that it was unsure “how we can hear [Edmo’s request for
GCS] on a preliminary injunction. . . . [I]f I order it, then it’s
done.” The court further suggested that the request for GCS
could “only be resolved in a final hearing” and noted that it
had, in effect, “treated this hearing as [a] final hearing on the
issue.”
The court, as it had done at the outset of the hearing,
asked the parties to address whether the hearing was for a
preliminary or permanent injunction. In response, Edmo
contended that the court could order GCS in a preliminary
injunction. The State did not address the court’s question. It
instead contended that the standard for a mandatory
injunction—which can be preliminary or permanent—
should apply.
E. The District Court’s Decision
The district court rendered its decision on December 13,
2018. After recounting the evidence and making extensive
factual findings, the district court began its analysis by
noting that it was unsure whether the standard for a
preliminary injunction or the standard for a permanent
injunction applied. The court noted that “the nature of the
relief requested in this case, coupled with the extensive
evidence presented by the parties over a 3-day evidentiary
hearing, [may have] effectively converted these proceedings
into a final trial on the merits of the plaintiff’s request for
permanent injunctive relief.” Edmo, 358 F. Supp. 3d at 1122
n.1. It also indicated that “both parties appear to have treated

(37 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 38 of 85

38

EDMO V. CORIZON

the evidentiary hearing” as a final trial on the merits. Id. The
district court explained that the difference was immaterial,
however, because Edmo was entitled to relief under either
standard. Id.
On the merits, the district court concluded that Edmo had
established her Eighth Amendment claim. The district court
first held that Edmo suffers from gender dysphoria, which is
undisputedly “a serious medical condition.” Id. at 1124.
It then concluded that GCS is medically necessary to
treat Edmo’s gender dysphoria. See id. at 1124–26. In a
carefully considered, 45-page opinion, the district court
specifically found “credible the testimony of Plaintiff’s
experts Drs. Ettner and Gorton, who have extensive personal
experience treating individuals with gender dysphoria both
before and after receiving gender confirmation surgery,” and
who opined that GCS was medically necessary. Id. at 1125.
The court rejected the contrary opinions of the State’s
experts because “neither Dr. Garvey nor Dr. Andrade has
any direct experience with patients receiving gender
confirmation surgery or assessing patients for the medical
necessity of gender confirmation surgery,” and neither of the
State’s experts had meaningful “experience treating patients
with gender dysphoria other than assessing them for the
existence of the condition.” Id. The district court also noted
that the State’s “experts appear to misrepresent the WPATH
Standards of Care by concluding that Ms. Edmo, despite
presenting as female since her incarceration in 2012, cannot
satisfy the WPATH criteria because she has not presented as
female outside of the prison setting.” Id. As the district
court noted, “there is no requirement in the WPATH
Standards of Care that a patient live for twelve months in his
or her gender role outside of prison before becoming eligible
for” GCS. Id. (quotation omitted).

(38 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 39 of 85

EDMO V. CORIZON

39

Finally, the district court explained that the State was
deliberately indifferent to Edmo’s gender dysphoria because
it “fail[ed] to provide her with available treatment that is
generally accepted in the field as safe and effective, despite
her actual harm and ongoing risk of future harm including
self-castration attempts, cutting, and suicidal ideation.” Id.
at 1126–27. The district court also stated that the evidence
“suggest[ed] that Ms. Edmo has not been provided gender
confirmation surgery because Corizon and IDOC have a de
facto policy or practice of refusing this treatment for gender
dysphoria to prisoners,” which amounts to deliberate
indifference. Id. at 1127.
After analyzing the merits, the district court concluded
that Edmo satisfied the other prerequisites to injunctive
relief. Id. at 1127–28. The district court found that, given
Edmo’s continuing emotional distress and self-castration
attempts, “Edmo is at serious risk of life-threatening selfharm” if she does not receive GCS. Id. at 1128. The State,
on the other hand, had not shown that it would be harmed if
ordered to provide GCS, so the equities favored Edmo. Id.
Having concluded that Edmo was entitled to an
injunction, the court ordered the State “to provide Plaintiff
with adequate medical care, including gender confirmation
surgery.” Id. at 1129. It ordered the State to “take all actions
reasonably necessary to provide Ms. Edmo gender
confirmation surgery as promptly as possible and no later
than six months from the date of this order.” Id.
F. Appellate Proceedings
The State filed timely notices of appeal on January 9,
2019. It also asked the district court to stay its order pending
appeal. The district court denied the State’s motion on
March 4.

(39 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 40 of 85

40

EDMO V. CORIZON

The State then filed in this court a motion to stay pending
appeal. A motions panel granted that motion. Edmo
subsequently moved to amend the stay to allow her to
undergo a previously scheduled pre-surgery consultation.
The motions panel granted that motion and amended the
stay.
On April 3, the State filed an “urgent motion” to dismiss
this appeal as moot. We indicated on April 5 that our court
would consider that motion with the merits, not on an urgent
basis.
After hearing oral argument on May 16, we ordered a
limited remand to the district court to clarify three points.
Relevant here, we asked the district court to clarify whether
it granted Edmo a permanent injunction in its December 13,
2018 order. The district court clarified that it “granted
permanent injunctive relief.” Edmo v. Idaho Dep’t of Corr.,
No. 1:17-CV-00151-BLW, 2019 WL 2319527, at *2 (D.
Idaho May 31, 2019). We also asked the district court to
clarify whether it had concluded that Edmo had succeeded
on the merits of her Eighth Amendment claim. The district
court responded that it had. Id.
Having received the district court’s response to our
limited remand order, we proceed to the issues on appeal.
The State challenges the district court’s grant of injunctive
relief to Edmo on multiple grounds. It contends that this
appeal is moot because the injunction did not comply with
the PLRA and has, for that reason, automatically expired. It
contends that the decision not to provide GCS to Edmo
reflects a difference of prudent medical opinion and cannot
support an Eighth Amendment claim. It contends that Edmo
will not be irreparably harmed absent an injunction. It
contends that the injunction is overbroad. Finally, it
contends that, to the extent the district court converted the

(40 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 41 of 85

EDMO V. CORIZON

41

evidentiary hearing into a final trial on the merits of Edmo’s
request for GCS, it was provided inadequate notice and the
court violated its right to a jury trial.
II. Mootness
“We first address, as we must, the question of mootness
. . . .” Shell Offshore Inc. v. Greenpeace, Inc., 815 F.3d 623,
628 (9th Cir. 2016). An appeal is moot “[w]hen events
change such that the appellate court can no longer grant ‘any
effectual relief whatever to the prevailing party.’” Id.
(quoting City of Erie v. Pap’s A.M., 529 U.S. 277, 287
(2000)). In those circumstances, we “lack[] jurisdiction and
must dismiss the appeal.” Id.
The State contends that the injunction does not comply
with provisions of the PLRA and, for that reason, has
automatically expired under the terms of the statute.
Relevant here, the PLRA provides that a
court shall not grant or approve any
prospective relief unless the court finds that
such relief is narrowly drawn, extends no
further than necessary to correct the violation
of the Federal right, and is the least intrusive
means necessary to correct the violation of
the Federal right. The court shall give
substantial weight to any adverse impact on
public safety or the operation of a criminal
justice system caused by the relief.
18 U.S.C. § 3626(a)(1)(A). Courts often refer to this
provision as the “need-narrowness-intrusiveness” inquiry.
Graves v. Arpaio, 623 F.3d 1043, 1048 n.1 (9th Cir. 2010)
(per curiam) (quoting Pierce v. County of Orange, 526 F.3d
1190, 1205 (9th Cir. 2008)). The PLRA further provides that

(41 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 42 of 85

42

EDMO V. CORIZON

any “[p]reliminary injunctive relief shall automatically
expire on the date that is 90 days after its entry, unless the
court makes the findings required under subsection (a)(1)
[quoted above] for the entry of prospective relief and makes
the order final before the expiration of the 90-day period.”
18 U.S.C. § 3626(a)(2).
The State contends that the district court did not make
the PLRA’s requisite need-narrowness-intrusiveness
findings or make its order final within 90 days, causing the
injunction to expire under 18 U.S.C. § 3626(a)(2).
Generally, the expiration of an injunction challenged on
appeal moots the appeal. See Kitlutsisti v. ARCO Alaska,
Inc., 782 F.2d 800, 801 (9th Cir. 1986); see also United
States v. Sec’y, Fla. Dep’t of Corr., 778 F.3d 1223, 1228–29
(11th Cir. 2015). The State asserts separate, albeit
overlapping, contentions in their motion to dismiss this
appeal and in their briefing. We reject those arguments.
A. Need-Narrowness-Intrusiveness Findings
The State first contends that the district court did not
make the PLRA’s need-narrowness-intrusiveness findings,
causing the injunction to automatically expire and mooting
this appeal. 11 As we have explained in prior decisions, the
PLRA “has not substantially changed the threshold findings
and standards required to justify an injunction.” Gomez v.
Vernon, 255 F.3d 1118, 1129 (9th Cir. 2001). When
“determining the appropriateness of the relief ordered,”
appellate “courts must do what they have always done”:
We question whether the State’s need-narrowness-intrusiveness
challenge, properly understood, implicates mootness. But because the
result is the same, we accept the State’s framing for purposes of our
analysis.
11

(42 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 43 of 85

EDMO V. CORIZON

43

“consider the order as a whole.”
Armstrong v.
Schwarzenegger, 622 F.3d 1058, 1070 (9th Cir. 2010).
District courts must make need-narrowness-intrusiveness
“findings sufficient to allow a ‘clear understanding’ of the
ruling,” but they need not “make such findings on a
paragraph by paragraph, or even sentence by sentence,
basis.” Id. (quotation omitted). “What is important, and
what the PLRA requires, is a finding that the set of reforms
being ordered—the ‘relief’—corrects the violations of
prisoners’ rights with the minimal impact possible on
defendants’ discretion over their policies and procedures.”
Id.
Here, the district court made the necessary neednarrowness-intrusiveness findings. At the start of its
December 13, 2018 order, the district court explained that
any injunction must meet the PLRA’s need-narrownessintrusiveness requirement. See Edmo, 358 F. Supp. 3d at
1122. The district court then explained how the relief being
ordered, GCS, “corrects the violations of” Edmo’s rights.
See Armstrong, 622 F.3d at 1071. Specifically, the district
court explained that GCS is medically necessary to alleviate
Edmo’s gender dysphoria and that the State’s denial of GCS
amounts to deliberate indifference in violation of the Eighth
Amendment. See Edmo, 358 F. Supp. 3d at 1116–21, 1123–
27, 1129. The district court limited the relief ordered to have
“the minimal impact possible on [the State’s] discretion over
their policies and procedures.” See Armstrong, 622 F.3d at
1071. Specifically, the district court limited the relief to
“actions reasonably necessary” to provide GCS, cautioned
that its conclusion is based on “the unique facts and
circumstances presented” by Edmo, and noted that its
“decision is not intended, and should not be construed, as a
general finding that all inmates suffering from gender
dysphoria are entitled to [GCS].” Edmo, 358 F. Supp. 3d at

(43 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 44 of 85

44

EDMO V. CORIZON

1110, 1129. Finally, the district court rejected the notion that
injunctive relief would have “any adverse impact on public
safety or the operation of a criminal justice system.”
18 U.S.C. § 3626(a)(1)(A). It explained that the State had
“made no showing that an order requiring them to provide”
GCS to Edmo “causes them injury.” Edmo, 358 F. Supp. 3d
at 1128. The district court’s order, considered as a whole,
made all the findings required by 18 U.S.C. § 3626(a)(1)(A)
and our precedent. See Armstrong, 622 F.3d at 1070.
B. Finality
The State next argues that the injunction has
automatically expired under the PLRA because the district
court did not make its order “final” within 90 days of
entering injunctive relief. See 18 U.S.C. § 3626(a)(2); see
also Sec’y, Fla. Dep’t of Corr., 778 F.3d at 1228–29
(holding that an appeal of a preliminary injunction was moot
because the district court “did not issue an order finalizing
its [preliminary-injunction] order,” and “[a]s a result, the
preliminary injunction expired by operation of law” 90 days
later). The PLRA provision cited by the State applies to
preliminary injunctive relief, not permanent injunctive
relief.
See 18 U.S.C. § 3626(a)(2).
The permanent
injunction that the district court entered has not expired. See
Edmo, 358 F. Supp. 3d at 1122 n.1 (concluding that Edmo is
“entitled to relief” under the permanent injunction standard);
see also Edmo, 2019 WL 2319527, at *2 (clarifying on
limited remand that the district court granted Edmo a
permanent injunction). It remains in place, albeit stayed.

(44 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 45 of 85

EDMO V. CORIZON

45

There is a live controversy on appeal. 12 We accordingly
DENY the State’s motion to dismiss and proceed to the
merits of the appeal.
III. Challenges to the District Court’s Grant of
Injunctive Relief
An injunction is an “extraordinary remedy never
awarded as of right.” Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7, 24 (2008). “To be entitled to a permanent
injunction, a plaintiff must demonstrate: (1) actual success
on the merits; (2) that it has suffered an irreparable injury;
(3) that remedies available at law are inadequate; (4) that the
balance of hardships justify a remedy in equity; and (5) that
the public interest would not be disserved by a permanent
injunction.” 13 Indep. Training & Apprenticeship Program

Even construed as a preliminary injunction, the district court’s
December 13, 2018 order is not moot. On May 31, 2019, the district
court, incorporating its previous findings, renewed the injunction. See
Edmo, 2019 WL 2319527, at *2. Because the district court renewed the
injunction, we can consider its merits. See Mayweathers v. Newland,
258 F.3d 930, 935–36 (9th Cir. 2001) (holding that district courts may
renew preliminary injunctions under the PLRA while an appeal is
pending, and considering the merits of the renewed injunction). And we
have jurisdiction under 28 U.S.C. § 1292(a)(1) regardless of whether the
district court’s order is considered a preliminary or permanent
injunction. See Hendricks v. Bank of Am., N.A., 408 F.3d 1127, 1131
(9th Cir. 2005) (preliminary injunction); TransWorld Airlines, Inc. v.
Am. Coupon Exch., Inc., 913 F.2d 676, 680–81 (9th Cir. 1990)
(permanent injunction where the “district court retained jurisdiction to
determine damages” and to adjudicate a separate claim).
12

We agree with the State that the injunction is mandatory, as
opposed to prohibitory, because it requires the State to act. Based on that
distinction, the State argues that Edmo must satisfy a higher burden of
13

(45 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 46 of 85

46

EDMO V. CORIZON

v. Cal. Dep’t of Indus. Relations, 730 F.3d 1024, 1032 (9th
Cir. 2013) (citing eBay Inc. v. MercExch., L.L.C., 547 U.S.
388, 391 (2006)).
We review for abuse of discretion the district court’s
decision to grant a permanent injunction. Ariz. Dream Act
Coal. v. Brewer, 855 F.3d 957, 965 (9th Cir. 2017). We
proof to be entitled to injunctive relief, and that the district court failed
to hold Edmo to that burden. On that point, we disagree.
The State errs by relying on cases that concern mandatory
preliminary injunctions. Because mandatory preliminary injunctions go
“well beyond simply maintaining the status quo [p]endente lite,” they are
“particularly disfavored” and “are not issued in doubtful cases.” Marlyn
Nutraceuticals, Inc. v. Mucos Pharma GmbH & Co., 571 F.3d 873, 879
(9th Cir. 2009) (alteration in original) (quoting Anderson v. United
States, 612 F.2d 1112, 1114–15 (9th Cir. 1980)). The calculus is
different in the context of permanent injunctions. A plaintiff must show
actual success on the merits, see Amoco Prod. Co. v. Village of Gambell,
480 U.S. 531, 546 n.12 (1987), so there is no concern that a mandatory
permanent injunction will upset the status quo only for a later trial on the
merits to show that the plaintiff was not entitled to equitable relief. As a
result, a plaintiff need not show that “extreme or very serious damage
will result,” as is required for mandatory preliminary injunctions.
As we have explained, the district court granted Edmo injunctive
relief under both the preliminary and permanent injunction standards.
See Edmo, 358 F. Supp. 3d at 1122 n.1; see also Edmo, 2019 WL
2319527, at *2. Because the standard for granting permanent injunctive
relief is higher (in that it requires actual success on the merits) and the
State contends in its opening brief that we should review the injunction
as a permanent injunction, we consider whether the district court erred
in granting Edmo permanent injunctive relief. But we would also affirm
under the mandatory preliminary injunction standard, because the district
court correctly applied the proper standard for mandatory preliminary
injunctive relief, and not the lower standard for prohibitory preliminary
injunctions. See Edmo, 358 F. Supp. 3d at 1122, 1128.

(46 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 47 of 85

EDMO V. CORIZON

47

review “any determination underlying the grant of an
injunction by the standard that applies to that
determination.” Ting v. AT&T, 319 F.3d 1126, 1134–35 (9th
Cir. 2003). Accordingly, the district court’s factual findings
on Edmo’s Eighth Amendment claim are reviewed for clear
error. See Graves, 623 F.3d at 1048. Clear error exists if the
finding is “illogical, implausible, or without support in
inferences that may be drawn from the facts in the record.”
La Quinta Worldwide LLC v. Q.R.T.M., S.A. de C.V.,
762 F.3d 867, 879 (9th Cir. 2014) (quoting Herb Reed
Enters., LLC v. Florida Entm’t Mgmt., Inc., 736 F.3d 1239,
1247 (9th Cir. 2013)). We review de novo the district court’s
“conclusion that the facts . . . demonstrate an Eighth
Amendment violation.” Hallett v. Morgan, 296 F.3d 732,
744 (9th Cir. 2002).
The State contends that the district court erred in
granting an injunction because (1) Edmo’s Eighth
Amendment claim fails and (2) Edmo has not shown that she
will suffer irreparable injury in the absence of an
injunction. 14 We disagree. We hold, based on the district
court’s factual findings, that Edmo established her Eighth
Amendment claim and that she will suffer irreparable
harm—in the form of ongoing mental anguish and possible
physical harm—if GCS is not provided.
A. The Merits of Edmo’s Eighth Amendment Claim
“[D]eliberate indifference to serious medical needs of
prisoners” violates the Eighth Amendment.
Estelle,
429 U.S. at 104. Because “society takes from prisoners the
means to provide for their own needs,” Brown, 563 U.S.
Because the State does not contest the other injunction factors, we
do not address them.
14

(47 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 48 of 85

48

EDMO V. CORIZON

at 510, the government has an “obligation to provide medical
care for those whom it is punishing by incarceration,”
Estelle, 429 U.S. at 103.
To establish a claim of inadequate medical care, a
prisoner must first “show a ‘serious medical need’ by
demonstrating that ‘failure to treat a prisoner’s condition
could result in further significant injury or the ‘unnecessary
and wanton infliction of pain.’” Jett v. Penner, 439 F.3d
1091, 1096 (9th Cir. 2006) (quoting McGuckin v. Smith,
974 F.2d 1050, 1059 (9th Cir. 1991), overruled on other
grounds by WMX Techs., Inc. v. Miller, 104 F.3d 1133 (9th
Cir. 1997) (en banc)). Serious medical needs can relate to
“physical, dental and mental health.” Hoptowit v. Ray,
682 F.2d 1237, 1253 (9th Cir. 1982), abrogated on other
grounds by Sandin v. Conner, 515 U.S. 472 (1995).
The State does not dispute that Edmo’s gender dysphoria
is a sufficiently serious medical need to trigger the State’s
obligations under the Eighth Amendment. Nor could it.
Gender dysphoria is a “serious . . . medical condition” that
causes “clinically significant distress”—distress that impairs
or severely limits an individual’s ability to function in a
meaningful way. DSM-5 at 453, 458. As Edmo testified,
her gender dysphoria causes her to feel “depressed,”
“disgusting,” “tormented,” and “hopeless,” and it has caused
past efforts and active thoughts of self-castration. As this
and many other courts have recognized, Edmo’s gender
dysphoria is a sufficiently serious medical need to implicate
the Eighth Amendment. See Rosati v. Igbinoso, 791 F.3d
1037, 1039–40 (9th Cir. 2015); Kosilek, 774 F.3d at 86;
De’lonta, 708 F.3d at 525; Battista v. Clarke, 645 F.3d 449,
452 (1st Cir. 2011); Allard v. Gomez, 9 F. App’x 793, 794
(9th Cir. 2001); White v. Farrier, 849 F.2d 322, 325 (8th Cir.
1988); Meriwether v. Faulkner, 821 F.2d 408, 412 (7th Cir.

(48 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 49 of 85

EDMO V. CORIZON

49

1987) (and cases cited therein); Norsworthy, 87 F. Supp. 3d
at 1187; Konitzer v. Frank, 711 F. Supp. 2d 874, 905 (E.D.
Wis. 2010).
If, as here, a prisoner establishes a sufficiently serious
medical need, that prisoner must then “show the [official’s]
response to the need was deliberately indifferent.” Jett,
439 F.3d at 1096. An inadvertent or negligent failure to
provide adequate medical care is insufficient to establish a
claim under the Eighth Amendment. Estelle, 429 U.S.
at 105–06; see also Farmer v. Brennan, 511 U.S. 825, 835
(1994) (“ordinary lack of due care” is insufficient to
establish an Eighth Amendment claim). In other words,
“[m]edical malpractice does not become a constitutional
violation merely because the victim is a prisoner.” Estelle,
429 U.S. at 106. To “show deliberate indifference, the
plaintiff must show that the course of treatment the [official]
chose was medically unacceptable under the circumstances
and that the [official] chose this course in conscious
disregard of an excessive risk to the plaintiff’s health.”
Hamby v. Hammond, 821 F.3d 1085, 1092 (9th Cir. 2016)
(quoting Snow v. McDaniel, 681 F.3d 978, 988 (9th Cir.
2012), overruled in part on other grounds by Peralta v.
Dillard, 744 F.3d 1076 (9th Cir. 2014) (en banc)).
1. The Medical Necessity of GCS for Edmo
The crux of the State’s appeal is that it provided adequate
and medically acceptable care to Edmo.
Accepted standards of care and practice within the
medical community are highly relevant in determining what
care is medically acceptable and unacceptable. See Allard v.
Baldwin, 779 F.3d 768, 772 (8th Cir. 2015); Henderson v.
Ghosh, 755 F.3d 559, 566 (7th Cir. 2014) (per curiam).
Typically, “[a] difference of opinion between a physician

(49 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 50 of 85

50

EDMO V. CORIZON

and the prisoner—or between medical professionals—
concerning what medical care is appropriate does not
amount to deliberate indifference.” Snow, 681 F.3d at 987;
see also Gibson, 920 F.3d at 220. But that is true only if the
dueling opinions are medically acceptable under the
circumstances. See Toguchi v. Chung, 391 F.3d 1051, 1058
(9th Cir. 2004) (a mere “difference of medical opinion . . .
[is] insufficient, as a matter of law, to establish deliberate
indifference,” but not if the “chosen course of treatment ‘was
medically unacceptable under the circumstances’”
(alterations in original) (quoting Jackson v. McIntosh,
90 F.3d 330, 332 (9th Cir. 1996))).
“In deciding whether there has been deliberate
indifference to an inmate’s serious medical needs, we need
not defer to the judgment of prison doctors or
administrators.” Hunt v. Dental Dep’t, 865 F.2d 198, 200
(9th Cir. 1989). Nor does it suffice for “correctional
administrators wishing to avoid treatment . . . simply to find
a single practitioner willing to attest that some well-accepted
treatment is not necessary.” Kosilek, 774 F.3d at 90 n.12. In
the final analysis under the Eighth Amendment, we must
determine, considering the record, the judgments of prison
medical officials, and the views of prudent professionals in
the field, whether the treatment decision of responsible
prison authorities was medically acceptable.
Reviewing the record and the district court’s extensive
factual findings, we conclude that Edmo has established that
the “course of treatment” chosen to alleviate her gender
dysphoria “was medically unacceptable under the
circumstances.” Hamby, 821 F.3d at 1092 (quoting Snow,
681 F.3d at 988). This conclusion derives from the district
court’s factual findings, which are not “illogical,
implausible, or without support in inferences that may be

(50 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 51 of 85

EDMO V. CORIZON

51

drawn from the facts in the record.” La Quinta Worldwide
LLC, 762 F.3d at 879 (quotation omitted).
In particular, and as we will explain, this is not a case of
dueling experts, as the State paints it. The district court
permissibly credited the opinions of Edmo’s experts that
GCS is medically necessary to treat Edmo’s gender
dysphoria and that the State’s failure to provide that
treatment is medically unacceptable. Edmo’s experts are
well-qualified to render such opinions, and they logically
and persuasively explained the necessity of GCS and applied
the WPATH Standards of Care—the undisputed starting
point in determining the appropriate treatment for gender
dysphoric individuals. On the other side of the coin, the
district court permissibly discredited the contrary opinions
of the State’s treating physician and medical experts. Those
individuals lacked expertise and incredibly applied (or did
not apply, in the case of the State’s treating physician) the
WPATH Standards of Care. In other words, the district court
did not clearly err in making its credibility determinations,
so it is not our role to reevaluate them. The credited
testimony establishes that GCS is medically necessary.
a. Expert Testimony
Turning first to the expert testimony offered, the district
court credited the testimony of Edmo’s experts that GCS is
medically necessary to treat Edmo’s gender dysphoria and
that the State’s failure to provide that treatment is medically
unacceptable. See Edmo, 358 F. Supp. 3d at 1120–21, 1125.
Dr. Ettner and Dr. Gorton opined that GCS is medically
necessary because Edmo’s current treatment has been
inadequate, as evidenced by her self-castration attempts.
They also opined that if Edmo does not receive GCS, there
is little chance that her gender dysphoria will improve and
she is at risk of committing self-surgery again, suicide, and

(51 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 52 of 85

52

EDMO V. CORIZON

further emotional decompensation. On the other hand,
providing GCS to Edmo would, in the opinions of Dr. Ettner
and Dr. Gorton, align Edmo’s genitalia with her gender
identity, thereby eliminating the severe distress Edmo
experiences from her male genitalia.
In sharp contrast, the district court gave “virtually no
weight” to the opinions of the State’s experts. Edmo, 358 F.
Supp. 3d at 1126. Dr. Garvey and Dr. Andrade, who
purported to rely on the WPATH Standards of Care, opined
that GCS is not medically necessary for Edmo.
The district court did not err in crediting the testimony of
Edmo’s experts and discounting the testimony of the State’s
experts. Dr. Ettner and Dr. Gorton are well-qualified to
opine on the medical necessity of GCS. Both have
substantial experience treating individuals with gender
dysphoria. Dr. Ettner has evaluated, diagnosed, and treated
between 2,500 and 3,000 individuals with gender dysphoria,
while Dr. Gorton has been the primary care physician for
approximately 400 patients with gender dysphoria. Both
have substantial experience evaluating whether GCS is
medically necessary for patients. Dr. Ettner has evaluated
hundreds of people for GCS, referring approximately 300
while refusing others, and Dr. Gorton routinely determines
the appropriateness of GCS for patients. They also have
experience providing follow-up care for patients who have
undergone GCS. And both have published peer-reviewed
articles concerning the treatment of gender dysphoria.
The State’s experts, by contrast, have substantial
experience providing health care in institutional settings, but
lack meaningful experience directly treating people with
gender dysphoria. Dr. Garvey directly treated a “couple of
patients” with gender dysphoria early in her career, while
Dr. Andrade has never provided direct treatment for patients

(52 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 53 of 85

EDMO V. CORIZON

53

with gender dysphoria. Moreover, prior to evaluating Edmo,
neither had ever evaluated someone in person to determine
the medical necessity of GCS. Relatedly, Dr. Garvey and
Dr. Andrade have never provided follow-up care for a person
who has received GCS. Indeed, Dr. Andrade did not even
qualify under IDOC policy to assess a person for GCS. And
neither Dr. Garvey nor Dr. Andrade has published a peerreviewed article concerning the treatment of gender
dysphoria.
Neither Dr. Ettner nor Dr. Gorton have treated prisoners
with gender dysphoria, nor are they Certified Correctional
Healthcare Professionals. But both serve on WPATH’s
Institutionalized Persons Committee, which “looks at the
care and the assessment of individuals who are incarcerated
and develops standards for treatment” of such individuals.
They are thus familiar with medical treatment in prison
settings. Moreover, Dr. Ettner has assessed approximately
30 incarcerated persons with gender dysphoria for GCS and
other medical care.
More to the point, the more relevant experience for
determining the medical necessity of GCS is having treated
individuals with gender dysphoria, having evaluated
individuals for GCS, and having treated them postoperatively. Such experience lends itself to fundamental
knowledge of whether GCS is necessary and the potential
risks of providing or foregoing the surgery. Edmo’s experts
have the requisite experience; the State’s experts do not. For
that reason alone, the district court did not clearly err in
crediting the opinions of Edmo’s experts over those of the
State. 15 See Caro v. Woodford, 280 F.3d 1247, 1253 (9th
The State contends that neither Dr. Ettner nor Dr. Gorton was
qualified to offer expert opinions as to the appropriate medical care for
15

(53 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 54 of 85

54

EDMO V. CORIZON

Cir. 2002) (explaining that we “must afford the District
Court considerable deference in its determination that the
witnesses were qualified to draw [their] conclusions”).
Independent of the experts’ qualifications, the district
court did not err in crediting the opinions of Edmo’s experts
over those of the State because aspects of Dr. Garvey’s and
Dr. Andrade’s opinions ran contrary to the established
standards of care in the area of transgender health care—the
WPATH Standards of Care—which they purported to
apply. 16 See Edmo, 358 F. Supp. 3d at 1125.
Edmo because neither is a psychiatrist. So far as we can discern, the
argument is that because a psychiatrist (Dr. Eliason) evaluated Edmo for
GCS, only other psychiatrists are qualified to opine as to the medical
necessity of GCS and to contradict his assessment. See Oral Arg.
at 10:00–10:30. We reject that contention. Edmo’s experts, as
explained, have significant experience evaluating patients for GCS—
precisely what Dr. Eliason did. On the basis of their medical experience
treating persons with gender dysphoria, they are well-qualified to render
an opinion on the medical necessity of GCS and whether failure to
provide the surgery is medically acceptable. See Fed. R. Evid. 702.
The State contends that the district court erred in requiring strict
adherence to the flexible WPATH Standards of Care and in concluding
that any deviation from those standards is medically unacceptable. But
the district court correctly recognized that the WPATH Standards of
Care are flexible, see Edmo, 358 F. Supp. 3d at 1111, and it appropriately
used them as a starting point to gauge the credibility of each expert’s
testimony, see id. at 1125–26. Tellingly, each expert for Edmo and the
State likewise used the WPATH Standards of Care as a starting point.
As the district court recognized: “There are no other competing,
evidence-based standards that are accepted by any nationally or
internationally recognized medical professional groups.” Id. at 1125.
And as the State acknowledged at the evidentiary hearing, the “WPATH
standards of care in the seventh edition do provide the best guidance”
and “are the best standards out there.” For these reasons, the WPATH
Standards of Care establish a useful starting point for analyzing the
16

(54 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 55 of 85

EDMO V. CORIZON

55

For example, both Dr. Garvey and Dr. Andrade
expressed the view that Edmo does not meet the sixth
WPATH criterion, “12 continuous months of living in a
gender role that is congruent with gender identity.” WPATH
SOC at 60. They pointed out that Edmo has not presented
as female outside of prison and urged that she needs real-life
experiences in the community before undergoing GCS.
These opinions run head-on into the WPATH Standards
of Care. The WPATH standards, which the NCCHC
endorses as the accepted standards for the treatment of
transgender inmates, apply
in their entirety . . . to all transsexual,
transgender, and gender nonconforming
people, irrespective of their housing
situation. People should not be discriminated
against in their access to appropriate health
care based on where they live, including
institutional environments such as prisons
....
Health care for transsexual,
transgender, and gender nonconforming
people living in an institutional environment
should mirror that which would be available
to them if they were living in a noninstitutional setting within the same
community.

credibility and weight to be given to each expert’s opinion and whether
that opinion was consistent with established standards of care. The State
does not contest the district court’s finding that the WPATH Standards
of Care are the “internationally recognized guidelines for the treatment
of individuals with gender dysphoria.” Id. at 1111. They are the gold
standard on this issue.

(55 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 56 of 85

56

EDMO V. CORIZON
All elements of assessment and treatment as
described in the [Standards of Care] can be
provided to people living in institutions.
Access to these medically necessary
treatments should not be denied on the basis
of
institutionalization
or
housing
arrangements.

WPATH SOC at 67. Dr. Garvey and Dr. Andrade’s view—
that GCS cannot be medically indicated for transgender
inmates who did not present in a gender-congruent manner
before incarceration—contradicts these accepted standards.
Dr. Garvey and Dr. Andrade would deny GCS to a class of
people because of their “institutionalization,” which the
WPATH Standards of Care explicitly disavow. They
provide no persuasive explanation for their deviation. 17 And
nothing in the WPATH Standards of Care or the law
supports excluding an entire class of gender dysphoric
individuals from eligibility for GCS.
Both Dr. Garvey and Dr. Andrade also relied on Edmo’s
failure to attend psychotherapy sessions as an indication that
her mental health concerns are not well controlled. But
psychotherapy is not a precondition for surgery under the
WPATH Standards of Care. WPATH SOC at 28–29.
We acknowledge that the WPATH Standards of Care are
flexible, and a simple deviation from those standards does
not alone establish an Eighth Amendment claim. But the
17
In concluding that Edmo does not meet the sixth WPATH
criterion, Dr. Garvey expressed concern that there is a lack of evidence
regarding GCS in prison settings. That rationale acts as self-fulfilling
prophecy. If prisons and prison officials deny GCS to prisoners because
of a lack of data, the data will never be generated, and the cycle will
continue.

(56 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 57 of 85

EDMO V. CORIZON

57

State’s experts purported to be applying those standards and
yet did so in a way that directly contradicted them. These
unsupported and unexplained deviations offer a further
reason why the district court did not clearly err in
discounting the testimony of the State’s experts. See Caro,
280 F.3d at 1253.
Finally, the district court did not err in discrediting the
State’s experts because aspects of their opinions were
illogical and unpersuasive. For example, Dr. Garvey and
Dr. Andrade expressed the view that Edmo does not meet the
first WPATH criterion—“persistent, well documented
gender dysphoria,” WPATH SOC at 60—because of a lack
of evidence from pre-incarceration records of Edmo
presenting as female. But both experts acknowledged that
Edmo has been diagnosed with and treated for gender
dysphoria since 2012—i.e., for six years as of the evidentiary
hearing. Neither Dr. Garvey nor Dr. Andrade questioned
Edmo’s diagnosis, and both agree that she currently suffers
gender dysphoria. There can be no doubt that Edmo has
“persistent, well documented gender dysphoria,” so their
opinion is inexplicable.
Dr. Garvey’s and Dr. Andrade’s opinions on this point
also ignore that individuals with gender dysphoria do not
always experience symptoms early in life or throughout their
life, or do not identify them as such. As Dr. Ettner testified,
“gender dysphoria intensifies with age.” And as with
treatment for any other medical condition, treatment for
gender dysphoria must be based on a patient’s current
situation.
The opinions of Edmo’s experts are notably devoid of
these flaws. Dr. Ettner and Dr. Gorton cogently and
persuasively explained why GCS is medically necessary for
Edmo and why Edmo meets the WPATH criteria for GCS.

(57 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 58 of 85

58

EDMO V. CORIZON

For example, consistent with the WPATH Standards of
Care, Dr. Ettner explained that Edmo has lived for
“12 continuous months . . . in a gender role that is congruent
with gender identity” (the sixth WPATH criterion) because
she has lived “as a woman to the best of her ability in a male
prison.” In support of her opinion, Dr. Ettner cited Edmo’s
“appearance . . . , her disciplinary records, which indicated
that she had attempted to wear her hair in a feminine
hairstyle and to wear makeup even though that was against
the rules and she was – received some sort of disciplinary
action for that, and her – the way that she was receiving
female undergarments and had developed the stigma of
femininity, the secondary sex characteristics, breast
development, et cetera.” Dr. Gorton similarly explained that
Edmo satisfies the sixth WPATH criterion because she has
lived for years in her “target gender role . . . despite an
environment that’s very hostile to that and some negative
consequences that she has experienced because of that.”
Moreover, both Dr. Ettner and Dr. Gorton offered
reasoned explanations tying Edmo’s self-castration attempts
to her severe gender dysphoria. Dr. Ettner explained that
doctors regard “surgical self-treatment . . . as an intentional
attempt to remove the target organ that produces
testosterone, which, in fact, is the cure for gender
dysphoria.” As Dr. Gorton elaborated, Edmo’s selfcastration attempts demonstrate deficient treatment for
“severe genital-focused gender dysphoria.” He rejected the
notion that Edmo’s depression and anxiety drove her selfcastration attempts: “there [are] a lot of people with
depression and anxiety who don’t remove their testicles.”
In light of the experts’ backgrounds and experience, and
the reasonableness, consistency, and persuasiveness of their
opinions, the district court did not err in crediting the

(58 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 59 of 85

EDMO V. CORIZON

59

opinions of Edmo’s experts and giving little weight to those
of the State’s experts. The district court carefully examined
the voluminous record, extensive testimony, and conflicting
expert opinions in this case and set forth clear reasons,
supported by the record, for relying on the testimony of
Edmo’s experts. See La Quinta Worldwide, 762 F.3d at 879
(a factual finding is clear error if it is “illogical, implausible,
or without support in inferences that may be drawn from the
facts in the record”); Caro, 280 F.3d at 1253; Beech Aircraft
Corp. v. United States, 51 F.3d 834, 838 (9th Cir. 1995) (per
curiam). The credited expert testimony established that GCS
is medically necessary to alleviate Edmo’s gender dysphoria.
b. Dr. Eliason’s Assessment
Turning from the expert testimony offered, the State
contends that Edmo’s experts, at most, created a dispute of
professional judgment with Edmo’s treating psychiatrist, Dr.
Eliason, who it urges reasonably concluded that GCS is
inappropriate for Edmo. If that is the case, the argument
goes, then Edmo’s Eighth Amendment claim fails because
the dispute is merely a “difference of opinion . . . between
medical professionals” about “what medical care is
appropriate.” Snow, 681 F.3d at 987. The problem for the
State is that Dr. Eliason’s decision “was medically
unacceptable under the circumstances.” Toguchi, 391 F.3d
at 1058 (quoting Jackson, 90 F.3d at 332).
In particular, as the district court found, Dr. Eliason did
not follow accepted standards of care in the area of
transgender health care. See Edmo, 358 F. Supp. 3d at 1126.
Dr. Eliason explained in his notes that, in his view, GCS is
medically necessary in three situations: “congenital
malformation or ambiguous genitalia,” “severe and
devastating dysphoria that is primarily due to genitals,” or
“some type of medical problem in which endogenous sexual

(59 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 60 of 85

60

EDMO V. CORIZON

hormones were causing severe physiological damage.” The
conclusion of his notes—“[t]his inmate does not meet any of
those [three] criteria”—suggests that he views those as the
only three scenarios in which GCS would be medically
necessary, an impression he did not dispel during his
testimony. Those “criteria” (Dr. Eliason’s term), however,
bear little resemblance to the widely accepted, evidencebased criteria set out in the WPATH’s Standards of Care. As
Dr. Eliason acknowledged, the NCCHC endorses the
WPATH Standards of Care as the accepted standards for the
treatment of transgender prisoners. And as the district court
found and the State does not contest, “[t]here are no other
competing, evidence-based standards that are accepted by
any nationally or internationally recognized medical
professional groups.” Id. at 1125. Dr. Eliason did not follow
these standards in rendering his decision.
The State challenges the district court’s finding that
Dr. Eliason “did not apply the WPATH Criteria,” id. at 1126,
on two grounds. First, citing Dr. Eliason’s testimony at the
evidentiary hearing, it urges that Dr. Eliason concluded that
GCS was not medically necessary for Edmo because Edmo’s
mental health issues were not well controlled (the fourth
WPATH criterion) and she had not consistently presented as
female outside of prison (the sixth).
The district court’s rejection of this post hoc explanation
was not clear error. Neither of the explanations offered by
Dr. Eliason during the evidentiary hearing appears in
Dr. Eliason’s notes. Nor did he give these reasons during his
deposition. Their absence is conspicuous, given that
Dr. Eliason took the time to indicate instances where, in his
opinion, GCS is appropriate and to explain that Edmo did
not satisfy his “criteria.”

(60 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 61 of 85

EDMO V. CORIZON

61

Second, the State highlights that Dr. Eliason’s notes
recommend further “supportive counseling” for Edmo and
indicate that Edmo was up for parole. The State construes
these notes as shorthand for the fourth and sixth WPATH
criteria, respectively. The State’s proposed reading of
Dr. Eliason’s notes is unreasonable. His notes are clear that
GCS is not needed because Edmo did not meet his three
“criteria,” and the district court was well within its
factfinding discretion in rejecting the State’s strained
reading. We therefore conclude that the district court
reasonably found that Dr. Eliason “did not rely upon any
finding that Ms. Edmo did not meet the WPATH criteria in
concluding in his April 2016 assessment that she did not
meet the criteria for gender confirmation surgery.” Id.
at 1120.
Notably, neither Dr. Eliason nor the State has offered any
explanation or support for Dr. Eliason’s “criteria.”
Dr. Eliason testified that he could not recall where he came
up with them.
Nor has Dr. Eliason or the State contended that
Dr. Eliason’s criteria were a reasonable deviation or
modification of the WPATH Standards of Care. In any
event, we could not accept that argument. Dr. Eliason’s
criteria—apparently invented out of whole cloth—are so far
afield from the WPATH standards that we cannot
characterize his decision as a flexible application of or
deviation from those standards. Indeed, as Dr. Gorton
explained, two of Dr. Eliason’s criteria are inapplicable to
the care of transgender individuals. Dr. Eliason’s criterion
of “congenital malformation or ambiguous genitalia” “isn’t
. . . germane to transgender people.” His statement that GCS
could be needed when “endogenous sexual hormones were
causing severe physiological damage,” is, in Dr. Gorton’s

(61 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 62 of 85

62

EDMO V. CORIZON

words, “bizarre. I can’t think of a clinical circumstance
where . . . your hormones that your body produces are
attacking you . . . . I just don’t understand what [Dr. Eliason]
is talking about there.”
Dr. Eliason, in short, did not follow the accepted
standards of care in the area of transgender health care, nor
did he reasonably deviate from or flexibly apply them.
Dr. Eliason did not apply the established standards, even as
a starting point, in his evaluation.
Putting to the side Dr. Eliason’s failure to follow or
reasonably deviate from the accepted standards of care, his
decision was internally contradictory in an important way.
His notes reflect that GCS would be medically necessary if
a person is suffering “severe and devastating gender
dysphoria that is primarily due to genitals.” At his
deposition, Dr. Eliason conceded that self-castration could
show gender dysphoria sufficiently severe to satisfy that
criterion. And at the evidentiary hearing, he acknowledged
that Edmo “does primarily meet that criteri[on].” Thus, even
under Dr. Eliason’s own criteria, Edmo should have been
provided GCS. Neither Dr. Eliason nor the State has
reconciled this important contradiction between
Dr. Eliason’s criteria and his determination.
In sum, Dr. Eliason’s evaluation was not an exercise of
medically acceptable professional judgment. Dr. Eliason’s
decision was based on inexplicable criteria far afield from
the recognized standards of care and, even applying
Dr. Eliason’s criteria, Edmo qualifies for GCS. Given the
credited expert testimony that GCS is necessary to treat
Edmo’s gender dysphoria, Dr. Eliason’s contrary

(62 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 63 of 85

EDMO V. CORIZON

63

determination was “medically unacceptable under the
circumstances.” 18 Snow, 681 F.3d at 988.
2. Deliberate Indifference
The State next contends that even if the treatment
provided Edmo was medically unacceptable, no defendant
acted “in conscious disregard of an excessive risk to
[Edmo’s] health.” Hamby, 821 F.3d at 1092 (quoting Snow,
681 F.3d at 988). We disagree.
The record demonstrates that Dr. Eliason acted with
deliberate indifference to Edmo’s serious medical needs.
Dr. Eliason knew, as of the time of his evaluation, that Edmo
had attempted to castrate herself. He also knew that Edmo
suffers from gender dysphoria; he knew she experiences
“clinically significant” distress that impairs her ability to
function. He acknowledged that Edmo’s self-castration
attempt was evidence that Edmo’s gender dysphoria, in his
words, “had risen to another level.” Dr. Eliason nonetheless
continued with Edmo’s ineffective treatment plan.
Edmo then tried to castrate herself a second time, in
December 2016.
Dr. Eliason knew of that nearly
Dr. Eliason was not alone in his decision. Dr. Stoddart,
Dr. Young, and Jeremy Clark agreed with his assessment, as did the
MTC. The State contends that such general agreement demonstrates that
Dr. Eliason’s decision was reasonable. But general agreement in a
medically unacceptable form of treatment does not somehow make it
reasonable. This is especially so in light of the limited review those
individuals performed: Dr. Stoddard, Dr. Young, and Jeremy Clark
agreed with Dr. Eliason’s recommended treatment as he presented it to
them and without personally evaluating Edmo, and the MTC “does not
make any individual treatment decisions regarding [gender dysphoric]
inmates. Those determinations are made by the individual clinicians or
the medical staff employed by Corizon,” like Dr. Eliason.
18

(63 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 64 of 85

64

EDMO V. CORIZON

catastrophic event, but he did not reevaluate or recommend
a change to Edmo’s treatment plan, despite indicating in his
April 2016 evaluation that he would continue to monitor and
assess Edmo’s condition. Dr. Eliason continued to see Edmo
after that time, and he considered Edmo’s treatment as a
member of the MTC. At no point did Dr. Eliason change his
mind or the treatment plan regarding surgery. Under these
circumstances, we conclude that Dr. Eliason knew of and
disregarded the substantial risk of severe harm to Edmo.
Farmer, 511 U.S. at 837.
The State urges that neither Dr. Eliason nor any other
defendant acted with deliberate indifference because none
acted with “malice, intent to inflict pain, or knowledge that
[the] recommended course of treatment was medically
inappropriate.” The State misstates the standard. A prisoner
“must show that prison officials ‘kn[e]w [ ] of and
disregard[ed]’ the substantial risk of harm,’ but the officials
need not have intended any harm to befall the inmate; ‘it is
enough that the official acted or failed to act despite his
knowledge of a substantial risk of serious harm.’” Lemire v.
Cal. Dep’t of Corr. & Rehab., 726 F.3d 1062, 1074 (9th Cir.
2013) (alterations in original) (quoting Farmer, 511 U.S.
at 837, 842). Neither the Supreme Court nor this court has
ever required a plaintiff to show a “sinister [prison official]
with improper motives,” as the State would require. It is
enough that Dr. Eliason knew of and disregarded an
excessive risk to Edmo’s health by rejecting her request for
GCS and then never re-evaluating his decision despite
ongoing harm to Edmo.
The State also contends that because the defendants
provided some care to Edmo, no defendant could have been
deliberately indifferent. The provision of some medical
treatment, even extensive treatment over a period of years,

(64 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 65 of 85

EDMO V. CORIZON

65

does not immunize officials from the Eighth Amendment’s
requirements. See Lopez v. Smith, 203 F.3d 1122, 1132 (9th
Cir. 2000) (en banc) (explaining that “[a] prisoner need not
prove that he was completely denied medical care” to make
out an Eighth Amendment claim); see also De’lonta,
708 F.3d at 526 (“[J]ust because [officials] have provided
De’lonta with some treatment consistent with the GID
Standards of Care, it does not follow that they have
necessarily provided her with constitutionally adequate
treatment.”). As the Fourth Circuit has aptly analogized,
imagine that prison officials prescribe a
painkiller to an inmate who has suffered a
serious injury from a fall, but that the
inmate’s symptoms, despite the medication,
persist to the point that he now, by all
objective measure, requires evaluation for
surgery. Would prison officials then be free
to deny him consideration for surgery,
immunized from constitutional suit by the
fact they were giving him a painkiller? We
think not.
De’lonta, 708 F.3d at 526. Here, although the treatment
provided Edmo was important, it stopped short of what was
medically necessary.
3. Out-of-Circuit Precedent
Our decision cleaves to settled Eighth Amendment
jurisprudence, which requires a fact-specific analysis of the
record (as construed by the district court) in each case. See
Patel v. Kent Sch. Dist., 648 F.3d 965, 975 (9th Cir. 2011)
(“Deliberate-indifference cases are by their nature highly
fact-specific . . . .”); see also Rachel v. Troutt, 820 F.3d 390,
394 (10th Cir. 2016) (“Each step of this [deliberate

(65 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 66 of 85

66

EDMO V. CORIZON

indifference] inquiry is fact-intensive.” (quoting Hartsfield
v. Colburn, 491 F.3d 394, 397 (8th Cir. 2007))); Roe v.
Elyea, 631 F.3d 843, 859 (7th Cir. 2011) (“[I]nmate medical
care decisions must be fact-based with respect to the
particular inmate, the severity and stage of his condition, the
likelihood and imminence of further harm and the efficacy
of available treatments.”); Youmans v. Gagnon, 626 F.3d
557, 564 (11th Cir. 2010) (“Judicial decisions addressing
deliberate indifference to a serious medical need, like
decisions in the Fourth Amendment search-and-seizure
realm, are very fact specific.”); Chance v. Armstrong,
143 F.3d 698, 703 (2d Cir. 1998) (“Whether a course of
treatment was the product of sound medical judgment,
negligence, or deliberate indifference depends on the facts
of the case.”).
Several years ago, the First Circuit, sitting en banc,
employed that fact-based approach to evaluate a gender
dysphoric prisoner’s Eighth Amendment claim seeking
GCS. The First Circuit confronted the following record:
credited expert testimony disagreed as to whether GCS was
medically necessary; the prisoner’s active treatment plan,
which did not include GCS, had “led to a significant
stabilization in her mental state”; and a report and testimony
from correctional officials detailed significant security
concerns that would arise if the prisoner underwent GCS.
Kosilek, 774 F.3d at 86–96. “After carefully considering the
community standard of medical care, the adequacy of the
provided treatment, and the valid security concerns
articulated by the DOC,” a 3–2 majority of the en banc court
concluded that the plaintiff had not demonstrated GCS was
medically necessary treatment for her gender dysphoria. Id.
at 68.

(66 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 67 of 85

EDMO V. CORIZON

67

Our approach mirrors the First Circuit’s, but the
important factual differences between cases yield different
outcomes. Notably, the security concerns in Kosilek, which
the First Circuit afforded “wide-ranging deference,” are
completely absent here. Id. at 92. The State does not so
much as allude to them. The medical evidence also differs.
In Kosilek, qualified and credited experts disagreed about
whether GCS was necessary. Id. at 90. As explained above,
the district court’s careful factual findings admit of no such
disagreement here. Rather, they unequivocally establish that
GCS is the safe, effective, and medically necessary treatment
for Edmo’s severe gender dysphoria.
We recognize, however, that our decision is in tension
with Gibson v. Collier. In that case, the Fifth Circuit held,
in a split decision, that “[a] state does not inflict cruel and
unusual punishment by declining to provide [GCS] to a
transgender inmate.” 920 F.3d at 215. It did so on a “sparse
record”—which included only the WPATH Standards of
Care and was notably devoid of “witness testimony or
evidence from professionals in the field”—compiled by a
pro se plaintiff. Id. at 220. Despite the sparse record, a 2–1
majority of the Gibson panel concluded that “there is no
consensus in the medical community about the necessity and
efficacy of [GCS] as a treatment for gender dysphoria. . . .
This on-going medical debate dooms Gibson’s claim.” Id.
at 221.
We respectfully disagree with the categorical nature of
our sister circuit’s holding. Most fundamentally, Gibson
relies on an incorrect, or at best outdated, premise: that
“[t]here is no medical consensus that [GCS] is a necessary
or even effective treatment for gender dysphoria.” Id. at 223.
As the record here demonstrates and the State does not
seriously dispute, the medical consensus is that GCS is

(67 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 68 of 85

68

EDMO V. CORIZON

effective and medically necessary in appropriate
circumstances. The WPATH Standards of Care—which are
endorsed by the American Medical Association, the
American Medical Student Association, the American
Psychiatric Association, the American Psychological
Association, the American Family Practice Association, the
Endocrine Society, the National Association of Social
Workers, the American Academy of Plastic Surgeons, the
American College of Surgeons, Health Professionals
Advancing LGBTQ Equality, the HIV Medicine
Association, the Lesbian, Bisexual, Gay and Transgender
Physician Assistant Caucus, and Mental Health America—
recognize this fact. WPATH SOC at 54–55. Each expert in
this case agrees. As do others in the medical community.
See, e.g., U.S. Dep’t of Health & Human Servs., No. A-1387, Decision No. 2576; Bao Ngoc N. Tran, et al., Gender
Affirmation Surgery: A Synopsis Using American College of
Surgeons National Surgery Quality Improvement Program
and National Inpatient Sample Databases, 80 Annals Plastic
Surgery S229, S234 (2018); Frey, A Historical Review of
Gender-Affirming Medicine, 14 J. Sexual Med. at 991; see
also What We Know Project, Ctr. for the Study of
Inequality, Cornell Univ., What Does the Scholarly
Research Say About the Effect of Gender Transition on
Transgender Well-Being?, https://whatweknow.inequality.c
ornell.edu/topics/lgbt-equality/what-does-the-scholarly-rese
arch-say-about-the-well-being-of-transgender-people/ (last
visited July 10, 2019) (reviewing the available literature and
finding “a robust international consensus in the peerreviewed literature that gender transition, including medical
treatments such as hormone therapy and surgeries, improves
the overall well-being of transgender individuals”). The
Fifth Circuit is the outlier.

(68 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 69 of 85

EDMO V. CORIZON

69

Gibson’s broad holding stemmed from a dismaying
disregard for procedure. As noted, the “sparse” summary
judgment record that the pro se plaintiff developed included
“only the WPATH Standards of Care.” Gibson, 920 F.3d at
221. Perhaps that factual deficiency doomed Gibson’s
Eighth Amendment claim. See id. at 223–24. But to reach
its broader holding that denying GCS cannot, as a matter of
law, violate the Eighth Amendment—in other words, to
reject every conceivable Eighth Amendment claim based on
the denial of GCS—the Fifth Circuit coopted the record from
Kosilek, a First Circuit decision that predates Gibson by four
years. Id. at 221–23. We doubt the analytical value of such
an anomalous procedural approach.
Worse yet, the medical opinions from Kosilek do not
support the Fifth Circuit’s categorical holding. Dr. Chester
Schmidt’s and Dr. Stephen Levine’s testimony in Kosilek,
which the Fifth Circuit relied on, do not support the
proposition that GCS is never medically necessary. Dr.
Schmidt and Dr. Levine testified that GCS was not necessary
in the factual circumstances of that case, that is, based on the
unique medical needs of the prisoner at issue. See Kosilek,
774 F.3d at 76–79.
The only suggestion in Kosilek that GCS is never
medically necessary is in the First Circuit’s recitation of the
testimony of Dr. Cynthia Osborne. See Gibson, 920 F.3d
at 221. The First Circuit recounted that Dr. Osborne testified
that she “did not view [GCS] as medically necessary in light
of the ‘whole continuum from noninvasive to invasive’
treatment options available to individuals with” gender
dysphoria. Kosilek, 774 F.3d at 77. To the extent this vague
portrait of Dr. Osborne’s testimony conveys her belief that
GCS is never medically necessary, she has apparently
changed her view in the more than ten years since she

(69 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 70 of 85

70

EDMO V. CORIZON

testified in Kosilek. Like both sides and all four medical
experts who testified here, Dr. Osborne now agrees that GCS
“can be medically necessary for some, though not all,
persons with [gender dysphoria], including some prison
inmates.” Osborne & Lawrence, Male Prison Inmates With
Gender Dysphoria, 45 Archives of Sexual Behav. at 1651.
In her and her co-author’s words, “[GCS] is a safe, effective,
and widely accepted treatment for [gender dysphoria];
disputing the medical necessity of [GCS] based on assertions
to the contrary is unsupportable.” Id. The predicate medical
opinions that Gibson is premised upon, then, do not support
the Fifth Circuit’s view that GCS is never medically
necessary. The consensus is that GCS is effective and
medically necessary in appropriate circumstances. 19
Gibson is unpersuasive for several additional reasons. It
directly conflicts with decisions of this circuit, the Fourth
We do not suggest that every member of the medical and mental
health communities agrees that GCS may be medically necessary. There
are outliers. But when the medical consensus is that a treatment is
effective and medically necessary under the circumstances, prison
officials render unacceptable care by following the views of outliers
without offering a credible medical basis for deviating from the accepted
view. See Kosilek, 774 F.3d at 90 n.12 (explaining that it is not enough
for “correctional administrators wishing to avoid treatment . . . simply to
find a single practitioner willing to attest that some well-accepted
treatment is not necessary”); Hamilton v. Endell, 981 F.2d 1062, 1067
(9th Cir. 1992) (“By choosing to rely upon a medical opinion which a
reasonable person would likely determine to be inferior, the prison
officials took actions which may have amounted to the denial of medical
treatment, and the unnecessary and wanton infliction of pain.” (quotation
omitted)), overruled in part on other grounds as recognized in Snow,
681 F.3d at 986; cf. also Bragdon v. Abbott, 524 U.S. 624, 650 (1998)
(“A health care professional who disagrees with the prevailing medical
consensus may refute it by citing a credible scientific basis for deviating
from the accepted norm.”).
19

(70 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 71 of 85

EDMO V. CORIZON

71

Circuit, and the Seventh Circuit, all of which have held that
denying surgical treatment for gender dysphoria can pose a
cognizable Eighth Amendment claim. Rosati, 791 F.3d at
1040 (alleged blanket ban on GCS and denial of GCS to
plaintiff with severe symptoms, including repeated selfcastration attempts, states an Eighth Amendment claim);
Fields v. Smith, 653 F.3d 550, 552–53, 558–59 (7th Cir.
2011) (law banning hormone treatment and GCS, even if
medically necessary, violates the Eighth Amendment);
De’lonta, 708 F.3d at 525 (alleged denial of an evaluation
for GCS states an Eighth Amendment claim). 20 Relatedly,
Gibson eschews Eighth Amendment precedent requiring a
case-by-case determination of the medical necessity of a
particular treatment. See, e.g., Colwell v. Bannister,
763 F.3d 1060, 1068 (9th Cir. 2014) (holding that the
“blanket, categorical denial of medically indicated surgery
solely on the basis of an administrative policy . . . is the
paradigm of deliberate indifference” (quotation omitted));
Roe, 631 F.3d at 859.
In this latter respect, Gibson also contradicts and
misconstrues the precedent it purports to follow: Kosilek.
According to the Gibson majority, “the majority in Kosilek
effectively allowed a blanket ban on sex reassignment
surgery.” 920 F.3d at 216. Not so. The First Circuit did
precisely what we do here: assess whether the record before
it demonstrated deliberate indifference to the plaintiff’s
The Fifth Circuit unpersuasively attempted to reconcile its
decision with Rosati and De’lonta, pointing out that those decisions
“allowed Eighth Amendment claims for [GCS] to survive motions to
dismiss, without addressing the merits.” Gibson, 920 F.3d at 223 n.8.
But if Gibson is correct that failing to provide GCS cannot amount to
deliberate indifference, then a plaintiff cannot state an Eighth
Amendment claim based on the denial of GCS. Rosati and De’lonta
would necessarily have been decided differently under Gibson’s holding.
20

(71 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 72 of 85

72

EDMO V. CORIZON

gender dysphoria. On the record before it, the First Circuit
determined that either of two courses of treatment (one
included GCS and one did not) were medically acceptable.
Kosilek, 774 F.3d at 90. In light of those medically
acceptable alternatives, the First Circuit explained that it was
not its place to “second guess medical judgments or to
require that the DOC adopt the more compassionate of two
adequate options.” Id. (quotation omitted). It expressly
cautioned that the opinion should not be read to “create a de
facto ban against [GCS] as a medical treatment for any
incarcerated individual,” as “any such policy would conflict
with the requirement that medical care be individualized
based on a particular prisoner’s serious medical needs.” Id.
at 91 (citing Roe, 631 F.3d at 862–63). The Fifth Circuit
disregarded these words of warning. 21
***
In summary, Edmo has established that she suffers from
a “serious medical need,” Jett, 439 F.3d at 1096, and that the
treatment provided was “medically unacceptable under the
circumstances” and chosen “in conscious disregard of an
excessive risk” to her health, Hamby, 821 F.3d at 1092. She
established her Eighth Amendment claim of deliberate
indifference as to Defendant-Appellant Dr. Eliason.

Gibson’s final, originalist rationale—that it cannot be cruel and
unusual to deny a surgery that has only once been provided to an inmate,
920 F.3d at 226–28—warrants little discussion. Gibson’s originalist
understanding of the Eighth Amendment does not control; Estelle does,
and under Estelle a plaintiff establishes an Eighth Amendment claim by
demonstrating that prison officials were deliberately indifferent to a
serious medical need. 429 U.S. at 106. This standard protects the
evolving standards of decency enshrined in the Eighth Amendment.
21

(72 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 73 of 85

EDMO V. CORIZON

73

B. Irreparable Harm
The State next contends that the district court erred in
finding that Edmo would be irreparably harmed absent an
injunction.
In reaching its conclusion, the district court found that
Edmo experiences ongoing “clinically significant distress,”
meaning “the distress impairs or severely limits [her] ability
to function in a meaningful way.” Edmo, 358 F. Supp. 3d
at 1110–11. This finding is supported by Edmo’s testimony
that her gender dysphoria causes her to feel “depressed,”
“disgusting,” “tormented,” and “hopeless”; that she actively
experiences thoughts of self-castration; and that she “selfmedicat[es]” by cutting her arms with a razor to avoid acting
on those thoughts and impulses. The district court also
found that in the absence of surgery, Edmo “will suffer
serious psychological harm and will be at high risk of selfcastration and suicide.” Id. at 1128. This finding is
supported by the credited expert testimony of Dr. Ettner and
Dr. Gorton, who detailed the escalating risks of self-surgery,
suicide, and emotional decompensation should Edmo be
denied surgery.
It is no leap to conclude that Edmo’s severe, ongoing
psychological distress and the high risk of self-castration and
suicide she faces absent surgery constitute irreparable harm.
See Stanley v. Univ. of S. Cal., 13 F.3d 1313, 1324 n.5 (9th
Cir. 1994); Thomas v. County of Los Angeles, 978 F.2d 504,
511 (9th Cir. 1992); Chalk v. U.S. Dist. Ct. Cent. Dist. of
Cal., 840 F.2d 701, 709 (9th Cir. 1988). Moreover, the
deprivation of Edmo’s constitutional right to adequate
medical care is sufficient to establish irreparable harm. See
Nelson v. NASA, 530 F.3d 865, 882 (9th Cir. 2008) (“Unlike
monetary injuries, constitutional violations cannot be
adequately remedied through damages and therefore

(73 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 74 of 85

74

EDMO V. CORIZON

generally constitute irreparable harm.”), rev’d
remanded on other grounds, 562 U.S. 134 (2011).

and

The State offers three contentions as to why the district
court erred in finding that Edmo would be irreparably
injured in the absence of an injunction. None is persuasive.
First, the State argues that the “long delay” of “nearly a
year” between Edmo filing her Amended Complaint and her
preliminary injunction motion “implies a lack of urgency
and irreparable harm.” We disagree. The procedural history
demonstrates that Edmo did not sit on her rights. Proceeding
pro se, Edmo moved for preliminary injunctive relief when
she filed her original complaint. The court then appointed
counsel for Edmo, and shortly after appearing, appointed
counsel withdrew Edmo’s motion and filed an amended
complaint. To assess the urgency of surgery, Edmo’s
counsel promptly sought access to Edmo’s medical records,
which the State did not produce until more than six months
later. Edmo moved for injunctive relief shortly thereafter.
During that time, Edmo and her counsel diligently
investigated and compiled the necessary record to move for
injunctive relief. That it took them months to do their
diligence does not suggest that Edmo will not be harmed
absent an injunction.
Second, the State contends that Edmo has not established
irreparable injury because both she and her expert,
Dr. Gorton, agree that GCS is not an emergency surgery and
that the State should have six months to provide such
surgery. The State’s argument would preclude courts from
ordering non-emergent medical care, even if the Eighth
Amendment demands it. That is untenable. The State also
ignores the rationale for the six-month time period. As Dr.
Gorton explained, all patients who receive GCS “are seen,
they are evaluated, there is a process you have to go

(74 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 75 of 85

EDMO V. CORIZON

75

through.” In his experience, that process typically concludes
within six months. That Edmo requested relief on a
reasonable timeline, based on the medical evidence, does not
undermine the strong evidence of irreparable injury.
Third, the State contends that Edmo has not established
irreparable harm because she “has not attempted suicide or
self-castration for years.” That argument overlooks the
profound, persistent distress Edmo’s gender dysphoria
causes, as well as the credited expert testimony that absent
GCS, Edmo is at risk of further attempts at self-castration,
and possibly suicide. The district court did not err in finding
that Edmo would be irreparably harmed in the absence of an
injunction.
IV. Challenges to the Scope of the Injunction
We turn to the State’s contentions that the district court’s
injunction was overbroad.
A. Individual Defendants
The State contends that the injunction should not apply
to Atencio, Zmuda, Yordy, Siegert, Dr. Young, Dr. Craig,
Dr. Eliason, or Dr. Whinnery because the district court did
not find that they, individually, were deliberately indifferent
to Edmo’s medical needs.
As explained in Section III.A, Edmo has established that
Dr. Eliason was deliberately indifferent to her serious
medical needs. The injunction was properly entered against
him because he personally participated in the deprivation of
Edmo’s constitutional rights. See Colwell, 763 F.3d at 1070.
Edmo sued Attencio, Zmuda, and Yordy in their official
capacities. An official-capacity suit for injunctive relief is

(75 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 76 of 85

76

EDMO V. CORIZON

properly brought against any persons who “would be
responsible for implementing any injunctive relief.” Pouncil
v. Tilton, 704 F.3d 568, 576 (9th Cir. 2012). The State does
not contest that Attencio, as Director of IDOC, and Zmuda,
as Deputy Director of IDOC, would be responsible for
implementing any injunctive relief ordered. Edmo properly
named them as defendants to her Eighth Amendment claim
for injunctive relief, regardless of their personal
involvement. See Colwell, 763 F.3d at 1070–71 (director of
a state correctional system is a proper defendant in an
official-capacity suit seeking injunctive relief for Eighth
Amendment violations). Yordy is no longer the Warden of
ISCI, but, by operation of the Federal Rules, his successor,
Al Ramirez, is “automatically substituted as party” in his
official capacity. Fed. R. Civ. P. 25(d). Ramirez is properly
a defendant to Edmo’s Eighth Amendment claim for
injunctive relief, regardless of his personal involvement. See
Colwell, 763 F.3d at 1070–71 (warden is a proper defendant
in an official-capacity suit seeking injunctive relief for
Eighth Amendment violations). Because Edmo may
properly pursue her Eighth Amendment claim for injunctive
relief against Attencio, Zmuda, and Ramirez in their official
capacities, they are properly included within the scope of the
district court’s injunction. On remand, the district court shall
amend the injunction to substitute Al Ramirez (or the thencurrent Warden of ISCI) as a party for Yordy.
Edmo also named Yordy as a defendant in his individual
capacity. She likewise named Siegert, Dr. Young, Dr. Craig,
and Dr. Whinnery as defendants in their individual
capacities (though she does not argue on appeal that the
injunction properly included them). We hold that the
evidence in the current record is insufficient to conclude that
they were deliberately indifferent to Edmo’s serious medical
needs. In particular, the record does not show what they

(76 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 77 of 85

EDMO V. CORIZON

77

knew about Edmo’s condition and what role they played in
her treatment or lack thereof. Edmo has not established their
liability, and the district court improperly included them
within the scope of the injunction. We vacate the district
court’s injunction to the extent it applies to Yordy, Siegert,
Dr. Young, Dr. Craig, and Dr. Whinnery in their individual
capacities. See California v. Azar, 911 F.3d 558, 585 (9th
Cir. 2018) (vacating in part an overbroad injunction and
remanding to the district court). On remand, the district
court shall modify the injunction to exclude those defendants
from its scope.
B. Corizon
The State also contends that the injunction should not
apply to Corizon. It urges that Corizon does not have a
policy barring GCS and argues that such a policy is a
prerequisite to liability under Monell v. Department of Social
Services, 436 U.S. 658 (1978). We have not yet determined
whether Monell applies “to private entities acting on behalf
of state governments,” such as Corizon. Oyenik v. Corizon
Health Inc., 696 F. App’x 792, 794 n.1 (9th Cir. 2017). We
leave that issue for another day. Instead, we vacate the
injunction as to Corizon and remand with instructions to the
district court to modify the injunction to exclude Corizon.
See Azar, 911 F.3d at 585. Doing so still provides Edmo the
relief she seeks at this stage. 22

For similar reasons, we need not reach Edmo’s contention and the
district court’s finding that “Corizon and IDOC have a de facto policy or
practice of refusing” GCS to prisoners. Edmo, 358 F. Supp. 3d at 1127.
22

(77 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 78 of 85

78

EDMO V. CORIZON
C. Relief Ordered

The State next contends that the injunctive relief ordered
is overbroad because it requires the State to provide Edmo
all “adequate medical care.” The State misconstrues the
district court’s order. The order, read in context, requires
defendants to provide GCS, as well as “adequate medical
care” that is “reasonably necessary” to accomplish that
end—not every conceivable form of adequate medical care.
Edmo, 358 F. Supp. 3d at 1129; see also id. at 1109
(“Plaintiff Adree Edmo alleges that prison authorities
violated her Eighth Amendment rights by refusing to provide
her with gender confirmation surgery. For the reasons
explained below, the Court agrees and will order defendants
to provide her with this procedure, a surgery which is
considered medically necessary under generally accepted
standards of care.”); id. at 1110 (“[F]or the reasons explained
in detail below, IDOC and Corizon will be ordered to
provide Ms. Edmo with gender confirmation surgery.”).
The State similarly contends that the injunctive relief
ordered is overbroad because it requires the State to provide
Edmo surgery even though the defendants are not surgeons
and no surgeon has evaluated Edmo. We reject this obtuse
reading of the district court’s order. The district court
ordered the State to “take all actions reasonably necessary to
provide Ms. Edmo gender confirmation surgery.” Edmo,
358 F. Supp. 3d at 1129. That means that the State must take
steps within its power to provide GCS to Edmo, such as
finding a surgeon and scheduling a surgical evaluation.
Indeed, we modified our stay of the district court’s order to
permit a surgical consultation, which went forward in April
2019. Oral Arg. at 12:00–12:10. The State cannot
reasonably understand the district court’s December 13,
2018 order to require that the defendants themselves provide

(78 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 79 of 85

EDMO V. CORIZON

79

surgery. To the extent there are issues arising from a surgical
evaluation, the State can raise those issues with the district
court. 23
V. Challenges to the Procedure Used by the District
Court
Finally, the State contends that the district court
improperly converted an evidentiary hearing on a
preliminary injunction into a final trial on the merits of
Edmo’s Eighth Amendment claim for GCS without giving
them adequate notice and in violation of their Seventh
Amendment right to a jury trial. We address and reject each
contention.
A. Notice
We first address the State’s contention that the district
court erroneously converted the evidentiary hearing into a
final trial on the merits without giving the State “clear and
unambiguous notice.” Under Federal Rule of Civil
Procedure 65(a)(2), “[a] district court may consolidate a
preliminary injunction hearing with a trial on the merits, but
only when it provides the parties with clear and
unambiguous notice [of the intended consolidation] either
before the hearing commences or at a time which will afford
The State contends for the first time in its reply brief that the
injunctive relief ordered was inappropriate because the WPATH
Standards of Care require two referrals from qualified mental health
professionals who have independently assessed the patient before GCS
may be provided. It similarly contends for the first time in its reply in
support of its motion to dismiss that the order is overbroad because it
does not specify the type of GCS ordered. Because the State did not
present these arguments in its opening brief, we do not consider them.
See Smith v. Marsh, 194 F.3d 1045, 1052 (9th Cir. 1999).
23

(79 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 80 of 85

80

EDMO V. CORIZON

the parties a full opportunity to present their respective
cases.” Isaacson v. Horne, 716 F.3d 1213, 1220 (9th Cir.
2013) (second alteration in original) (quotation omitted).
“What constitutes adequate notice depends upon the facts of
the case.” Michenfelder v. Sumner, 860 F.2d 328, 337 (9th
Cir. 1988).
A party challenging consolidation must show not only
inadequate notice, but also “substantial prejudice in the
sense that [it] was not allowed to present material evidence.”
Michenfelder, 860 F.2d at 337; see also 11A Charles Alan
Wright et al., Federal Practice and Procedure § 2950 (3d
ed. Apr. 2019 update). “We have on occasion upheld a
district court’s failure to give any notice whatsoever before
finally determining the merits after only a preliminary
injunction hearing, where the complaining party has failed
to show how additional evidence could have altered the
outcome.” Michenfelder, 860 F.2d at 337.
At the outset, we note that the State was provided notice,
twice, that the district court considered the evidentiary
hearing a final trial on the merits of Edmo’s request for GCS.
At the beginning of the hearing, the district court explained
“it’s hard for me to envision this hearing being anything but
a hearing on a final injunction at least as to that part of the
relief requested [GCS],” and it asked the parties to address
by the end of the hearing whether it was for a permanent
injunction. At the close of the hearing, the district court
again questioned whether it could order GCS in a
preliminary injunction. It explained that it had, in effect,
“kind of treated this hearing as the final hearing” on Edmo’s
request for GCS, and it again asked the parties to address in
their oral closings or written briefs whether the hearing was
one for a permanent injunction. The State never answered
the court’s question or objected to consolidation, despite the

(80 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 81 of 85

EDMO V. CORIZON

81

district court specifically noting it had treated the hearing as
final. Cf. Reilly v. United States, 863 F.2d 149, 160 (1st Cir.
1988) (“[W]hen a trial judge announces a proposed course
of action which litigants believe to be erroneous, the parties
detrimentally affected must act expeditiously to call the error
to the judge’s attention or to cure the defect, not lurk in the
bushes waiting to ask for another trial when their litigatory
milk curdles.”). This is not a case where the district court
gave no notice whatsoever.
Regardless, the State has not shown any prejudice. With
full awareness of the stakes, the district court permitted the
parties four months of discovery and held a three-day
evidentiary hearing. The parties called seven witnesses,
submitted declarations in lieu of live testimony for other
witnesses, and submitted thousands of pages of exhibits and
extensive pre- and post-trial briefing. Most importantly,
both parties put on extensive evidence concerning the
treatment provided to and withheld from Edmo and why it
was or was not appropriate—the key issue at the hearing.
When it comes to identifying prejudice, the State is
tellingly short on specifics. It indicates that it “would have
objected” to consolidation, but it failed to do so despite
repeated invitations—indeed, directives—to address the
issue. The State also urges that it would have requested that
the named defendants be able to testify live, but it
stipulated—knowing full well the stakes of the hearing—to
submit certain testimony via declaration “[i]n lieu of and/or
in addition to live testimony.” Moreover, the State fails to
identify what testimony those witnesses would have offered
or explain how presenting that testimony live, instead of via
declaration, “could have altered the outcome.”
Michenfelder, 860 F.2d at 337. The district court did not

(81 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 82 of 85

82

EDMO V. CORIZON

commit reversible error in consolidating the evidentiary
hearing with a trial on the merits of Edmo’s request for GCS.
B. Seventh Amendment
We turn to the State’s related contention that the district
court violated the defendants’ Seventh Amendment right to
a jury trial by converting the evidentiary hearing into a trial
on the merits. We review that contention de novo. Palmer
v. Valdez, 560 F.3d 965, 968 (9th Cir. 2009).
The Seventh Amendment guarantees the right to a trial
by jury “[i]n Suits at common law, where the value in
controversy shall exceed twenty dollars.” U.S. Const.
amend. VII. In a case such as this, where legal claims are
joined with equitable claims, a party “has a right to jury
consideration of all legal claims, as well as all issues
common to both claims.” Plummer v. W. Int’l Hotels Co.,
656 F.2d 502, 504 n.6 (9th Cir. 1981) (citing Curtis v.
Loether, 415 U.S. 189, 196 n.11 (1974)). “Otherwise, the
court might limit the parties’ opportunity to try to a jury
every issue underlying the legal claims by affording
preclusive effect to its own findings of fact on questions that
are common to both the legal and equitable claims.” Lacy v.
Cook County, 897 F.3d 847, 858 (7th Cir. 2018).
Like other constitutional rights, the right to a jury trial in
civil suits can be waived. See United States v. Moore,
340 U.S. 616, 621 (1951). It is well established that “[a]
failure to object to a proceeding in which the court sits as the
finder of fact waives a valid jury demand as to any claims
decided in that proceeding, at least where it was clear that
the court intended to make fact determinations.” Fillmore v.
Page, 358 F.3d 496, 503 (7th Cir. 2004) (quotation omitted);
see also 9 Wright & Miller, Federal Practice and Procedure
§ 2321 (“The right to jury trial also may be waived as it has

(82 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 83 of 85

EDMO V. CORIZON

83

in many, many cases, by conduct, such as failing to object to
or actually participating in a bench trial . . . .”).
For example, in White v. McGinnis, we held that “[a]
party’s vigorous participation in a bench trial, without so
much as a mention of a jury, . . . can only be ascribed to
knowledgeable relinquishment of the prior jury demand.”
903 F.2d 699, 703 (9th Cir. 1990) (en banc). We explained
that where a party chooses “to argue his case fully before the
district judge[,] it is not unjust to hold him to that
commitment.” Id. By contrast, we have held that “[w]hen a
party participates in [a] bench trial ordered by the trial court
while continuing to demand a jury trial, his ‘continuing
objection’ is ‘sufficient to preserve his right to appeal the
denial of his request for a jury.’” Solis v. County of Los
Angeles, 514 F.3d 946, 957 (9th Cir. 2008) (quoting United
States v. Nordbrock, 941 F.2d 947, 950 (9th Cir. 1991)).
“This is because the party in such a case is not seeking ‘two
bites at the procedural apple’ . . . . Rather, when a trial court
denies a party a jury trial despite the party’s continuing
demand, the party has little choice but to accede to the trial
court’s ruling and participate in the bench trial.” Id. (citation
omitted); see also Lovelace v. Dall, 820 F.2d 223, 228 (7th
Cir. 1987) (“Another policy justifying the jury demand
waiver rule is the view that it is unfair to permit a party to
have a trial, discover that it has lost, and then raise the jury
issue because it is unsatisfied with the result of the trial.”).
The State seeks a second bite at the apple. It vigorously
participated in the evidentiary hearing without ever raising
the right to a jury trial. The State remained silent in the face
of statements from the district court that it was considering
treating, and then that it had treated, the hearing as a final
trial on the merits, which made it clear that the court
“intended to make fact determinations.” Fillmore, 358 F.3d

(83 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 84 of 85

84

EDMO V. CORIZON

at 503. It also remained silent despite the district court
asking twice whether the hearing was one for a permanent
injunction—as clear a time as any to raise any concerns
about a jury trial.
The State raised the issue of a jury trial for the first time
on appeal, after the district court ruled against it. Even after
the district court’s ruling, the State made no objection or
claim to a jury trial. This conduct waived the State’s right to
a jury trial with respect to issues common to Edmo’s request
for an injunction ordering GCS and her legal claims.
VI. Conclusion
We apply the dictates of the Eighth Amendment today in
an area of increased social awareness: transgender health
care. We are not the first to speak on the subject, nor will
we be the last. Our court and others have been considering
Eighth Amendment claims brought by transgender prisoners
for decades. During that time, the medical community’s
understanding of what treatments are safe and medically
necessary to treat gender dysphoria has changed as more
information becomes available, research is undertaken, and
experience is gained. The Eighth-Amendment inquiry takes
account of that developing understanding. See Estelle,
429 U.S. at 102–03.
We hold that where, as here, the record shows that the
medically necessary treatment for a prisoner’s gender
dysphoria is gender confirmation surgery, and responsible
prison officials deny such treatment with full awareness of
the prisoner’s suffering, those officials violate the Eighth
Amendment’s prohibition on cruel and unusual punishment.

(84 of 114)

Case: 19-35017, 08/23/2019, ID: 11407843, DktEntry: 96-1, Page 85 of 85

EDMO V. CORIZON

85

***
We affirm the district court’s entry of an injunction for
Edmo. However, we vacate the injunction to the extent it
applies to Corizon, Yordy, Siegert, Dr. Young, Dr. Craig,
and Dr. Whinnery, in their individual capacities, and remand
to the district court to modify the injunction accordingly.
The district court shall also modify the injunction to
substitute Al Ramirez in his official capacity as Warden of
ISCI for Yordy.
Although we addressed this appeal on an expedited
basis, it has been more than a year since doctors concluded
that GCS is medically necessary for Edmo. We urge the
State to move forward. We emphatically do not speak to
other cases, but the facts of this case call for expeditious
effectuation of the injunction.
In light of the nature and urgency of the relief at issue,
we will disfavor any motion, absent extraordinary
circumstances or consent from all parties, to extend the
period to petition for rehearing or rehearing en banc. Our
stay of the district court’s December 13, 2018 order shall
automatically terminate upon issuance of the mandate.
Costs on appeal are awarded to Edmo.
AFFIRMED IN PART, VACATED IN PART, AND
REMANDED.

(85 of 114)

EXHIBIT E

Case: 19-35017, 10/10/2019, ID: 11461237, DktEntry: 104, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
OCT 10 2019
MOLLY C. DWYER, CLERK

ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,
v.
CORIZON, INC.; et al.,

No.

19-35017

U.S. COURT OF APPEALS

D.C. No. 1:17-cv-00151-BLW
District of Idaho,
Boise
ORDER

Defendants-Appellants,
and
IDAHO DEPARTMENT OF
CORRECTIONS; et al.,
Defendants.
ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,
v.
IDAHO DEPARTMENT OF
CORRECTIONS; et al.,
Defendants-Appellants,
and
CORIZON, INC.; et al.,
Defendants.

No.

19-35019

D.C. No. 1:17-cv-00151-BLW

Case: 19-35017, 10/10/2019, ID: 11461237, DktEntry: 104, Page 2 of 2

Before: McKEOWN and GOULD, Circuit Judges, and LASNIK,* District Judge.

We grant Plaintiff-Appellee’s motion (Docket Entry No. 101) to partially lift
the stay of the district court’s order requiring Defendants-Appellants to take all
actions reasonably necessary to provide Plaintiff with gender confirmation surgery.
Defendants, as the proponents of the stay, have not shown that “irreparable harm is
probable” with respect to the limited nature of Plaintiff’s request and that they have
both “a substantial case on the merits and that the balance of hardships tips
sharply” in their favor. Leiva-Perez v. Holder, 640 F.3d 962, 970 (9th Cir. 2011)
(per curiam). Accordingly, this court’s stay of the district court’s December 13,
2018 order is partially lifted so that Plaintiff may receive all presurgical treatments
and related corollary appointments or consultations necessary for gender
confirmation surgery.

The Honorable Robert S. Lasnik, United States District Judge for the
Western District of Washington, sitting by designation.
*

2

EXHIBIT F

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 1 of 48

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,
v.
CORIZON, INC.; SCOTT ELIASON;
MURRAY YOUNG; CATHERINE
WHINNERY,
Defendants-Appellants,
and
IDAHO DEPARTMENT OF
CORRECTIONS; HENRY ATENCIO;
JEFF ZUMDA; HOWARD KEITH
YORDY; AL RAMIREZ, Warden;
RICHARD CRAIG; RONA SIEGERT,
Defendants.

No. 19-35017
D.C. No.
1:17-cv-00151BLW

(1 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 2 of 48

2

EDMO V. CORIZON

ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,
v.
IDAHO DEPARTMENT OF
CORRECTIONS; HENRY ATENCIO;
JEFF ZUMDA; HOWARD KEITH
YORDY; AL RAMIREZ, Warden;
RICHARD CRAIG; RONA SIEGERT,
Defendants-Appellants,

No. 19-35019
D.C. No.
1:17-cv-00151BLW
ORDER

and
CORIZON, INC.; SCOTT ELIASON;
MURRAY YOUNG; CATHERINE
WHINNERY,
Defendants.
Filed February 10, 2020
Before: M. Margaret McKeown and Ronald M. Gould,
Circuit Judges, and Robert S. Lasnik, * District Judge.
Order;
Statement by Judge O’Scannlain;
Dissent by Judge Collins;
Dissent by Judge Bumatay

The Honorable Robert S. Lasnik, United States District Judge for
the Western District of Washington, sitting by designation.
*

(2 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 3 of 48

EDMO V. CORIZON

3

SUMMARY **
Prisoner Civil Rights
The panel denied a petition for panel rehearing and
denied a petition for rehearing en banc on behalf of the court,
in a case in which the panel affirmed the district court’s entry
of a permanent injunction in favor of an Idaho state prisoner,
but vacated the injunction to the extent it applied to certain
defendants in their individual capacities, in the prisoner’s
action seeking medical treatment for gender dysphoria.
Respecting the denial of rehearing en banc, Judge
O’Scannlain, joined by Judges Callahan, Bea, Ikuta,
R. Nelson, Bade, Bress, Bumatay and VanDyke, stated that
with its decision not to rehear this case en banc, this court
became the first federal court of appeals to mandate that a
State pay for and provide sex-reassignment surgery to a
prisoner under the Eighth Amendment. Judge O’Scannlain
stated that the three-judge panel’s conclusion—that any
alternative course of treatment would be “cruel and unusual
punishment”—is as unjustified as it is unprecedented. To
reach such a conclusion, the court created a circuit split,
substituted the medical conclusions of federal judges for the
clinical judgments of prisoners’ treating physicians,
redefined the familiar “deliberate indifference” standard,
and, in the end, constitutionally enshrined precise and
partisan treatment criteria in what is a new, rapidly changing,
and highly controversial area of medical practice.

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.
**

(3 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 4 of 48

4

EDMO V. CORIZON

Dissenting from the denial of rehearing en banc, Judge
Collins stated that whether the defendant doctor was
negligent or not (a question on which Judge Collins
expressed no opinion), his treatment decisions did not
amount to “cruel and unusual punishment,” and the court
thus strayed far from any proper understanding of the Eighth
Amendment.
Dissenting from the denial of rehearing en banc, Judge
Bumatay, joined by Judges Callahan, Ikuta, R. Nelson, Bade
and VanDyke, and by Judge Collins as to Part II, stated that
by judicially mandating an innovative and evolving standard
of care, the panel effectively constitutionalized a set of
guidelines subject to ongoing debate and inaugurated yet
another circuit split. And by diluting the requisite state of
mind from “deliberate indifference” to negligence, the panel
effectively held that—contrary to Supreme Court
precedent—medical malpractice does become a
constitutional violation merely because the victim is a
prisoner.

(4 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 5 of 48

EDMO V. CORIZON

5

ORDER
The full court was advised of the petition for rehearing
en banc. A judge requested a vote on whether to rehear the
matter en banc. The matter failed to receive a majority of
the votes of nonrecused active judges in favor of en banc
consideration. Fed R. App. P. 35.
The petition for rehearing en banc is DENIED. An
opinion respecting denial of rehearing en banc, prepared by
Judge O’Scannlain, and dissents from denial of rehearing en
banc prepared by Judge Collins and Judge Bumatay are filed
concurrently with this order.

O’SCANNLAIN, Circuit Judge, * with whom CALLAHAN,
BEA, IKUTA, R. NELSON, BADE, BRESS, BUMATAY,
and VANDYKE, Circuit Judges, join, respecting the denial
of rehearing en banc:
With its decision today, our court becomes the first
federal court of appeals to mandate that a State pay for and
provide sex-reassignment surgery to a prisoner under the
Eighth Amendment. The three-judge panel’s conclusion—
that any alternative course of treatment would be “cruel and
unusual punishment”—is as unjustified as it is
unprecedented. To reach such a conclusion, the court creates
a circuit split, substitutes the medical conclusions of federal
*
As a judge of this court in senior status, I no longer have the power
to vote on calls for rehearing cases en banc or formally to join a dissent
from failure to rehear en banc. See 28 U.S.C. § 46(c); Fed. R. App. P.
35(a). Following our court’s general orders, however, I may participate
in discussions of en banc proceedings. See Ninth Circuit General Order
5.5(a).

(5 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 6 of 48

6

EDMO V. CORIZON

judges for the clinical judgments of prisoners’ treating
physicians, redefines the familiar “deliberate indifference”
standard, and, in the end, constitutionally enshrines precise
and partisan treatment criteria in what is a new, rapidly
changing, and highly controversial area of medical practice.
Respectfully, I believe our court’s unprecedented
decision deserved reconsideration en banc.
I
A
In 2012, Adree Edmo (then known as Mason Dean
Edmo) was incarcerated for sexually assaulting a sleeping
15-year-old boy. By all accounts, Edmo is afflicted with
profound and complex mental illness. She 1 suffers from
major depressive disorder, anxiety, alcohol addiction, and
drug addiction. At least two clinicians have concluded that
she shares the traits of borderline personality disorder. She
abused alcohol and methamphetamines every day for many
years, stopping only upon her incarceration. A victim of
sexual abuse at an early age, she attempted suicide three
times before her arrest for sexual assault—twice by overdose
and once by cutting.
A new diagnosis was added in 2012: gender dysphoria.
Two months after being transferred to the Idaho State
Correctional Institution (a men’s prison), Edmo sought to
speak about hormone therapy with Dr. Scott Eliason, the
Board-certified director of psychiatry for Corizon, Inc. (the
prison’s medical care provider). In Dr. Eliason’s view,
Though Edmo was born a male, Edmo has legally changed the sex
listed on her birth certificate to female. I therefore use feminine
pronouns throughout, just as the panel does.
1

(6 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 7 of 48

EDMO V. CORIZON

7

Edmo met the criteria for gender dysphoria. 2 After the
diagnosis was confirmed by another forensic psychiatrist
and the prison’s Management and Treatment Committee,
Edmo was prescribed hormone therapy. She soon changed
her legal name and the sex listed on her birth certificate. As
a result of four years of hormone therapy, Edmo experienced
physical changes, including breast development,
redistribution of body fat, and a change in body odor. She
now has the same circulating hormones as a typical adult
female.
In April 2016, at Edmo’s request, Dr. Eliason evaluated
her for sex-reassignment surgery. 3 Ultimately, Dr. Eliason
decided to maintain the current course of hormones and
supportive counseling instead of prescribing surgery. He
staffed Edmo’s case with Dr. Jeremy Stoddart (a
psychiatrist) and Dr. Murray Young (a physician who served
as the Regional Medical Director for Corizon), as well as
Jeremy Clark, a clinical supervisor and member of the World
Professional Association for Transgender Health
(“WPATH”). He also presented the evaluation and vetted it
2
Gender dysphoria is a diagnosis introduced in the latest, fifth
edition of the American Psychiatric Association’s Diagnostic and
Statistical Manual of Mental Disorders. It replaces the now-obsolete
“gender identity disorder” used in the previous edition. The gender
dysphoric patient experiences “clinically significant distress or
impairment in social, occupational, or other important areas of
functioning” that is associated with the feeling of incongruence between
perceived gender identity and phenotypic sex. See Am. Psychiatric
Ass’n, Diagnostic and Statistical Manual of Mental Disorders 453 (5th
ed. 2013).

The panel adopts the question-begging term “gender confirmation
surgery,” which is preferred by Edmo and her lawyers. I will continue
to use the neutral “sex-reassignment surgery.”
3

(7 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 8 of 48

8

EDMO V. CORIZON

before the regular meeting of the multidisciplinary
Management Treatment Committee.
Dr. Eliason, supported by Dr. Stoddart, Dr. Young, and
Clark, opted not to recommend sex-reassignment surgery for
several reasons, some of which are described in his chart
notes and others of which were elaborated in their testimony.
First, Dr. Eliason noted that Edmo reported that the hormone
therapy had improved her dysphoria and Eliason “did not
observe significant dysphoria.” In the absence of more
severe distress, Dr. Eliason could not justify the risks of
pursuing the most aggressive—and permanent—treatment
through surgery. Second, Dr. Eliason observed that Edmo’s
comorbid conditions—major depressive disorder and
alcohol use disorder, among others—were not adequately
controlled. Edmo had refused to attend therapy consistently
in prison. She also engaged in self harm (including cutting
and attempted castration) and exhibited co-dependency and
persistently poor sexual boundaries with other prisoners. In
Dr. Eliason’s view, Edmo’s other mental health disorders
were not sufficiently stabilized to handle the stressful
process of surgery and transition. Finally, Dr. Eliason
observed that Edmo—who was parole-eligible and due to be
released in 2021—had not lived among her out-of-prison
social network as a woman. He noted the high suicide rates
for postoperative patients and was concerned that Edmo
might be at greater risk of suicide given the potential lack of
support from family, friends, coworkers, and neighbors
during her transition. Dr. Eliason did not rule out the
possibility of Edmo receiving sex-reassignment surgery at
some later point. As Dr. Eliason put it in his notes on his
consultation with Edmo, “Medical Necessity for Sexual
Reassignment Surgery is not very well defined and is
constantly shifting.” Citing the changing nature of the

(8 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 9 of 48

EDMO V. CORIZON

9

science and the contingent nature of his evaluation of Edmo,
his recommendations were merely “for the time being.”
B
About a year after her evaluation, Edmo filed this § 1983
lawsuit against Dr. Eliason, the Idaho Department of
Corrections, Corizon, and several other individuals, alleging
that the prison doctors’ treatment choice violated her right to
be free from cruel and unusual punishment under the Eighth
and Fourteenth Amendments. She then moved for a
preliminary injunction to require the prison to provide her
with sex-reassignment surgery.
The district court held an evidentiary hearing on the
motion. At the outset of the hearing, the court commented
that it was hard “to envision” how a request to mandate sexreassignment surgery could be granted through anything
other than a permanent injunction. Nonetheless, the district
court evaluated Edmo’s motion under the preliminary
injunction standard and, only out of “an abundance of
caution,” provided a footnote evaluating whether an
injunction was merited under the more demanding standard
for a permanent injunction (which the court erroneously
described as “no more rigorous than that applicable to a
claim for preliminary mandatory relief”). Edmo v. Idaho
Dep’t of Corr., 358 F. Supp. 3d 1103, 1122 n.1 (D. Idaho
2018); see Edmo v. Corizon, Inc., 935 F.3d 757, 784 n.13
(9th Cir. 2019) (“[T]he standard for granting permanent
injunctive relief is higher (in that it requires actual success
on the merits) . . . .”).
In addition to testimony from Edmo, Dr. Eliason, and
Jeremy Clark, the evidentiary hearing featured testimony
from four expert witnesses. Edmo presented Dr. Randi
Ettner, a psychologist, and Dr. Ryan Gorton, an emergency

(9 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 10 of 48

10

EDMO V. CORIZON

room physician. Dr. Ettner is one of the authors of the World
Professional Association of Transgender Health’s Standards
of Care for the Health of Transsexual, Transgender, and
Gender Nonconforming People and chairs WPATH’s
Committee for Institutionalized Persons. Dr. Gorton serves
on that committee too. WPATH—formerly the Harry
Benjamin International Gender Dysphoria Association—
describes itself as a “professional association” devoted “to
developing best practices and supportive policies worldwide
that promote health, research, education, respect, dignity,
and equality for transsexual, transgender, and gender
nonconforming people in all cultural settings.” World Prof’l
Ass’n for Transgender Health, Standards of Care for the
Health of Transsexual, Transgender, and GenderNonconforming People 1 (7th ed. 2011) (“WPATH
Standards”). One of WPATH’s central functions is to
promulgate Standards of Care, which offer minimalist
treatment criteria for several possible approaches to gender
dysphoria, from puberty-blocking hormones to sexreassignment surgery.
In addition to Dr. Eliason and Mr. Clark, the State
presented Dr. Keelin Garvey, the Chief Psychiatrist of the
Massachusetts Department of Corrections and chair of its
Gender Dysphoria Treatment Committee, and Dr. Joel
Andrade, a clinical social worker who served as clinical
director for the Massachusetts Department of Corrections
and served on its Gender Dysphoria Treatment Committee.
Each set of experts had gaps in their relevant experience.
Edmo’s experts had never treated inmates with gender
dysphoria, while the State’s experts had never conducted
long-term follow-up care with a patient who had undergone
sex-reassignment surgery.

(10 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 11 of 48

EDMO V. CORIZON

11

Edmo’s experts testified that, in their opinion, Edmo
needs sex-reassignment surgery.
They based their
conclusion on the latest edition of WPATH Standards of
Care, which contain six criteria for sex-reassignment
surgery:
(1) “persistent, well documented gender dysphoria,”
(2) “capacity to make a fully informed decision and to
consent for treatment,”
(3) “age of majority,”
(4) “if significant medical or mental health concerns are
present, they must be well controlled,”
(5) “12 continuous months of hormone therapy as
appropriate to the patient’s gender goals,”
(6) “12 continuous months of living in a gender role that
is congruent with their gender identity.”
Id. at 60. In the opinion of Edmo’s experts, Edmo met all
six criteria and was unlikely to show further improvement in
her gender dysphoria without such surgery.
The State’s experts disagreed on three main grounds.
First, they did not regard the WPATH Standards as definitive
treatment criteria, let alone medical consensus. In their
analysis, the evidence underlying the WPATH Standards is
not sufficiently well developed, particularly when it comes
to the treatment of gender dysphoric prisoners. Therefore,
they opined that a prudent, competent doctor might rely on
clinical judgment that differs from the (already ambiguous)
WPATH Standards. Second, the State’s experts testified
that, even under WPATH, Edmo failed to meet the fourth

(11 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 12 of 48

12

EDMO V. CORIZON

criterion for surgery, which requires that the patient’s other
mental health concerns be well controlled in order to reduce
the risks associated with transitioning. In the view of the
State’s experts, her mental health raised the concern that she
would have trouble transitioning. For their part, Edmo’s
experts argued that Edmo’s depression and addiction were
controlled enough for surgery and that some current
symptoms (such as self-cutting) stem from her gender
dysphoria and therefore can be alleviated with surgery.
Finally, the State’s experts testified that Edmo also failed to
meet the WPATH Standards’ sixth criterion for surgery,
which requires that Edmo live as a woman for twelve months
before surgery. In their view, it was essential that Edmo live
those twelve months outside of prison—that is, within her
social network—in order to be adequately sure that she and
her social network are ready for the challenges posed by
transitioning.
Edmo’s experts disagreed, noting that
WPATH says treatment in prisons should “mirror” treatment
outside of prisons.
C
Although this appeal is from a grant of a preliminary
injunction, at some point the evidentiary hearing on the
motion for a preliminary injunction was consolidated into a
final bench trial on the merits. It is hard to know when (or
if) the parties were given the requisite “clear and
unambiguous notice” of consolidation. See Isaacson v.
Horne, 716 F.3d 1213, 1220 (9th Cir. 2013); see also Univ.
of Tex. v. Camenisch, 451 U.S. 390, 395 (1981).
The district court applied the Supreme Court’s oft-cited
rule that “deliberate indifference to serious medical needs of
prisoners constitutes the ‘unnecessary and wanton infliction
of pain’ proscribed by the Eighth Amendment.” Estelle v.
Gamble, 429 U.S. 97, 104 (1976) (quoting Gregg v.

(12 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 13 of 48

EDMO V. CORIZON

13

Georgia, 428 U.S. 153, 173 (1976)). The State agreed that
gender dysphoria is a serious medical need, so the only
question on the merits is whether Dr. Eliason and his team
were “deliberately indifferent” as a matter of law.
The district court concluded that the State’s experts were
“unconvincing” and gave their opinions “virtually no
weight.” Edmo, 358 F. Supp. 3d at 1125–26. Once such
expert testimony was set aside, the district court held that
any decision not to prescribe sex-reassignment surgery
would be “medically unacceptable under the circumstances”
and would therefore violate the Eighth Amendment. Id.
at 1127. Accordingly, the district court entered an injunction
ordering the State to “take all actions reasonably necessary
to provide Ms. Edmo gender confirmation surgery as
promptly as possible.” Id. at 1129.
D
The panel has now affirmed the injunction. See Edmo,
935 F.3d at 803. Concluding that sex-reassignment surgery
was “medically necessary” and that the prison officials chose
a different course of treatment “with full awareness of the
prisoner’s suffering,” the panel holds that Dr. Eliason and
the other prison officials “violate[d] the Eighth
Amendment’s prohibition on cruel and unusual
punishment.” Id.
To reach its conclusion that sex-reassignment surgery
was medically necessary, the panel spends most of its
lengthy opinion extolling and explaining the WPATH
Standards of Care. Because Dr. Eliason failed to “follow”
or “reasonably deviate from” the WPATH Standards, the
panel concluded that his treatment choice was “medically
unacceptable under the circumstances.” Id. at 792. To reach
the ultimate conclusion—that Dr. Eliason had a deliberately

(13 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 14 of 48

14

EDMO V. CORIZON

indifferent state of mind and was consequently in violation
of the Eighth Amendment—the panel posited that
Dr. Eliason’s awareness of the risks that Edmo would
attempt to castrate herself or feel “clinically significant”
distress “demonstrates that Dr. Eliason acted with deliberate
indifference.” Id. at 793. Each conclusion was legal error.
II
“Deliberate indifference is a high legal standard.”
Toguchi v. Chung, 391 F.3d 1051, 1060 (9th Cir. 2004). It
is, after all, under governing precedent one form of the
“unnecessary and wanton infliction of pain” that is the sine
qua non of an Eighth Amendment violation. Estelle,
429 U.S. at 104 (quoting Gregg v. Georgia, 428 U.S. 153,
173 (1976)).
Simply put, Edmo must prove that
Dr. Eliason’s chosen course of treatment was the doing of a
criminally reckless—or worse—state of mind. Farmer v.
Brennan, 511 U.S. 825, 839 (1994).
We have stated that a deliberately indifferent state of
mind may be inferred when “the course of treatment the
doctors chose was medically unacceptable under the
circumstances” and “they chose this course in conscious
disregard of an excessive risk to plaintiff’s health.” Jackson
v. McIntosh, 90 F.3d 330, 332 (9th Cir. 1996). Yet even
most objectively unreasonable medical care is not
deliberately indifferent.
“[M]ere ‘indifference,’
‘negligence,’ or ‘medical malpractice’” is not enough to
constitute deliberate indifference. Lemire v. Cal. Dep’t of
Corr. & Rehab., 726 F.3d 1062, 1082 (9th Cir. 2013)
(quoting Broughton v. Cutter Labs., 622 F.2d 458, 460 (9th
Cir. 1980)). “Even gross negligence is insufficient to
establish deliberate indifference . . . .” Id. Likewise, “[a]
difference of opinion between a physician and the prisoner—
or between medical professionals—concerning what

(14 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 15 of 48

EDMO V. CORIZON

15

medical care is appropriate does not amount to deliberate
indifference.” Snow v. McDaniel, 681 F.3d 978, 987 (9th
Cir. 2012) (citing Sanchez v. Vild, 891 F.2d 240, 242 (9th
Cir. 1989)), overruled on other grounds by Peralta v.
Dillard, 744 F.3d 1076, 1083 (9th Cir. 2014) (en banc).
Although the panel organizes its opinion according to the
dictum we first articulated in Jackson, it so contorts the
standard as to render deliberate indifference exactly what we
have said it is not: a constitutional prohibition on good-faith
disagreement between medical professionals.
A
The panel first, and fundamentally, errs by
misunderstanding what it means for a chosen treatment to be
medically “unacceptable” for purposes of the Eighth
Amendment. As did the district court, the panel concludes
that the decision to continue hormone treatment and
counseling instead of sex-reassignment surgery for Edmo
was “medically unacceptable under the circumstances”
because, in short, Dr. Eliason failed to “follow” or
“reasonably deviate from” the WPATH Standards of Care.
Edmo, 935 F.3d at 792. Yet such an approach to the Eighth
Amendment suffers from three essential errors. First,
contrary to the panel’s suggestion, constitutionally
acceptable medical care is not defined by the standards of
one organization. Second, the panel relies on standards that
were promulgated by a controversial self-described
advocacy group that dresses ideological commitments as
evidence-based conclusions. Third, once the WPATH
Standards are put in proper perspective, we are left with a
“case of dueling experts,” compelling the conclusion that Dr.
Eliason’s treatment choice was indeed medically acceptable.

(15 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 16 of 48

16

EDMO V. CORIZON
1

A mere professional association simply cannot define
what qualifies as constitutionally acceptable treatment of
prisoners with gender dysphoria. In Bell v. Wolfish, 441 U.S.
520 (1979), the Supreme Court rejected the argument that
prison conditions must reflect those set forth in the American
Public Health Association’s Standards for Health Services in
Correctional Institutions, the American Correctional
Association’s Manual of Standards for Adult Correctional
Institutions, or the National Sheriffs’ Association’s
Handbook on Jail Architecture. Id. at 543 n.27. According
to the Court, “the recommendations of these various groups
may be instructive in certain cases, [but] they simply do not
establish the constitutional minima.” Id. After all, even
acclaimed, leading treatment criteria only represent the
“goals recommended by the organization in question” and
the views of the promulgating physicians, 4 and so, without
more, a physician’s disagreement with such criteria is simply
the “‘difference of medical opinion’ . . . [that is] insufficient,
as a matter of law, to establish deliberate indifference.” Id.;
Jackson, 90 F.3d at 332 (quoting Sanchez, 891 F.2d at 242);
accord Snow, 681 F.3d at 987; see also Long v. Nix, 86 F.3d
761, 765 (8th Cir. 1996) (“[N]othing in the Eighth
Amendment prevents prison doctors from exercising their
independent medical judgment.”).
In its discussion of the role of treatment standards, the
panel fails to cite a single case in which a professional
organization’s standards of care defined the line between
medically acceptable and unacceptable treatment. Instead,
the panel cites two cases, one from the Seventh Circuit and
Although, as we will see, only half of the committee that
promulgates the WPATH Standards are physicians.
4

(16 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 17 of 48

EDMO V. CORIZON

17

one from the Eighth, for the proposition that professional
organizations’ standards of care are “highly relevant in
determining what care is medically acceptable and
unacceptable.” Edmo, 935 F.3d at 786 (emphasis added).
That may be. But as those two cases demonstrate, the range
of medically acceptable care is defined by qualities of that
care (or of its opposite) and not by professional associations.
Medically unacceptable care is “grossly incompetent or
inadequate care,” Allard v. Baldwin, 779 F.3d 768, 772 (8th
Cir. 2015), or care that constitutes “such a substantial
departure from accepted professional judgment to
demonstrate that the person responsible did not base the
decision on . . . [accepted professional] judgment,”
Henderson v. Ghosh, 755 F.3d 559, 566 (7th Cir. 2014)
(original parenthetical) (quoting McGee v. Adams, 721 F.3d
474, 481 (7th Cir. 2013) (stipulating that “medical
professionals . . . are ‘entitled to deference in treatment
decisions unless no minimally competent professional
would have so responded’”)). For its part, the First Circuit
holds in its own sex-reassignment-surgery case that medical
care does not violate the Eighth Amendment so long as it is
“reasonably commensurate with the medical standards of
prudent professionals.” Kosilek v. Spencer, 774 F.3d 63, 90
(1st Cir. 2014) (en banc). The panel is alone in its insistence
that a professional association’s standards add up to the
constitutional minima. 5

Far from countering such assertions, the panel’s concession that
“deviation from [WPATH] standards does not alone establish an Eighth
Amendment claim” is just a truism that recognizes that the Eighth
Amendment also contains a subjective element. Edmo, 935 F.3d at 789.
Moreover, such a statement serves simply to repeat the panel’s faulty
premise that the WPATH Standards are the appropriate reference point
in any analysis of medical acceptability.
5

(17 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 18 of 48

18

EDMO V. CORIZON
2

In the words of the panel, speaking for our court, the
WPATH Standards are “the gold standard,” the “established
standards” for evaluations of the necessity of sexreassignment surgery, the “undisputed starting point in
determining the appropriate treatment for gender dysphoric
individuals.” Edmo, 935 F.3d at 787–88, 788 n.16. But such
overwrought acclaim is just the beginning of the panel’s
thorough enshrinement of the WPATH Standards. The
district court chose which expert to rely on by looking at
which expert hewed most closely to the WPATH Standards
of Care. See Edmo, 358 F. Supp. 3d at 1124–26. And the
panel uncritically approves such an approach, calling the
WPATH Standards “a useful starting point for analyzing the
credibility and weight to be given to each expert’s opinion.”
Edmo, 935 F.3d at 788 n.16. By rejecting any expert not (in
the court’s view) appropriately deferential to WPATH, the
district court and now the panel have effectively decided ab
initio that only the WPATH Standards could constitute
medically acceptable treatment. 6
In enshrining the WPATH Standards as the “gold standard” for
determining when to provide surgery to a prisoner with gender
dysphoria, the panel makes much of the State’s comment in its opening
statement before the evidentiary hearing that the WPATH Standards are
the “best standards out there.” Edmo, 935 F.3d at 769, 788 n.16. The
panel even goes so far as to insist that “[b]oth sides . . . agree that the
appropriate benchmark regarding treatment for gender dysphoria is the
World Professional Association of Transgender Health Standards of
Care for the Health of Transsexual, Transgender, and Gender
Nonconforming People.” Id. at 767. But, contrary to the panel’s
suggestion, the State’s admission that the WPATH Standards are more
refined than any alternative hardly means that the State agrees—or the
Eighth Amendment requires—that a medical provider must base
treatment decisions on WPATH’s criteria. Indeed, before the district
6

(18 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 19 of 48

EDMO V. CORIZON

19

One would be forgiven for inferring from the panel’s
opinion that its bold assertions about the WPATH Standards
are uncontroverted truths. But, as the Fifth Circuit has
recognized, “the WPATH Standards of Care reflect not
consensus, but merely one side in a sharply contested
medical debate over sex reassignment surgery.” Gibson v.
Collier, 920 F.3d 212, 221 (5th Cir. 2019). For its part, the
First Circuit, sitting en banc, has likewise held that
“[p]rudent medical professionals . . . do reasonably differ in
their opinions regarding [WPATH’s] requirements.”
Kosilek, 774 F.3d at 88. Our court should have done the
same.
The WPATH Standards are merely criteria promulgated
by a controversial private organization with a declared point
of view. According to Dr. Stephen Levine, author of the
WPATH Standards’ fifth version, former Chairman of
WPATH’s Standards of Care Committee, and the courtappointed expert in Kosilek, WPATH attempts to be “both a
scientific organization and an advocacy group for the
transgendered. These aspirations sometimes conflict.” Id. at
78. Sometimes the pressure to be advocates wins the day.
As Levine put it, “WPATH is supportive to those who want
sex reassignment surgery. . . . Skepticism and strong
alternate views are not well tolerated. Such views have been
known to be greeted with antipathy from the large numbers
of nonprofessional adults who attend each [of] the
organization’s biennial meetings . . . .” Id. (ellipses and
court and before our court, the State clearly rejected the notion that any
particular treatment criteria defines what is medically acceptable, stating
that Dr. Eliason’s choice “should be ratified as long as it is a reasonable
choice.” The panel erroneously construes the State’s refusal to concede
that it violated the WPATH Standards as a concession that such
standards are the “benchmark” of legally acceptable medical care.

(19 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 20 of 48

20

EDMO V. CORIZON

brackets original). WPATH’s own description of its drafting
process makes this clear. Initially, the sections of the sixth
version were each assigned to an individual member of
WPATH who then published a literature review with
suggested revisions. WPATH Standards, supra, at 109. The
suggested revisions were then discussed and debated by a
thirty-four-person Revision Committee, all before a
subcommittee drafted the new document. Id. at 109–11.
Only about half of the Revision Committee possesses a
medical degree. The rest are sexologists, psychotherapists,
or career activists, with a sociologist and a law professor
rounding out the group. Id. at 111.
The pressure to be advocates appears to have won the
day in the WPATH Standards’ recommendations regarding
institutionalized persons. Recall that one central point of
contention between the State’s witnesses and Edmo’s was
over whether Edmo’s time undergoing hormone therapy in
prison provides sufficient guarantee that she could live well
outside of prison as a woman without having ever done so
before. The district court resolved the debate by citing the
WPATH Standards’ section on institutionalized persons, see
Edmo, 358 F. Supp. 3d at 1125, which tersely stipulates that
institutionalized persons should not be “discriminated
against” on the basis of their institutionalization, WPATH
Standards, supra, at 67. Such a recommendation is not
supported by any research about the similarity between
prisoners’ experiences with sex-reassignment surgery and
that of the general public. Indeed, as Edmo’s expert witness
and WPATH author, Dr. Randi Ettner, admits, there is only
one known instance of a person undergoing sexreassignment surgery while incarcerated—leaving medical
knowledge about how such surgery might differ totally
undeveloped.

(20 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 21 of 48

EDMO V. CORIZON

21

Instead, WPATH’s recommendation for institutionalized
persons merely expresses a policy preference. The article
from which the recommendations are adapted stipulates
upfront that, because WPATH’s “mission” is “to advocate
for nondiscriminatory” care, it presumes that treatment
choices should be the same for all “demographic variables,
unless there is a clinical indication to provide services in a
different fashion.” George R. Brown, Recommended
Revisions to the World Professional Association for
Transgender Health’s Standards of Care Section on Medical
Care for Incarcerated Persons with Gender Identity
Disorder, 11 Int’l J. of Transgenderism 133, 134 (2009).
Unable to make an evidentiary finding from a sample size of
one, the article concludes that its presumption should set the
standard of care and then proceeds to recommend revisions
with the express purpose of influencing how courts review
gender dysphoria treatments under the Eighth Amendment.
Id. at 133, 135. As a later peer-reviewed study by
Dr. Cynthia Osborne and Dr. Anne Lawrence put it,
WPATH’s institutionalized-persons recommendations
follow from an “ethical principle,” not “extensive clinical
experience.” Cynthia S. Osborne & Anne A. Lawrence,
Male Prison Inmates With Gender Dysphoria: When Is Sex
Reassignment Surgery Appropriate?, 45 Archives of Sexual
Behav. 1649, 1651 (2016).
Even apart from the concerns over WPATH’s
ideological commitments, its evidentiary basis is not
sufficient to justify the court’s reliance on its strict terms.
The WPATH Standards seem to suggest as much. In its own
words, the WPATH Standards are simply “flexible clinical
guidelines,” which explicitly allow that “individual health
professionals and programs may modify them.” WPATH
Standards, supra, at 2. Indeed, the most recent WPATH
Standards “represents a significant departure from previous

(21 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 22 of 48

22

EDMO V. CORIZON

versions” in part due to significant changes in researchers’
conclusions over the preceding decade. Id. at 1 n.2.
Moreover, the WPATH Standards lack the evidence-based
grading system that characterizes archetypal treatment
guidelines, such as the Endocrine Society’s hormone therapy
guidelines. Lacking evidence-based grading, the WPATH
Standards leave practitioners in the dark about the strength
of a given recommendation. See William Byne et al., Report
of the American Psychiatric Association Task Force on
Treatment of Gender Identity Disorder, 41 Archives of
Sexual Behav. 759, 783 (2012) (concluding that “the level
of evidence” supporting WPATH’s Standards’ criteria for
sex-reassignment surgery “was generally low”). For these
reasons, the Centers for Medicare & Medicaid Services, an
agency of the United States Department of Health and
Human Services, decided, “[b]ased on a thorough review of
the clinical evidence,” that providers may consult treatment
criteria other than WPATH, including providers’ own
criteria. Ctrs. for Medicare & Medicaid Servs, Proposed
Decision Memo for Gender Dysphoria and Gender
Reassignment Surgery (June 2, 2016); Ctrs. for Medicare &
Medicaid Servs, Decision Memo for Gender Dysphoria and
Gender Reassignment Surgery (Aug. 30, 2016).
3
The panel’s disposition results from its failure to put the
WPATH Standards in proper perspective. Had the district
court understood that Edmo’s experts’ role in WPATH
marks them not with special insight into the legally
acceptable care, but rather as mere participants in an ongoing
medical debate, they would have acknowledged this case for
what it is: a “case of dueling experts.” Edmo, 935 F.3d
at 787. Instead of giving Drs. Garvey and Andrade (to say
nothing of Dr. Eliason) “no weight” due to their insufficient

(22 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 23 of 48

EDMO V. CORIZON

23

fealty to WPATH, the district court should have recognized
them as legitimate, experienced participants in that debate.
And had the State’s experts’ criticisms of and interpretation
of the WPATH Standards been given proper weight—any
weight at all—the district court would have had to conclude
that the State’s disagreement with Edmo’s experts was a
mere “difference of medical opinion,” not a constitutional
violation. Jackson, 90 F.3d at 332.
So too with its assessment of Dr. Eliason’s treatment
choice. It is instructive that the worst the district court can
say about Dr. Eliason is that he “did not apply the WPATH
criteria.” Edmo, 358 F. Supp. 3d at 1126. Focusing the
analysis not on whether Dr. Eliason applied the standards of
a professional association but rather on whether the
treatment choice was within that of a prudent, competent
practitioner, the cautious treatment selected by Dr. Eliason
is plainly constitutionally acceptable.
As Drs. Garvey and Andrade explain, it is medically
acceptable to offer Edmo a treatment of hormone therapy
and psychotherapy but not sex-reassignment surgery. The
practitioners’ fear that sex-reassignment surgery would
exacerbate Edmo’s other mental illnesses and increase the
risk of surgery was a genuine and sound fear. As Dr. Garvey
put it, “[b]ased on her current coping strategies, I would be
concerned about her suicide risk after surgery.” Although
the measured “regret rate,” which refers to the proportion of
postoperative patients who regret their surgery, is “low,” see
Edmo, 935 F.3d at 771, the district court and the panel failed
to acknowledge detailed testimony that those studies
neglected to follow up with such a high proportion of the
observed sample that the stated figure does not “represent
the full picture.” In Dr. Andrade’s opinion, “I think there are
things she needs to work out in therapy in the short and long

(23 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 24 of 48

24

EDMO V. CORIZON

term before she can make a really well-informed decision
about surgery.” He raised the concern that Edmo is
particularly at risk because of “unresolved trauma” that may
stem, not from gender dysphoria, but instead from past
sexual abuse.
Dr. Eliason’s view that Edmo needed to have lived as a
woman outside of prison in order to ensure that she would
be able to adapt well after the surgery was also legitimate.
Indeed, under the peer-reviewed treatment criteria
developed by Drs. Osborne and Lawrence, Edmo was not
eligible for sex-reassignment surgery for these exact reasons.
Acknowledging the lack of evidence concerning the effects
of sex-reassignment surgery on inmates, the unique
challenges imposed by the correctional setting, and the
significant risk of patient regret, Drs. Osborne and Lawrence
proposed criteria that require a prospective patient have “a
satisfactory disciplinary record and demonstrated capacity to
cooperate” and “a long period of expected incarceration after
[surgery],” among others. Osborne & Lawrence, supra,
at 1661. This latter criterion helps to ensure that male-tofemale patients have “a longer period of time to consolidate
one’s feminine gender identity and gender role.” Id. at 1660;
see also id. at 1656 (“[I]nmates with [gender dysphoria] who
attempt to live in female-typical gender roles within men’s
prisons . . . could not effectively prepare” for life after
surgery.) The district court disregarded such additional,
peer-reviewed treatment criteria because they “are not part
of the WPATH criteria and are in opposition to the WPATH
Standards of Care.” Edmo, 358 F. Supp. 3d at 1126. Had
the district court taken a step back and considered not
whether Osborne and Lawrence were WPATH-compliant
but rather whether a competent physician could rely on their
reasoning, it would have had to conclude that Dr. Eliason’s
treatment choice was that of a competent, prudent physician.

(24 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 25 of 48

EDMO V. CORIZON

25

Perhaps recognizing such problems with the district
court’s definition of medical unacceptability, the panel
concludes its medical-unacceptability analysis by changing
the subject. Instead of considering whether Dr. Eliason’s
choice of treatment was medically unacceptable, the panel
fixates on Dr. Eliason’s chart notes, which sets forth three
general categories in which he believes sex-reassignment
surgery may be required: (1) “Congenital malformation or
ambiguous genitalia,” (2) “Severe and devastating dysphoria
that is primarily due to genitals,” (3) or “Some type of
medical problem in which endogenous sexual hormones
were causing severe physiological damage.” According to
the panel, such categories “bear little resemblance” to the
WPATH Standards and therefore “Dr. Eliason’s evaluation
was not an exercise of medically acceptable professional
judgment.” Edmo, 935 F.3d at 791–92. In the first place,
Dr. Eliason’s categories are not meant to substitute for
treatment standards. Such categories describe three broad
pools of eligible patients; whether a particular patient
belongs in a certain pool—by having dysphoria sufficiently
severe to require sex-reassignment surgery, for instance—
would be resolved by more detailed evaluative criteria. In
the second place, conformity to WPATH is not the test of
constitutionally acceptable treatment of gender dysphoria.
But more broadly, the panel simply asks the wrong question.
Deliberate indifference may be inferred when “the course of
treatment the doctors chose was medically unacceptable
under the circumstances,” not when the doctors’
contemporaneous explanation of the choice is incomplete.
Jackson, 90 F.3d at 332 (emphasis added); see also Snow,
681 F.3d at 988; Toguchi, 391 F.3d at 1058; Hamby v.
Hammond, 821 F.3d 1085, 1092 (9th Cir. 2016) (all referring
to the “course of treatment,” not the rationale). It does not
matter that Dr. Eliason’s testimony justifies his treatment
choice in ways not explicit in his chart notes such that the

(25 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 26 of 48

26

EDMO V. CORIZON

panel calls his testimony a “post hoc explanation.” Edmo,
935 F.3d at 791. So long as the ultimate treatment choice
was medically acceptable, our precedents tell us, we cannot
infer “the unnecessary and wanton infliction of pain” that
violates the Eighth Amendment.
B
Even were the panel correct that the only medically
acceptable way to approach a gender dysphoric patient’s
request for sex-reassignment surgery is to apply the WPATH
Standards of Care, we still could not infer a constitutional
violation from these facts. As the Supreme Court has
explained, the Eighth Amendment simply proscribes
categories of punishment, and punishment is “a deliberate
act intended to chastise or deter.” Wilson v. Seiter, 501 U.S.
294, 299–300 (1991). “[O]nly the ‘unnecessary and wanton
infliction of pain’ implicates the Eighth Amendment.” Id.
at 297 (quoting Estelle, 429 U.S. at 104) (emphasis original).
Hence the commonplace deliberate-indifference inquiry,
which is a culpability standard equivalent to criminal
recklessness. Farmer, 511 U.S. at 839–40. Simply put,
unless the official “knows of and disregards an excessive
risk to inmate health and safety,” he does not violate the
Eighth Amendment. Id. at 837.
1
With little explanation, the panel castigates Dr. Eliason
for having “disregarded” risks that he directly and
forthrightly addressed. Edmo, 935 F.3d at 793. Far from
disregarding the risk that Edmo would attempt to castrate
herself, Dr. Eliason investigated the causes of such a risk and
took concrete steps to mitigate it. Edmo’s self-harm
(including her castration attempts) followed closely after her
disciplinary infractions and other severe stressors.

(26 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 27 of 48

EDMO V. CORIZON

27

Identifying this causal connection, Dr. Eliason prescribed
and encouraged regular counseling to address Edmo’s acting
out and her ability to cope. Dr. Eliason also sought to further
deter self-castration by explaining to Edmo that she will
need to have intact genitals for any eventual surgery,
something Edmo now understands and articulated in her
testimony. Likewise, contrary to the panel’s conclusion that
he disregarded the risk of continued distress, Dr. Eliason
opted for a treatment of continued hormone therapy and
more regular supportive counseling precisely because
hormone therapy had already substantially ameliorated the
distress from the dysphoria.
Furthermore, the panel errs by fixating on such
individual risks. Physicians ministrate to whole individuals
with whole diseases. Thus, individual risks may—and
frequently do—persist for the sake of the overall health of
the person. Dr. Eliason and his staff clearly believed their
treatment choice would mitigate overall risk, including
grave risks the panel downplays. Given Edmo’s long-term
struggles with severe depression and addiction, coupled with
the fact that she had not lived as a woman within her social
network, Eliason and the other doctors with whom he staffed
the evaluation were concerned that she would have trouble
adjusting after surgery, which could lead to regret, relapse,
or new mood disorders. Ultimately, they worried that she
might attempt suicide again. Such risks are not trifling and,
in light of them, Dr. Eliason’s willingness to accept some
risk that Edmo would try to castrate herself or would
continue to feel the distress of gender dysphoria (while
taking steps to mitigate such risks) is anything but
deliberately indifferent.

(27 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 28 of 48

28

EDMO V. CORIZON
2

None of this is to acquiesce in the straw-man argument
set up by the panel: that, so long as officials provide some
care, they are immunized from an Eighth Amendment claim.
One may assume that some medical care is indeed so
obviously inadequate that, without any direct evidence of the
defendant’s state of mind, we may infer that the defendant
was deliberately indifferent. See Farmer, 511 U.S. at 842
(remarking that deliberate indifference is “subject to
demonstration in the usual ways, including inference from
circumstantial evidence” and may be inferred “from the very
fact that the risk was obvious”). 7 But that is not this case.
Even in a legal universe in which the WPATH Standards
define adequate care, Dr. Eliason’s deviations were not
deliberately indifferent. He selected a course of treatment
that, in light of the complex of diagnoses, the grave risks,
and the rapidly evolving nature of the medical research, was
It should, however, be noted that the panel fails to identify a
precedent of ours in which we have inferred a physician’s deliberate
indifference solely from the inadequate nature of the treatment and the
persistence of known risks. In the nearest cases, some other
circumstantial evidence has suggested the obviousness of the inadequacy
such that the physician must have been aware of the inadequacy. E.g.,
Snow, 681 F.3d at 988 (non-specialist refused the recommendation of a
treating specialist); Hamilton v. Endell, 981 F.2d 1062, 1067 (9th Cir.
1992) (same); Lopez v. Smith, 203 F.3d 1122, 1132 (9th Cir. 2000)
(same); Hunt v. Dental Dep’t, 865 F.2d 198, 201 (9th Cir. 1989) (refusal
to replace the dentures prisoner had been prescribed); Jett v. Penner,
439 F.3d 1091, 1098 (9th Cir. 2006) (prisoner not referred to specialist
for reasons unrelated to the prisoner’s medical needs and medical records
were manipulated); Colwell v. Bannister, 763 F.3d 1060, 1070 (9th Cir.
2014) (reliance on arbitrary prison policy). I do not doubt that mere
inadequacy may raise the inference of deliberate indifference, but we
seem to leave such an inference for cases of genuine quackery.
7

(28 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 29 of 48

EDMO V. CORIZON

29

not obviously inadequate. Cf. Lemire, 726 F.3d at 1075 (“A
prison official’s deliberately indifferent conduct will
generally ‘shock the conscience’ so long as the prison
official had time to deliberate before acting . . . .”). He
subjected his assessment to a review process intended to
surface any possibility he was not considering, a review
process that included several doctors and a full committee.
And far from being an “unjustifiable” or “gross” deviation
from the WPATH Standards, he departed from WPATH by
raising the Standards’ own concerns for the presence of
comorbid conditions and the patient’s limited experience as
a woman. See Farmer, 511 U.S. at 839 (incorporating the
Model Penal Code’s definition of criminal recklessness);
Model Penal Code § 2.02(2)(c) (1985) (stating that the
criminally reckless individual “disregards a substantial and
unjustifiable risk” and that such disregard “involves a gross
deviation from the standard of conduct that a law-abiding
person would observe in the actor’s situation.”). Indeed, the
panel concludes that his deviations were simply not
“reasonable”—the test for negligent malpractice, not
deliberate indifference. Edmo, 935 F.3d at 792. “Eighth
Amendment liability requires ‘more than ordinary lack of
due care . . . .’” Farmer, 511 U.S. at 835 (quoting Whitley v.
Albers, 475 U.S. 312, 319 (1986)).
III
The panel’s novel approach to Eighth Amendment
claims for sex-reassignment surgery conflicts with every
other circuit to consider the issue. The panel acknowledges
such a circuit split with the Fifth Circuit’s opinion in Gibson
v. Collier, 920 F.3d 212 (5th Cir. 2019), but tries—and
fails—to distinguish the First Circuit’s en banc opinion in
Kosilek v. Spencer, 774 F.3d 63 (1st Cir. 2014). See Edmo,
935 F.3d at 794–95. The panel does not even address a third

(29 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 30 of 48

30

EDMO V. CORIZON

decision: the Tenth Circuit’s opinion in Lamb v. Norwood,
899 F.3d 1159 (10th Cir. 2018).
Just as in this case, the First Circuit considered an appeal
of an injunction mandating sex-reassignment surgery. But,
unlike our court, the First Circuit reversed. Though the panel
attempts to downplay the direct conflict between its opinion
and Kosilek by pointing to minor differences between the
factual circumstances in each case, 8 the decisive differences
are matters of law. As to whether the care was medically
unacceptable, the First Circuit held that medically acceptable
treatment of gender dysphoric prisoners is not synonymous
with the demands of WPATH. Kosilek first reversed the
district court’s finding that one of the State’s experts was
“illegitimate” because the district court “made a
significantly flawed inferential leap: it relied on its own—
non-medical—judgment” and put too much “weight” on the
WPATH Standards. Kosilek, 774 F.3d at 87–88. With that
expert now taken seriously, the First Circuit held that the
denial of Kosilek’s sex-reassignment surgery was medically
The differences between the circumstances in Kosilek and those in
this case are not substantial enough to distinguish the holdings. The
clinical judgments in each case were motivated by concerns about
coexisting mental health conditions and the risk of suicide. Kosilek,
774 F.3d at 72. Just as in this case, Kosilek surfaced expert opinions that
the WPATH Standards are best applied flexibly, that in-prison
experience in the newly assigned gender is not a sufficient guarantee of
ability to transition, and that practitioners face a “dearth of empirical
research” on sex-reassignment surgery. Id. at 72–73, 76. The “security
concerns” over how to house a potential postoperative Kosilek, which
the panel considers the foremost difference between the two cases, was
not even essential to Kosilek’s holding. See Edmo, 935 F.3d at 794;
Kosilek, 774 F.3d at 91–92 (concluding that the officials’ “choice of a
medical option . . . does not exhibit a level of inattention or callousness
to a prisoner’s needs rising to a constitutional violation” before even
analyzing the security concerns).
8

(30 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 31 of 48

EDMO V. CORIZON

31

acceptable because it was within the bounds of “the medical
standards of prudent professionals.” Id. at 90. On the
question of deliberate indifference, the First Circuit applied
a test, which, unlike the panel’s inference from the
practitioners’ mere knowledge that a course of treatment
carried risks, asked whether the practitioners “knew or
should have known” that course of treatment was medically
unacceptable. Id. at 91.
For its part, the Fifth Circuit has held that good faith
denial of sex-reassignment surgery never violates the Eighth
Amendment.
Recognizing “large gaps” in medical
knowledge and a “robust and substantial good faith
disagreement dividing respected members of the expert
medical community,” the Fifth Circuit concluded that “there
can be no claim [for sex-reassignment surgery] under the
Eighth Amendment.” Gibson, 920 F.3d at 220, 222. Indeed,
Texas’s refusal to even evaluate the inmate for sexreassignment surgery is, in the words of the Fifth Circuit, not
“so unconscionable as to fall below society’s minimum
standards of decency” and permit an Eighth Amendment
claim. Id. at 216 (quoting Kosilek, 774 F.3d at 96).
Finally, the Tenth Circuit has upheld the entry of
summary judgment against a prisoner’s Eighth Amendment
claim for sex-reassignment surgery. See Lamb, 899 F.3d
at 1163. As in this case, the doctor who evaluated the
prisoner in Lamb determined that “surgery is impractical and
unnecessary in light of the availability and effectiveness of
more conservative therapies.” Id. Adopting Kosilek’s
subjective standard—that an Eighth Amendment violation
would take place “only if prison officials had known or
should have known” that “sex reassignment surgery [was]
the only medically adequate treatment”—the Tenth Circuit
held that “prison officials could not have been deliberately

(31 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 32 of 48

32

EDMO V. CORIZON

indifferent by implementing the course of treatment
recommended by a licensed medical doctor.” Id. at 1163 &
n.11 (citing Kosilek, 774 F.3d at 91).
Although I am not aware of any other circuits to have
directly addressed the questions posed in this case, 9 for its
part, the Seventh Circuit has held that it is at least not
“clearly established” that there is a constitutional right to
gender-dysphoria treatment beyond hormone therapy.
Campbell v. Kallas, 936 F.3d 536, 549 (7th Cir. 2019). Nor
is it “clearly established” that a prison medical provider is
prohibited from denying sex-reassignment surgery on the
basis of the patient’s status as an institutionalized person. Id.
at 541, 549.
With this decision, our circuit sets itself apart.
IV
I do not know whether sex-reassignment surgery will
ameliorate or exacerbate Adree Edmo’s suffering.
Fortunately, the Constitution does not ask federal judges to
put on white coats and decide vexed questions of psychiatric
medicine. The Eighth Amendment forbids the “unnecessary
and wanton infliction of pain,” not the “difference of opinion
between a physician and the prisoner—or between medical

The Seventh and Fourth Circuits (along with our own circuit) have
also held that arbitrary blanket bans on certain gender dysphoria
treatments can violate the Eighth Amendment—an issue not presented
here because Idaho evaluates prisoner requests for sex-reassignment
surgery on a case-by-case basis. See Rosati v. Igbinoso, 791 F.3d 1037,
1040 (9th Cir. 2015); De’lonta v. Johnson, 708 F.3d 520, 526 (4th Cir.
2013); Fields v. Smith, 653 F.3d 550, 556 (7th Cir. 2011).
9

(32 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 33 of 48

EDMO V. CORIZON

33

professionals.” Snow, 681 F.3d at 985, 987 (quoting Estelle,
429 U.S. at 104).
Yet today our court assumes the role of Clinical
Advisory Committee. Far from rendering an opinion
“individual to Edmo” that “rests on the record,” Edmo,
935 F.3d at 767, the panel entrenches the district court’s
unfortunate legal errors as the law of this circuit. Instead of
permitting prudent, competent patient care, our court
enshrines the WPATH Standards as an enforceable “medical
consensus,” effectively putting an ideologically driven
private organization in control of every relationship between
a doctor and a gender dysphoric prisoner within our circuit.
Instead of reserving the Eighth Amendment for the grossly,
unjustifiably reckless, the panel infers a culpable state of
mind from the supposed inadequacy of the treatment.
We have applied the traditional deliberate-indifference
standard to requests for back surgery, kidney transplant, hip
replacement, antipsychotic medication, and hernia surgery.
Yet suddenly the request for sex-reassignment surgery—and
the panel’s closing appeal to what it calls the “increased
social awareness” of the needs and wants of transgender
citizens—effects a revolution in our law! Id. at 803. The
temptation to stand at what we are told is society’s next
frontier and to invent a constitutional right to state-funded
sex-reassignment surgery does not justify the revision of
previously universal principles of Eighth Amendment
jurisprudence.
Dr. Eliason and the State’s other practitioners were not
deliberately indifferent—far from it. And they certainly
were not guilty of violating the Eighth Amendment. They
confronted the serious risks to Edmo’s health, especially the
gravest one. They considered the knotty quandary posed by
her overlapping illnesses and the vicissitudes of her life.

(33 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 34 of 48

34

EDMO V. CORIZON

Mindful of the dictate “first do no harm,” these doctors
determined that the appropriate treatment would be more
cautious and more reversible than the one the patient desired.
And they did so in the shadow of the ongoing debate about
when the surgical replacement of the genitals is curative and
when it is not.
Surely this was not cruel and unusual punishment.

COLLINS, Circuit Judge, dissenting from the denial of
rehearing en banc:
The Supreme Court has held that a prisoner claiming that
his or her medical treatment is so inadequate that it
constitutes “cruel and unusual punishment” in violation of
the Eighth Amendment must make the demanding showing
that prison officials acted with “deliberate indifference” to
the prisoner’s “serious medical needs.” Estelle v. Gamble,
429 U.S. 97, 104 (1976). As judges of an “inferior Court[],”
see U.S. Const. art. III, § 1, we are bound to apply that
standard, but as Judge Bumatay explains, the panel here
effectively waters it down into a “mere negligence” test. See
infra at 47–48 (Bumatay, J., dissenting from denial of
rehearing en banc). That is, by narrowly defining the range
of “medically acceptable” options that the court believes a
prison doctor may properly consider in a case such as this
one, and by then inferring deliberate indifference from
Dr. Eliason’s failure to agree with that narrow range, the
district court and the panel have applied standards that look
much more like negligence than deliberate indifference. Id.
at 45–48. Whether Dr. Eliason was negligent or not (a
question on which I express no opinion), his treatment
decisions do not amount to “cruel and unusual punishment,”
and we have thus strayed far from any proper understanding

(34 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 35 of 48

EDMO V. CORIZON

35

of the Eighth Amendment. I therefore join Part II of Judge
Bumatay’s dissent, and I respectfully dissent from our
failure to rehear this case en banc.

BUMATAY, Circuit Judge, with whom CALLAHAN,
IKUTA, R. NELSON, BADE, and VANDYKE, Circuit
Judges, join, and with whom COLLINS, Circuit Judge, joins
as to Part II, dissenting from the denial of rehearing en banc:
Like the panel and the district court, I hold great
sympathy for Adree Edmo’s medical situation. And as with
all citizens, her constitutional rights deserve the utmost
respect and vigilant protection. As the district court rightly
stated,
The Rule of Law, which is the bedrock of our
legal system, promises that all individuals
will be afforded the full protection of our
legal system and the rights guaranteed by our
Constitution.
This is so whether the
individual seeking that protection is black,
white, male, female, gay, straight, or, as in
this case, transgender. 1
Adree Edmo is a transgender woman suffering from
gender dysphoria—a serious medical condition. While
incarcerated in Idaho’s correctional facilities, she asked that
her gender dysphoria be treated with sex-reassignment
Edmo v. Idaho Dep’t of Corr., 358 F. Supp. 3d 1103, 1109 (D.
Idaho 2018), order clarified, No. 1:17-CV-00151-BLW, 2019 WL
2319527 (D. Idaho May 31, 2019), and aff’d in part, vacated in part,
remanded sub nom. Edmo v. Corizon, Inc., 935 F.3d 757 (9th Cir. 2019).
1

(35 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 36 of 48

36

EDMO V. CORIZON

surgery (“SRS”). After consultation with a prison doctor,
her request was denied. She then sued under the Eighth
Amendment. 2
I respect Edmo’s wishes and hope she is afforded the best
treatment possible. But whether SRS is the optimal
treatment for Edmo’s gender dysphoria is not before us. As
judges, our role is not to take sides in matters of conflicting
medical care. Rather, our duty is to faithfully interpret the
Constitution.
That duty commands that we apply the Eighth
Amendment, not our sympathies. Here, in disregard of the
text and history of the Constitution and precedent, the
panel’s decision elevates innovative and evolving medical
standards to be the constitutional threshold for prison
medical care. In doing so, the panel minimizes the standard
for establishing a violation of the Eighth Amendment.
After today’s denial of rehearing en banc, the Ninth
Circuit stands alone in finding that a difference of medical
opinion in this debated area of treatment amounts to “cruel
and unusual” punishment under the Constitution. While this
posture does not mean we are wrong, it should at least give
us pause before embarking on a new constitutional
trajectory. This is especially true given the original meaning
of the Eighth Amendment.
Because the panel’s opinion reads into the Eighth
Amendment’s Cruel and Unusual Clause a meaning in
conflict with its text, original meaning, and controlling
Because Judge O’Scannlain thoroughly recites the relevant facts in
his opinion respecting the denial of the rehearing en banc, which I join
in full, I do not reiterate them here.
2

(36 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 37 of 48

EDMO V. CORIZON

37

precedent, I respectfully dissent from the denial of rehearing
en banc.
I.
In holding that Idaho 3 violated the Eighth Amendment,
the panel opined that the Constitution’s text and original
meaning merited “little discussion.” See Edmo, 935 F.3d
at 797 n.21. I disagree.
As inferior court judges, we are bound by Supreme Court
precedent. Yet, in my view, judges also have a “duty to
interpret the Constitution in light of its text, structure, and
original understanding.” NLRB v. Noel Canning, 573 U.S.
513, 573 (2014) (Scalia, J., concurring). While we must
faithfully follow the Court’s Eighth Amendment precedent
as articulated in Estelle v. Gamble, 429 U.S. 97 (1976), and
its progeny, “[w]e should resolve questions about the scope
of those precedents in light of and in the direction of the
constitutional text and constitutional history.” Free Enter.
Fund v. Public Co. Accounting Oversight Bd., 537 F.3d 667,
698 (D.C. Cir. 2008) (Kavanaugh, J., dissenting), aff’d in
part, rev’d in part and remanded, 561 U.S. 477 (2010).
Accordingly, the Eighth Amendment’s history and
original understanding are of vital importance to this case.
A.
The Eighth Amendment provides that “[e]xcessive bail
shall not be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted.” U.S. Const. amend.
For simplicity, I collectively refer to Defendants below and
Appellants here as “Idaho.”
3

(37 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 38 of 48

38

EDMO V. CORIZON

VIII. Even just a cursory review of the amendment’s
original meaning shows that Edmo’s claims fall far below a
constitutional violation as a matter of text and original
understanding.
At the time of the Eighth Amendment’s ratification,
“cruel” meant “[p]leased with hurting others; inhuman;
hard-hearted; void of pity; wanting compassion; savage;
barbarous; unrelenting.” Bucklew v. Precythe, 139 S. Ct.
1112, 1123 (2019) (citing 1 Samuel Johnson, A Dictionary
of the English Language (4th ed. 1773); 1 Noah Webster, An
American Dictionary of the English Language (1828)
(“Disposed to give pain to others, in body or mind; willing
or pleased to torment, vex or afflict; inhuman; destitute of
pity, compassion or kindness.”)). Even today, “cruel”
punishments have been described as “inhumane,” Farmer v.
Brennan, 511 U.S. 825, 838 (1994), involving the
“unnecessary and wanton infliction of pain,” Whitley v.
Albers, 475 U.S. 312, 319 (1986) (emphasis added)
(citations omitted), or involving the “superadd[ition] of
terror, pain, or disgrace.” Bucklew, 139 S. Ct. at 1124
(emphasis added) (internal quotation marks and citations
omitted).
In the 18th Century, a punishment was “unusual” if it ran
contrary to longstanding usage or custom, or had long fallen
out of use. Bucklew, 139 S. Ct. at 1123 (citing 4 William
Blackstone, Commentaries on the Laws of England 370
(1769); Stuart Banner, The Death Penalty: An American
History 76 (2002); Baze v. Rees, 553 U.S. 35, 97 (2008)
(Thomas, J., concurring); John F. Stinneford, The Original
Meaning of “Unusual”: The Eighth Amendment as a Bar to
Cruel Innovation, 102 Nw. U. L. Rev. 1739, 1770–71, 1814
(2008)). This early understanding comports with the plain
meaning of “unusual,” which has changed little from our

(38 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 39 of 48

EDMO V. CORIZON

39

Nation’s founding. See Harmelin v. Michigan, 501 U.S.
957, 976 (1991) (comparing Webster’s American Dictionary
(1828) definition of “unusual” as that which does not
“occu[r] in ordinary practice” with Webster’s Second
International Dictionary 2807 (1954) as that which is not “in
common use.”).
Conversely, customs enjoying a long history of usage
were described as “usual” practices. Stinneford, supra,
at 1770.
James Wilson, a key contributor to the
Constitution, stated that “long customs, approved by the
consent of those who use them, acquire the qualities of a
law.” 2 James Wilson, Collected Works of James Wilson
759 (Kermit L. Hall & Mark David Hall eds., Indianapolis,
Liberty Fund 2007); see also Stinneford, supra, at 1769.
Likewise, early American courts construing the term “cruel
and unusual” (generally, as used in state constitutions)
upheld punishments that were not “unusual” in light of
common law usage. Stinneford, supra, at 1810–11 (citing
Barker v. People, 20 Johns. 457, 459 (N.Y. Sup. Ct. 1823),
aff’d, 3 Cow. 686 (N.Y. 1824); Commonwealth v. Wyatt,
27 Va. 694, 701 (Va. Gen. Ct. 1828); People v. Potter, 1
Edm. Sel. Cas. 235, 245 (N.Y. Sup. Ct. 1846)). Thus,
“[u]nder the plain meaning of the term, a prison policy
cannot be ‘unusual’ if it is widely practiced in prisons across
the country.” Gibson v. Collier, 920 F.3d 212, 226 (5th Cir.
2019).
Finally, various views have been proposed with respect
to the original meaning of “punishment” in the Eighth
Amendment. Some view the word as being inapplicable to
conditions of confinement. See, e.g., Farmer, 511 U.S.
at 837 (“The Eighth Amendment does not outlaw cruel and
unusual ‘conditions’; it outlaws cruel and unusual
‘punishments.’”) (Souter, J.). Some have even suggested

(39 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 40 of 48

40

EDMO V. CORIZON

that “punishment” refers only to sentences imposed by a
judge or jury. See Hudson v. McMillian, 503 U.S. 1, 18
(1992) (Thomas, J., dissenting); but see Helling v.
McKinney, 509 U.S. 25, 40 (1993) (Thomas, J., dissenting)
(recognizing that the “evidence is not overwhelming” on this
question). Others believe the term was originally understood
to encompass more than sentences called for by statute or
meted out from the bench or jury box, but it required
deliberate intent. See, e.g., Wilson v. Seiter, 501 U.S. 294,
300 (1991) (“The infliction of punishment is a deliberate act
intended to chastise or deter. This is what the word means
today; it is what it meant in the eighteenth century.”) (Scalia,
J.) (quoting Duckworth v. Franzen, 780 F.2d 645, 652 (7th
Cir. 1985)); see also Celia Rumann, Tortured History:
Finding Our Way Back to the Lost Origins of the Eighth
Amendment, 31 Pepp. L. Rev. 661, 675, 677 (2004)
(presenting historical evidence that the word punishment
was “understood at the time to include torturous
interrogation”) (citing 4 William Blackstone, Commentaries
on the Laws of England; 3 Jonathan Elliot, The Debates in
the Several State Conventions on the Adoption of the
Federal Constitution 447–48).
B.
While the foregoing overview does not provide the full
contours of the original understanding of the Cruel and
Unusual Clause, it demonstrates that Idaho’s actions are far
from a constitutional violation based on the clause’s text and
original meaning. Idaho’s actions simply do not amount to
the “barbarous” or “inhuman” treatment so out of line with
longstanding practice as to be forbidden by the Eighth
Amendment.

(40 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 41 of 48

EDMO V. CORIZON

41

No longstanding practice exists of prison-funded SRS. 4
Indeed, the medical standards at the heart of Edmo’s claim
are innovative and evolving. The standards of care relied on
by Edmo were promulgated by the World Professional
Association for Transgender Health (“WPATH”) in 2011—
only about five years before Edmo’s lawsuit. WPATH,
Standard of Care for the Health of Transsexual,
Transgender, and Gender-Nonconforming People (7th ed.
2011) (“WPATH standards”). As the standards themselves
note, this “field of medicine is evolving.” The WPATH
standards also call for flexibility, individual tailoring, and
wide latitude in treatment options.
Likewise, as recognized by numerous federal courts, the
WPATH standards are not accepted as medical consensus.
The first circuit court to address the issue ruled that the
WPATH standards did not foreclose alternative treatment
options, and that a doctor’s decision to choose a nonWPATH treatment did not violate the Eighth Amendment.
Kosilek v. Spencer, 774 F.3d 63, 90 (1st Cir. 2014). The
Fifth Circuit also found that the WPATH standards remained
controversial and did not reflect a consensus. Gibson,
920 F.3d at 223. Similarly, after reciting the WPATH
standard’s recommended treatment options for gender
dysphoria, the Tenth Circuit rejected a claim that prison
officials acted with deliberate indifference “by
implementing [an alternative] course of treatment
recommended by a licensed medical doctor,” rather than
4
See, e.g., Quine v. Beard, No.14-cv-02726-JST, 2017 WL
1540758, at *1 (N.D. Cal. Apr. 28, 2017), aff’d in part, vacated in part,
rev’d in part sub nom. Quine v. Kernan, 741 F. App’x 358 (9th Cir.
2018); Kristine Phillips, A Convicted Killer Became the First U.S.
Inmate to Get State-Funded Gender-Reassignment Surgery, Wash. Post
(Jan. 10, 2017), https://wapo.st/2S21zP3.

(41 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 42 of 48

42

EDMO V. CORIZON

SRS. Lamb v. Norwood, 899 F.3d 1159, 1163 (10th Cir.
2018), cert. denied, 140 S. Ct. 252 (2019). 5
The debate about the WPATH standards continues even
outside prison walls. The Centers for Medicare and
Medicaid Services (“CMS”) declined to adopt the WPATH
standards due to inadequate scientific backing, and instead
gives providers discretion to apply either the WPATH
standards or their own standards. CMS, Decision Memo for
Gender Dysphoria and Gender Reassignment Surgery
(August 30, 2016), available at https://go.cms.gov/36yMrx
X.
Similarly, the American Psychiatric Association
expressed concern about the scientific evidence
undergirding the WPATH standards. And as recently as
2017, WPATH requested that Johns Hopkins University
conduct an evidence-based review of the standards, a review
that, at the time of Edmo’s lawsuit, was ongoing.
Idaho’s actions reflect the uncertainty regarding the
WPATH standards throughout the medical field, and do not,
under the record, reflect a want of compassion. See supra
O’Scannlain, J., dissenting at 22–29. Given the lack of
medical consensus, Dr. Eliason’s decision to pursue an
alternative treatment, rather than SRS, cannot constitute the
“barbarous” or “inhuman” conduct prohibited by the Eighth
Amendment. See Bucklew, 139 S. Ct. at 1123. Nothing in
the record reflects that Dr. Eliason’s diagnosis and treatment
of Edmo was tainted by malice or animosity. Notably,
Dr. Eliason concluded that Edmo had coexisting mental
5
In the non-SRS context, the Tenth Circuit also found no Eighth
Amendment violation where a doctor prescribed lower hormonal
treatment levels for a gender dysphoric inmate than those suggested by
the WPATH standards. Druley v. Patton, 601 F. App’x 632, 635 (10th
Cir. 2015).

(42 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 43 of 48

EDMO V. CORIZON

43

health issues that required treatment and counseling prior to
considering SRS. The district court itself found Edmo’s
reluctance to address those issues “troubling.” Edmo, 358 F.
Supp. 3d at 1121. Additionally, Idaho had no blanket policy
prohibiting SRS, and Dr. Eliason never definitively ruled it
out. Dr. Eliason committed to monitoring Edmo’s candidacy
for SRS after deciding that Edmo did not meet the criteria
for the procedure in 2016. In sum, Dr. Eliason’s decision to
pursue an alternative treatment to SRS suggests a tailored
evaluation of potential risks and does not reflect the hardhearted or barbarous treatment proscribed by the text of the
Constitution.
Given the facts of this case, Dr. Eliason’s treatment
cannot rise to the infliction of cruel and unusual
punishment—not in a sense that bears any resemblance to
the original meaning of that phrase. This is not to say that
the WPATH standards are not a medically acceptable
standard. But the innovative, contested, and evolving nature
of the WPATH standards, the lack of medical consensus, and
the particular circumstances of this case make clear that no
constitutional violation occurred under the Constitution’s
text and original understanding.
II.
In addition to being inconsistent with the original
understanding of the Eighth Amendment, I, like Judge
O’Scannlain, believe that the panel decision departs from
precedent.
A.
Since Estelle v. Gamble, the Supreme Court has
recognized claims for inadequate medical treatment under
the Eighth Amendment when prison officials act with

(43 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 44 of 48

44

EDMO V. CORIZON

“deliberate indifference to serious medical needs of
prisoners.” 429 U.S. at 104. The test for such a claim
involves “both an objective standard—that the deprivation
was serious enough to constitute cruel and unusual
punishment—and a subjective standard—deliberate
indifference.” Snow v. McDaniel, 681 F.3d 978, 985 (9th
Cir. 2012), overruled on other grounds by Peralta v. Dillard,
774 F.3d 1076 (9th Cir. 2014). Under Ninth Circuit
precedent, if a defendant’s treatment decision was
“medically acceptable,” then the court need go no further:
the plaintiff cannot show deliberate indifference as a matter
of law. Jackson v. McIntosh, 90 F.3d 330, 332 (9th Cir.
1996) (citing Estelle, 429 U.S. at 107–08).
Deliberate indifference is a high bar, involving an
“unnecessary and wanton infliction of pain” or conduct that
is “repugnant to the conscience of mankind.” Estelle,
429 U.S. at 104, 105–06 (citations omitted). An inadvertent
failure to provide adequate medical care is neither, so it
cannot support an Eighth Amendment claim. Id; see also
Farmer, 511 U.S. at 835 (explaining that deliberate
indifference requires “more than ordinary lack of due care
for the prisoner’s interests or safety”) (citation omitted).
A prison official acts with deliberate indifference only
where he “knows of and disregards an excessive risk to
inmate health or safety.” Farmer, 511 U.S. at 837 (emphasis
added). As Justice Thomas describes it, this is the secondhighest standard of subjective culpability under the Court’s
Eighth Amendment jurisprudence—short only of “malicious
and sadistic action for the very purpose of causing harm.”
Id. at 861 (Thomas, J., concurring) (internal quotation marks
and citations omitted).
Such a stringent culpability
requirement “follows from the principle that ‘only the
unnecessary and wanton infliction of pain implicates the

(44 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 45 of 48

EDMO V. CORIZON

45

Eighth Amendment.’” Id. at 834 (quoting Wilson, 501 U.S.
at 294).
Our precedent has consistently emphasized the
challenging threshold for showing deliberate indifference. 6
Rightfully so, too. In the 44 years since Estelle, an unbroken
line of Supreme Court cases reaffirmed that mere
negligence, inadvertence, or good-faith error cannot
establish an Eighth Amendment claim. 7
B.
The panel’s decision here dilutes the otherwise stringent
deliberate indifference standard. The panel begins by
finding Edmo’s gender dysphoria to be a “serious medical
6
See Hamby v. Hammond, 821 F.3d 1085, 1092 (9th Cir. 2016)
(explaining that “[a] difference of opinion between a physician and the
prisoner—or between medical professionals—concerning what medical
care is appropriate does not amount to deliberate indifference,” and
reiterating the “high legal standard” for showing an Eighth Amendment
violation) (citations omitted); Toguchi v. Chung, 391 F.3d 1051, 1060
(9th Cir. 2004); Hallett v. Morgan, 296 F.3d 732, 745 (9th Cir. 2002);
Wood v. Housewright, 900 F.2d 1332, 1334 (9th Cir. 1990).
7
See Minneci v. Pollard, 565 U.S. 118, 130 (2012) (noting that “to
show an Eighth Amendment violation a prisoner must typically show
that a defendant acted, not just negligently, but with ‘deliberate
indifference’”) (citing Farmer, 511 U.S. at 825, 834); Ortiz v. Jordan,
562 U.S. 180, 190 (2011) (restating Farmer’s articulation of the
deliberate indifference standard); Wilson, 501 U.S. at 297
(“[A]llegations of ‘inadvertent failure to provide adequate medical care,’
or of a ‘negligent . . . diagnosis,’ simply fail to establish the requisite
culpable state of mind.”) (internal citations and alterations omitted);
Whitley, 475 U.S. at 319 (“To be cruel and unusual punishment, conduct
that does not purport to be punishment at all must involve more than
ordinary lack of due care . . . . It is obduracy and wantonness, not
inadvertence or error in good faith, that characterize the conduct
prohibited by the Cruel and Unusual Punishments Clause[.]”).

(45 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 46 of 48

46

EDMO V. CORIZON

need.” Edmo, 935 F.3d at 785. It then determines, based
solely on the WPATH standards, that Dr. Eliason’s failure to
recommend SRS was medically unacceptable. Id. at 786–
92. From there, the panel leaps to conclude that Dr Eliason
was “deliberately indifferent” precisely because it viewed
his treatment as “ineffective” and “medically unacceptable”
under the panel’s reading of the WPATH standards. Id.
at 793. Thus, under the panel’s approach, compliance with
the court-preferred medical standards (in this case, the
WPATH standards) is the beginning and the end of the
inquiry. This is not the deliberate indifference inquiry
required by precedent.
As an initial matter, and as Judge O’Scannlain aptly
points out, the panel errs in holding up one medically
accepted standard, i.e., the WPATH guidelines, as the
constitutional “gold standard,” thereby precluding any
further debate on the matter. See supra O’Scannlain, J.,
dissenting at 15–22. As discussed above, the WPATH
standards do not establish a definitive medical consensus and
judges applying Eighth Amendment standards should not
and need not take sides in this debate.
More fundamentally though, the panel’s analysis
effectively erases the subjective deliberate indifference
requirement with its circular reasoning. Nowhere does the
panel consider any direct evidence of Dr. Eliason’s
subjective mental state. Cf. Jett v. Penner, 439 F.3d 1091,
1098 & n.2 (9th Cir. 2006) (concluding that a doctor’s
medical note stating “I reviewed xrays which showed no
obvious fracture malalignment,” written after reviewing a
radiology report which specifically indicated a deformity,
could evidence deliberate indifference) (alteration in
original). Nor does the panel consider the many reasons
underlying Dr. Eliason’s decision to decline SRS treatment.

(46 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 47 of 48

EDMO V. CORIZON

47

See supra O’Scannlain, J., dissenting at 15–22. Once those
reasons are swept aside, the panel circularly infers deliberate
indifference based on its prior determination that
Dr. Eliason’s treatment plan was “ineffective” or “medically
unacceptable” under the WPATH standards. See Edmo,
935 F.3d at 793–94 (finding Dr. Eliason deliberately
indifferent because his treatment “stopped short of what was
medically necessary”).
Such an approach is particularly troublesome because, if
replicated, deliberate indifference could be inferred solely
from a finding of a “medically unacceptable” treatment. For
Eighth Amendment claims like Edmo’s, a plaintiff must first
show the “medically unacceptable” treatment of a “serious
medical need[]” and, second, that the doctor’s treatment
decision reflected “deliberate indifference” to the medical
need. Jackson, 90 F.3d at 332. The panel’s analysis
collapses this two-part inquiry into one circular step. If
courts follow the panel’s reasoning, in every case of
medically
unacceptable
treatment,
courts
could
automatically infer deliberate indifference.
Worse still, because “medical acceptability” is an
objective negligence inquiry, the ultimate effect of the
panel’s analysis is to dilute the heightened, subjective
culpability required for deliberate indifference, see Farmer,
511 U.S. at 839–40, into mere negligence, which the
Supreme Court has repeatedly warned falls short of an
Eighth Amendment violation. See, e.g., Estelle, 429 U.S.
at 105–06. By denying rehearing en banc in this case, we
relegate federal judges to the role of referee in medical
disputes. This is not what the Constitution or precedent
envisions.

(47 of 161)

Case: 19-35017, 02/10/2020, ID: 11590647, DktEntry: 105-1, Page 48 of 48

48

EDMO V. CORIZON
***

The Eighth Amendment’s history and text entreat us to
hold the line on the heightened standards for a constitutional
deprivation found in our precedent. As Justice Thomas
rightly observed, “[t]he Eighth Amendment is not, and
should not be turned into, a National Code of Prison
Regulation.” Hudson, 503 U.S. at 28 (Thomas, J.,
dissenting). By judicially mandating an innovative and
evolving standard of care, the panel effectively
constitutionalizes a set of guidelines subject to ongoing
debate and inaugurates yet another circuit split. And by
diluting the requisite state of mind from “deliberate
indifference” to negligence, the panel effectively holds
that—contrary to Supreme Court precedent—“[m]edical
malpractice [does] become a constitutional violation merely
because the victim is a prisoner.” Estelle, 429 U.S. at 106
(altered). I respectfully dissent from the denial of rehearing
en banc.

(48 of 161)

EXHIBIT G

Case: 19-35017, 02/19/2020, ID: 11601278, DktEntry: 108, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 19 2020
MOLLY C. DWYER, CLERK

ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,
v.
CORIZON, INC.; et al.,

No.

19-35017

U.S. COURT OF APPEALS

D.C. No. 1:17-cv-00151-BLW
District of Idaho,
Boise
ORDER

Defendants-Appellants,
and
IDAHO DEPARTMENT OF
CORRECTIONS; et al.,
Defendants.
ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,
v.
IDAHO DEPARTMENT OF
CORRECTIONS; et al.,
Defendants-Appellants,
and
CORIZON, INC.; et al.,
Defendants.

No.

19-35019

D.C. No. 1:17-cv-00151-BLW
District of Idaho,
Boise
ORDER

Case: 19-35017, 02/19/2020, ID: 11601278, DktEntry: 108, Page 2 of 2

Before: McKEOWN and GOULD, Circuit Judges, and LASNIK,* District Judge.
Appellants’ motion to stay the mandate pending filing of petition for writ of
certiorari, (No. 19-35017, Dkt. 106; No. 19-35019, Dkt. 108), is denied.

The Honorable Robert S. Lasnik, United States District Judge for the
Western District of Washington, sitting by designation.
*

2

Case: 19-35017, 02/19/2020, ID: 11601511, DktEntry: 109, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 19 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ADREE EDMO, AKA Mason Edmo,
Plaintiff - Appellee,
v.
CORIZON, INC.; et al.,

No. 19-35017
D.C. No. 1:17-cv-00151-BLW
U.S. District Court for Idaho, Boise
MANDATE

Defendants - Appellants,
and
IDAHO DEPARTMENT OF
CORRECTIONS; et al.,
Defendants.

ADREE EDMO, AKA Mason Edmo,
Plaintiff - Appellee,
v.
IDAHO DEPARTMENT OF
CORRECTIONS; et al.,
Defendants - Appellants,
and
CORIZON, INC.; et al.,

No. 19-35019
D.C. No. 1:17-cv-00151-BLW
U.S. District Court for Idaho, Boise

Case: 19-35017, 02/19/2020, ID: 11601511, DktEntry: 109, Page 2 of 2

Defendants.
The judgment of this Court, entered August 23, 2019, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
Costs are taxed against the appellants in the amount of $292.90.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Rhonda Roberts
Deputy Clerk
Ninth Circuit Rule 27-7

